<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]




 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                         TUESDAY, JUNE 27, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 9:40 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lisa Murkowski (Chairman) 
presiding.
    Present: Senators Murkowski, Udall, Leahy, Daines, Tester, 
Van Hollen, and Capito.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF THE HON. SCOTT PRUITT, ADMINISTRATOR
ACCOMPANIED BY:
        HOLLY GREAVES, SENIOR ADVISOR TO THE ADMINISTRATOR

              OPENING STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Good morning. The subcommittee will come 
to order.
    Today, we will review the fiscal year 2018 budget request 
for the Environmental Protection Agency. I would like to 
welcome you, Administrator Pruitt, to the subcommittee. It is 
good to have you back here. The Administrator is accompanied 
this morning by Holly Greaves, who is a Senior Advisor to the 
Administrator. So, again, I appreciate you being here. I look 
forward to a productive dialogue this morning.
    As a reminder, we will adhere to the early bird rule, we 
will go back and forth, 6-minute rounds. So, because I'm 
assuming that we will have a fair amount of interest this 
morning, I'm going to ask Members to stick to the time limit as 
closely as possible. I do anticipate that we will have multiple 
rounds, but I recognize that the Administrator does have a hard 
stop at noon due to a commitment that requires travel.
    The EPA's fiscal year 2018 budget request totals 
approximately $5.7 billion. The proposal is a stark change from 
the funding levels provided in the fiscal year 2017 Omnibus and 
represents a substantially different vision for EPA than we saw 
in the previous administration, and that is not necessarily a 
bad thing.
    For years, the Agency has overstepped its appropriate role. 
Rather than focusing on the core mission of cleaning up the 
environment, the Agency has produced rule after rule using 
questionable legal authority. Rather than being treated as 
partners, States were often treated as adversaries simply 
because they had a different plan to comply with environmental 
regulations.
    I have expressed concern for years that the Agency's work 
on the Waters of the United States rule was very problematic 
for the State of Alaska because the rule would subject even the 
most routine projects to EPA's scrutiny and delay. Those 
concerns were ignored as the Obama administration advanced a 
flawed rule that was stayed in the courts.
    So, Administrator Pruitt, I appreciate your plan to take a 
commonsense approach to this issue.
    The Agency is currently taking a hard look at duplicative 
and unnecessary financial assurance requirements for hardrock 
mining that were advanced during the previous administration.
    Administrator Pruitt, you have signaled a desire to refocus 
the Agency on its core mission. You have also signaled a desire 
to spend more time moving forward with measures that have 
tangible environmental benefits and less time writing rules 
that may or may not make a real on-the-ground difference. We 
should all be with you in making this commonsense approach. 
Ensuring that we have clean air and clean water is a serious 
mission that deserves support.
    We can maintain responsible levels of spending at the EPA 
and continue our efforts to keep our air and water clean. 
Unnecessary regulations do not always result in a cleaner 
environment.
    So I would like to speak to the specifics in the budget 
now. And given that the subcommittee has already reduced 
spending at the Agency, I don't believe that we can achieve the 
level of budget cuts proposed in the fiscal year 2018 budget 
and effectively move forward with a back-to-basics approach 
that I do support. And some of the proposed reductions and 
eliminations in the budget are in direct contrast to that back-
to-basics approach.
    For instance, the budget proposes eliminating the Alaska 
Native Villages program, which provides critical basic drinking 
water and sanitation infrastructure, basically known as flushed 
toilets and running water. And in so many of our Alaska Native 
villages, we simply do not have this basic infrastructure.
    The Targeted Airshed Grants program, which was also 
proposed for elimination by the Obama administration, is 
helping clean up air pollution in places like Fairbanks with 
real on-the-ground measures like changing out woodstoves that 
are less efficient.
    The radon program, which the Obama administration also 
proposed to eliminate, helps fight the second leading cause of 
lung cancer after smoking. We have rejected changes like these 
in the past, and I will certainly push my colleagues to do so 
again this year.
    I am pleased that the budget proposes current funding 
levels for the Clean Water and Drinking Water State Revolving 
Funds and continues funding for the WIFIA program. I think we 
recognize we need to find creative ways to meet our Nation's 
water infrastructure challenges.
    Beyond infrastructure, I'm committed to ensuring that the 
Agency has the resources it needs to process air, water, and 
pesticides permits, as well as to implement the new TSCA law, 
which is a priority for the Ranking Member, and I know is a 
priority for you.
    As with every President's budget, the fiscal year 2018 
request is a proposal, and the subcommittee now has the 
difficult job of crafting an appropriations bill that actually 
directs those taxpayer dollars.
    So before I close, I would like to briefly mention my hope 
that the new administration will work with me on a number of 
lower profile issues, certainly important to us, but very 
unique to Alaska.
    And, Administrator, you and I have had an opportunity to 
discuss some of them, but they include things like fish 
grinding to PM<INF>2.5</INF> in Fairbanks, to small remote 
incinerators. As I mentioned, I had a pretty good working 
relationship with Administrator McCarthy, and we were able to 
move the ball forward somewhat, but in several cases, we just 
weren't able to get it across the line. And so it's my hope 
that we'll be able to work together to address these 
environmental issues in a sensible manner. So know that I'll be 
asking about some of these more parochial issues in my question 
time.
    And now I would like to turn to my Ranking Member, Senator 
Udall, for any comments.

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Thank you so much, Madam Chair.
    And, Administrator Pruitt, I appreciate seeing you before 
us today, and I would like to thank Holly Greaves for joining 
us also. Welcome to you both.
    Administrator Pruitt, the budget request before us today is 
downright offensive. It would slash EPA funding by nearly a 
third, research is cut in half, enforcement is cut by a 
quarter, toxic cleanup is cut by 30 percent, support for States 
is slashed by 45 percent, tribal support is cut by 30 percent, 
environmental justice programs are zeroed out, and all climate 
change programs are eliminated.
    I cannot square this with your rhetoric about returning EPA 
to its core responsibilities. Nothing was spared. EPA's core is 
hollowed out. And let's not pretend that the Agency hasn't 
already sustained cuts and already been working hard to do more 
with less. Staffing has slid a full 10 percent over the last 
decade. The Agency's budget has dropped nearly 1 billion in 
real terms. These cuts are not an attempt to rein in spending; 
they are intentional steps to undermine science and ignore 
environmental and public health realities.
    Your budget actually boasts about eliminating 60 programs, 
reversing real progress in every corner of our Nation, from the 
U.S.-Mexico Border to Chesapeake Bay. Also eliminated are the 
ENERGY STAR and WaterSense programs, market-based partnerships, 
which together have saved consumers nearly a trillion dollars 
on their utility bills.
    Many of the programs you are proposing to eliminate have 
proven track records. The budget takes aim at the U.S.-Mexico 
Border Infrastructure Program, which has eliminated 353 million 
gallons of raw sewage per day from transport or watersheds, 
significantly reducing cases of hepatitis A, skin disorders, 
and gastrointestinal disease. The idea that these programs are 
unnecessary, redundant, or even mature ignores real results and 
the need to sustain the progress we have made.
    The only bright spot I see in this budget is continued 
funding for drinking water and clean water infrastructure for 
States proposed at $2.25 billion, but the administration's 
support for the States goes dark after water infrastructure.
    Administrator Pruitt, you have expressed your intent to 
return responsibility to the States, but then you propose to 
cut States' funding by 45 percent. States are on the front line 
for implementing most of our Federal environmental laws. They 
rely on EPA for more than a quarter of the funding needed to 
carry out these delegated responsibilities. States are the ones 
that run programs to decrease childhood lead poising; prevent 
radon poisoning in schools and homes; oversee public water 
systems to prevent tragedies like Flint, Michigan; reduce 
ozone; monitor water pollution; and ensure safe disposal of 
hazardous waste. In other words, cutting this funding is a 
backdoor evisceration of the core programs you claim to prize.
    The budget also proposes to cut enforcement by 23 percent, 
taking cops off the beat from holding polluters accountable. We 
do not need to guess how this would turn out. Reagan era cuts 
to EPA similar to the size you propose resulted in 69 percent 
fewer civil cases referred to the Justice Department.
    And for an administration focused on return to investment, 
it's surprising to see a proposal to scale back such an 
effective tool in EPA's toolbox. Compliance stemming from 
enforcement cases have generated $60 billion in pollution 
control investments in just the past 5 years.
    This proposal also cuts 30 percent from Superfund cleanup, 
by definition, the most contaminated sites in the Nation. More 
than 1,300 sit on a waiting list. I understand you started a 
task force to speed up Superfund cleanups. I welcome a fresh 
look at the process, but I'm worried that a focus on speed will 
lead to shortcuts and lax standards. Sites like the Bonita Peak 
Mining District, which includes the Gold King Mine, need 
comprehensive remediation, not a ``Band-Aid.''
    I'm also troubled that your budget proposes to eliminate $4 
million for independent monitoring of the water still flowing 
every day from the Gold King Mine into areas of New Mexico. I 
worked hard last year to start that program. I'm committed to 
continuing this funding despite the administration's proposal 
to stop supporting the Navajo in the States in this effort. It 
is critical to the health of those living downstream from Gold 
King Mine. It's also critical that we ensure those affected by 
the spill receive proper compensation and continue to work to 
make that happen.
    The budget also cuts research funding in half, which would 
cause ripple effects for generations. How will we identify 
risks? What basis will we have to mitigate the worst impacts on 
our health and environment? It's 2017, but I fear we are 
reverting to the Dark Ages.
    The budget also proposes to fire 3,800 scientists and 
researchers, a full 25 percent of EPA's staff. This comes on 
the heels of 1,500 staff already lost over the last decade, a 
drop of nearly 10 percent. And just last week the 
administration handed out pink slips to most of EPA's Board of 
Scientific Counselors, which ensures that EPA's research is 
grounded in incredible scientific evidence.
    Add this to your backtracking on a growing list of critical 
regulations that were based on sound science for clean water, 
ozone, greenhouse gases, pesticides, methane, and fracking, 
it's clear that this administration is in a relentless pursuit 
to undercut and disregard science to the benefit of industry.
    I was originally heartened by your commitment to toxics 
reform, but last week EPA announced new policies that would 
weaken the risk evaluations at the heart of the program. It 
looks like the chemical industry has punched loopholes into 
TSCA. Your budget appears to preserve most of the funding for 
the Toxics Office, but no amount of funding can overcome 
policies to weaken the intent of the law, and the law should be 
implemented in the same bipartisan, balanced way in which it 
was created in the past.
    Finally, this budget request virtually eliminates every 
dollar of EPA funding related to climate change: fuel 
standards, international partnerships, research, all of it. 
Sadly, these proposed cuts go hand-in-glove with the 
President's decision to renege on our commitments under the 
Paris Agreement. Climate change is a global crisis that 
requires urgent global action, but this administration is 
choosing to isolate the United States from what scientists, 
national security experts, and world leaders agree is one of 
the greatest destabilizing forces of our time: climate change 
and the role of human activity in creating it. As a nation, we 
can't afford to stick our head in the sand and ignore 
scientific reality, just like we can't afford to enact many of 
the other irresponsible cuts included in this budget request.
    Administrator Pruitt, this is a budget--this budget is dead 
on arrival. We agree that EPA funding needs to focus on EPA's 
core responsibilities. To most Americans and to me it's clear 
that this core responsibility is to protect public health and 
ensure clean air and clean water, but this proposed budget 
shows that the new EPA thinks its core responsibility is to 
cater to industry, let polluters off the hook, deny the tenets 
of science, and walk away from our global commitments.
    We obviously have a lot to discuss this morning. Thank you 
for being here.
    Senator Murkowski. Thank you, Senator Udall.
    Senator Leahy, as the Ranking Member of the full committee, 
has asked for a couple moments to enter an opening statement.
    Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you. And both the Chairman and I, of 
the full committee, are trying to organize how we will take 
each one of these appropriations. And, Madam Chair, the work 
that you and Senator Udall are doing, are going to be extremely 
important in that regard.
    I'm afraid, Mr. Pruitt, and I enjoyed talking with you 
earlier this morning, but I think the Trump administration in 
this budget has demonstrated really contempt for the better 
work that the Environmental Protection Agency does to monitor, 
protect, and preserve our environment.
    You know, this budget, this budget that you propose for us, 
doesn't uphold your Agency's mission. I've watched that mission 
for years, both Republican and Democratic administrations. We 
ought to be doubling down on our investment to protect our 
environment for the sake of our children and our grandchildren, 
and curb the effects of climate change. Instead, the 
administration is tearing down the legacies of the Clean Air 
Act, the Clean Water Act, when we ought to be investing in 
green energy and a green economy.
    For example, in my State of Vermont, we have on a per 
capita basis more people working, well employed, in alternative 
energy fields than West Virginia has as coal miners. This 
administration, though, is eliminating programs that support 
science and innovation.
    We have a right to clean air and clean water. We accept 
that as a right in America. It's troubling to countless tens of 
million of Americas, from Baby Boomers to Millennials, that so 
much of this administration's policy and budget choice, from 
EPA to NIH, NOAA, climate change, are really steeped in anti-
science, almost a know-nothingism. If you don't like the 
answers that come from science and monitoring, well, just fire 
the scientists. And then erase the government websites that 
people, both parties, have relied on. Scale back monitoring. 
Well, you can put your head in the sand, but that doesn't do 
anything for America. We wouldn't have cleaner air and water 
today without monitoring and regulation.
    You know, a State like my State of Vermont does a superb 
job as a steward of our air and our water, but we're powerless 
to stop pollution coming in across our borders from other 
States. That's why you have regulations, so everybody has to be 
doing what we do.
    You are not enforcing laws in the book. You're ignoring 
compelling scientific evidence. You've separated us from nearly 
every nation on the planet in a shared pursuit of a cleaner 
environment. You're at the heart of the administration's 
abatement of our role as the global leader in addressing the 
adverse effects of climate change.
    As an American, I liked the fact that America was the 
leader, the world leader, in the environment and protecting the 
environment and climate change. We just gave it away. We gave 
it away. Look who's coming in to try to fill the place, China 
and European countries, saying, ``America is not leading 
anymore. We'll take over.''
    Well, Americans are watching, Vermonters are watching, 
years, decades, of investment in the restoration and cleanup of 
Lake Champlain, the largest body of fresh water in the United 
States outside of the Great Lakes. They're threatened by this 
budget's elimination of the geographic program. That means lost 
jobs, lost economic revenue, lost progress. And even though the 
Lake Champlain cleanup is seen as a national model, in fact, 
it's studied by other countries, we're working hard to have 
farmers in towns implement water protection measures, but we 
have to have Federal resources to address nonpoint source 
pollutants that are harming waterways, not only at Lake 
Champlain, but in the Great Lakes.
    Now, the American people know we can have both jobs and 
clean and water, and they don't accept your choice. It is a 
false choice. And they see you turning the EPA into a polluter 
protection agency. That's not what we want in Vermont. I don't 
think that's what most Americans want. Clean air, clean water, 
and the monitoring and the science to help achieve both of 
those, those are priorities of the American people.
    Your budget is not what the American people want and 
deserve. They deserve better than what this budget puts 
forward. We have to demand better. I agree with the Senator 
from New Mexico, this budget is dead on arrival. And I think 
everybody in this subcommittee knows it is, on both sides of 
the aisle.
    Thank you, Madam Chair.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Chairwoman Murkowski and Ranking Member Udall, this is a timely and 
important hearing. The Trump administration has demonstrated its clear 
contempt for the vital work done by the Environmental Protection Agency 
to monitor, protect and preserve our environment. I wonder how you can 
look at this Committee and defend this as a plan to uphold the Agency's 
mission.
    Where we should be doubling down on our investment to protect our 
environment and curb the effects of climate change, this administration 
is tearing down the legacies of the Clean Air Act and the Clean Water 
Act. At a time when we should be investing in green energy and a green 
economy, this administration is recklessly eliminating programs that 
support science and innovation. Mr. Pruitt, Americans have a right to 
clean air and clean water. Your proposal undermines that right.
    It is troubling to countless tens of millions of Americans, from 
Baby Boomers to Millennials, that so much of this administration's 
policy and budget choices--from the EPA, to NIH, to NOAA, to climate 
change--are steeped in anti-science know-nothingism. Don't like the 
answers that come from science and monitoring? Just fire the 
scientists, scrub government websites, and scale back the monitoring. 
That's pretty close to the definition of putting your head in the sand.
    We wouldn't HAVE cleaner air and water today without monitoring and 
regulation. States like Vermont do a superb job as stewards of our air 
and water, but we are powerless to control the pollution that drifts 
across our borders from other States. Regulation is essential for 
solving problems like that.
    You are choosing not to enforce the laws on the books and are 
ignoring compelling scientific evidence. You have separated us from 
nearly every nation on the planet in a shared pursuit of a cleaner, 
greener environment. You are at the heart of this administration's 
abandonment of our role as the global leader in addressing the adverse 
impacts of climate change.
    Vermonters are watching. Americans across the country are watching. 
Years--decades--of investment in the restoration and cleanup of Lake 
Champlain are threatened by this budget's elimination of the Geographic 
Programs. That means lost jobs, lost economic revenue, and lost 
progress. Vermont's Lake Champlain cleanup effort is seen as a national 
model. We are working hard to help farmers and towns implement water 
protection measures, but we must have Federal resources available to 
address nonpoint source pollutants that are harming waterways like Lake 
Champlain and the Great Lakes.
    Administrator Pruitt, the American people know that we can have 
both jobs, and clean air and water. They don't accept your false 
choice, and they reject the idea of turning the EPA into a polluter 
protection agency. Clean air and water, and the monitoring and the 
science that help achieve that, are the real priorities of the American 
people. Your budget is not what the American people want and deserve. 
They deserve better than what this budget puts forward, and we must 
demand better.

    Senator Murkowski. Thank you, Senator Leahy.
    And as a reminder to the other subcommittee Members who 
would like an opportunity to place an opening statement in the 
record, the subcommittee record will be held open for an 
additional week. So if you would like to do so, just contact 
the subcommittee staff, and they'll make sure that the 
statements are included. The same will hold true for any 
questions that you are unable to ask today that you would like 
submitted as questions for the record.
    So with that, Administrator Pruitt, welcome again to the 
subcommittee. And your comments this morning, please.

                 SUMMARY STATEMENT OF HON. SCOTT PRUITT

    Mr. Pruitt. Thank you, Madam Chair, Ranking Member Udall, 
and Members of the subcommittee. Good morning. I thank you for 
the invitation to be with you this morning to talk about the 
EPA's proposed budget. I'm joined at the table, as indicated 
earlier, by Holly Greaves. She's a senior advisor to me on 
budget and audit.
    With the budget being the focus of our discussion today, 
it's important to note the work we are doing as an agency to 
bring the EPA back to its core mission. Specifically as part of 
our back-to-the-basics agenda, we are focused on air attainment 
and air quality standards, clean water and fixing our outdated 
infrastructure, clean up contaminated land through Superfund 
and Brownfield programs, and carrying out the very important 
responsibilities and updates to the TSCA legislation that this 
body knows very well.
    More generally, when I began my work at the Agency, I set 
three core principles by which I would operate and carry out 
our responsibilities.
    The first is to focus on rule of law. We are reversing an 
attitude and approach that one can simply reimagine authority 
under statutes. I firmly believe that Federal agencies exist to 
administer the law. It's Congress who has the constitutional 
authority to pass statutes. Agencies, including the EPA, have a 
responsibility to implement those statutes pursuant to the 
wishes of Congress. Any action by EPA that exceeds that 
authority by definition cannot be consistent with the Agency's 
core mission.
    Along with respect for rule of law, we are focused on 
process. Over the last several years, the Agency has engaged in 
rulemaking through consent decrees, sue and settle practices, 
and guidance. Regulation through litigation is something we 
will not continue at the EPA. We will make sure that process is 
respected and implemented so that people across the country can 
make their voices heard as we engage in rulemaking.
    And, thirdly, we are emphasizing the importance of 
cooperative Federalism, respecting the role of the States. As 
you all know well, a one-size-fits-all strategy to achieve 
environmental outcomes is very difficult to achieve. What may 
work in Arizona may not work in Tennessee. I recognize that 
States have unique environmental challenges and needs, and I 
will continue to engage in meaningful discussions about how 
shared environmental goals related to these regions can be 
achieved.
    With respect to the budget and these priorities and 
principles that I've shared with you this morning, I believe 
that we can fill the mission of our agency with a trim budget 
through proper leadership and management. We will work with 
Congress to help focus our national priorities with respect to 
the resources that you provide. And we will continue to focus 
our efforts on the core responsibilities, working cooperatively 
with the States to improve our air, land, and water.
    As I have indicated, clean air goes to the heart of human 
health, and we are focused on increasing air attainment through 
compliance and assistance and enforcement. We've made 
tremendous progress as a country through investment, through 
rulemaking. Since 1980, total emissions under the six criteria 
of pollutants that we regulate under the NAAQS program have 
decreased approximately 65 percent, and ozone levels have 
decreased almost 33 percent. We should celebrate this progress 
but recognize that we have much work to do, and it should be 
our focus at the EPA to find ways to increase the number of 
people living in attainment, living and working in areas that 
meet the National Air Quality Standards.
    The President has made it clear that maintaining 
infrastructure is critical to this country, and at the EPA, 
that means ensuring we continue to make investments in drinking 
water, in wastewater infrastructure. We will continue to 
partner with the States to address sources of drinking water 
contamination, and these efforts are integral to infrastructure 
efforts because source water protection can reduce the need for 
additional drinking water treatment and avoid unnecessary 
costs.
    And like President Trump, I believe we need to work with 
the States to understand what they think is the best way to 
achieve protection of the waters and the actions that they are 
engaged in to achieve that purpose. The EPA should only 
intervene when States demonstrate an unwillingness to comply 
with the law or do their job with regard to keeping water clean 
and water safe.
    With regard to contaminated land, we are going to punish 
bad actors, and that means that our job is to punish those who 
violate the law to the detriment of human health and the 
environment. EPA's enforcements efforts have produced billions 
of dollars in cleanup commitments from violators and billions 
of pounds of pollution prevented and cleaned up as a result of 
those commitments today.
    As States are the primary implementers of many enforcement 
action programs, we will work with our State partners to 
achieve compliance and enforcement goals, and we will focus our 
resources on our direct responsibilities.
    When we do not stay within the law as an agency, we create 
inconsistency and uncertainty for the regulated community. 
Regulatory certainty is key to how we do our job. We need to 
outline exactly what is expected of our businesses and industry 
and citizens because when we do our job well, we create good 
environmental outcomes.
    Madam Chair, Members of the subcommittee, I appreciate the 
opportunity to share briefly this positive environmental 
agenda. We are moving forward focused on these core priorities, 
and I look forward to working with you to achieve the goals of 
clean air, land, and water, and protecting human health as we 
engage in the discussion today.
    Thank you, Madam Chair.
    [The statement follows:]
                Prepared Statement of Hon. Scott Pruitt
    Good morning, Chairman Murkowski, Ranking Member Udall, and Members 
of the subcommittee. I am joined by Holly Greaves, my senior advisor 
for budget and audit, and we are here today to discuss the 
Environmental Protection Agency's (EPA) proposed fiscal year 2018 
budget.
    As the Administrator of the Environmental Protection Agency, I am a 
firm believer in EPA's mission to protect human health and the 
environment and am committed to helping provide future generations with 
a better and healthier environment. I also firmly believe that Federal 
agencies exist to administer the law. Congress passes statutes, and 
those statutes outline the responsibilities and work that EPA must do. 
Any action by EPA that exceeds the authority granted to it by Congress, 
by definition, cannot be consistent with the Agency's mission.
    At the outset, it is important to recognize the tremendous progress 
that has been made over the years toward a cleaner environment across 
the country. The proposed budget supports EPA's highest priorities with 
Federal funding for core work in air and water quality, contaminated 
land clean-ups, enforcement and ensuring the safety of chemicals in the 
marketplace so we can continue this progress. The President's budget 
aims to reduce redundancies and inefficiencies, and prioritize EPA's 
core statutory mission of providing Americans with clean air, land, and 
water.
    EPA can accomplish a lot when the Agency focuses on working 
cooperatively with the States and Tribes to improve health and the 
environment. It is essential for the Federal Government, State 
governments, and Tribal governments to work together to provide the 
environmental protection that our laws demand and that the American 
people deserve. I strongly support cooperative Federalism, and make 
every effort to partner with EPA's counterparts in State, local, and 
Tribal governments to further these goals.
    I recognize that States have unique environmental needs, and I will 
continue to engage in meaningful discussions about how shared 
environmental goals related to the regions can best be achieved. We 
will work collaboratively with States, Tribes and local governments to 
provide flexibility to address important priorities. And, I look 
forward to working with you all, and other Members of Congress, to 
ensure we meet the environmental needs of your communities.
    In my testimony today, I will focus on five main areas where EPA is 
protecting human health and the environment: air, water, land, 
chemicals and enforcement. I will also outline how EPA is reducing 
inefficiencies and redundancies, to better serve the American people 
and maximize every taxpayer dollar we are allocated.
                    improving america's air quality
    By funding air quality work at $448 million, EPA will continue to 
perform key activities in support of protecting human health and the 
environment through improving the quality of the Nation's air with a 
focus on States achieving greater levels of attainment.
    States have made tremendous progress and significant investment in 
cleaning up the air. Since 1980, total emissions of the six criteria 
air pollutants regulated under the National Ambient Air Quality 
Standards program have dropped by 63 percent and ozone levels have 
declined 33 percent. We are focused on finding ways to get more 
accurate measurements of the areas of the country that need help 
improving their air quality--and then working with States on meeting 
the standards set by the Agency.
    Areas designated as being in ``nonattainment'' of the standard face 
consequences, including: increased regulatory burdens, restrictions on 
infrastructure investment, and increased costs to businesses.
    EPA is working with States to give them additional time on their 
initial designations of nonattainment areas for the 2015 ozone standard 
to better understand some lingering technical questions and information 
needs. The agency also is looking at ways to provide greater 
flexibility in the development of their air quality improvement plans. 
And, I am establishing an Ozone Cooperative Compliance Task Force to 
develop additional flexibilities for States to comply with the ozone 
standard.
    My staff and I inherited an unacceptable backlog of air quality 
implementation plans from the previous administration. The backlog of 
these State Implementation Plans (SIPs) creates vast uncertainty for 
States and compromises air quality benefits that otherwise could be 
attained. I am committed to reducing the SIP backlog and have directed 
my staff to work with the States to reduce this backlog as quickly as 
possible.
    The proposed budget also provides funding for the Greenhouse Gas 
Reporting Program which requires mandatory greenhouse gas emissions 
reporting to inform the annual GHG inventory, a U.S. treaty obligation. 
Additionally, in fiscal year 2018, the Federal Vehicle and Fuels 
Standards and Certification program will focus its efforts on 
certification decisions. The agency will conduct activities supporting 
pre-certification confirmatory testing for emissions and fuel economy 
for passenger cars.
    When it comes to people living and working in areas that meet air 
quality standards, we are committed to working with States to do better 
than what was happening under the previous administration.
        restoring the role of states in the regulation of water
    The President has made it clear that maintaining infrastructure is 
critical to the foundation of this country's commerce. At EPA, this 
means in large part ensuring we continue to make investments in 
drinking water and wastewater infrastructure.
    The fiscal year 2018 budget includes $2.3 billion to capitalize the 
State Revolving Funds to assist our implementing partners in 
revitalizing and rebuilding our Nation's aging water resources. The 
fiscal year 2018 budget also includes $20 million for the Water 
Infrastructure Finance and Innovation Act (WIFIA) program to address 
aging water infrastructure. The $20 million provided for WIFIA could 
provide up to $1 billion in credit assistance, which, when combined 
with other funding resources, could spur an estimated $2 billion in 
total infrastructure investment.
    Established by the Water Infrastructure Finance and Innovation Act 
of 2014, EPA's WIFIA program is a Federal loan and guarantee program 
that aims to accelerate investment in our Nation's drinking water and 
wastewater infrastructure by providing long-term, low-cost supplemental 
credit assistance for eligible projects, including those of regional or 
national significance. WIFIA supports projects to repair, rehabilitate, 
and replace aging water treatment plants and pipe systems, and 
construct new infrastructure including desalination, water recycling, 
and drought mitigation projects.
    Organizations from across the country are seeking to partner with 
EPA to invest in their local communities and improve water 
infrastructure with WIFIA, with `letters of interest' from prospective 
buyers across 19 States, including: Arkansas, Arizona, California, 
Colorado, Florida, Georgia, Illinois, Indiana, Kansas, Maine, Maryland, 
Massachusetts, Mississippi, Missouri, Nebraska, Pennsylvania, 
Tennessee, Washington, and Wisconsin.
    EPA will continue to partner with States, drinking water utilities, 
and other stakeholders to identify and address current and potential 
sources of drinking water contamination, particularly in areas of 
significant regional and national importance. These efforts are 
integral to infrastructure efforts because source water protection can 
reduce the need for additional drinking water treatment and avoids the 
associated costs.
    To assure the American people that their water is safe to drink, 
the EPA's drinking water regulatory program monitors for a broad array 
of contaminants, evaluates whether contaminants are of public health 
concern, and regulates contaminants when there is a meaningful 
opportunity for health risk reduction for persons served by public 
water systems. In addition, the EPA will work to reduce lead risks 
through revisions to the Lead and Copper Rule (LCR), and regulations to 
implement the Water Infrastructure Improvement for the Nation Act and 
the Reduction of Lead in Drinking Water Act.
    EPA will continue to provide scientific water quality criteria 
information to our partners and the public, review and approve State 
water quality standards, and review and approve State lists of impaired 
waters. In fiscal year 2018, the agency will work with States and other 
partners on Total Maximum Daily Loads (TMDLs) as required by the Clean 
Water Act, as well as on other waterbody restoration plans for listed 
impaired waterbodies. EPA also will continue to implement and support 
core water quality programs that control point-source discharges 
through permitting and pre-treatment programs.
    Like President Trump, I believe that we need to work with our State 
governments to understand what they think is the best way to protect 
their waters, and what actions they are already taking to do so. EPA 
should only intervene when States demonstrate an unwillingness to 
comply with the law or to do their job, with regard to keeping water 
clean and safe for families, businesses, and the public at large.
    The Clean Water Act asserts Federal control over ``navigable 
waters'' without providing clarity or details about the law's scope. 
President Trump signed an executive order on February 28, 2017 to 
directing the EPA and the Corps of Engineers to review the Obama 
Administration's Clean Water Rule--also known as the ``Waters of the 
U.S.'' or WOTUS--and propose to rescind or revise the rule as 
appropriate and consistent with the law and to ensure that we are 
meeting the original goals and policies of the Clean Water Act, as 
Congress has established.
    To meet the objectives of the Executive order, the EPA and the 
Office of the Assistant Secretary of the Army for Civil Works have 
already begun soliciting input from States, Tribes, and other 
stakeholders and are following a two-step process that will provide as 
much certainty as possible, as quickly as possible, to the regulated 
community and the public during this process.
        cleaning up contaminated land to revitalize communities
    In an effort to restore the cleanup of contaminated lands to its 
rightful place at the center of the EPA's core mission, I am 
prioritizing Superfund cleanups. EPA's Superfund program is responsible 
for the cleanup of some of the Nation's most contaminated areas. One of 
my first actions as Administrator was to visit the community of East 
Chicago, Indiana, a Superfund site where residents have been dealing 
for decades with lead contamination from a former smelter. We've 
installed a new ombudsman office in the community to make sure 
residents are kept informed, we have worked with the State and local 
officials on providing clean drinking water, and we have worked with 
some of the responsible parties to secure more money to clean up 
additional homes.
    During my confirmation process and in my time as Administrator, I 
have heard from families and community members, elected officials, and 
business leaders that the cleanup of contaminated sites takes too long. 
I have already taken a number of steps to elevate these issues within 
the Agency and to make sure that we are doing all we can to ensure 
cleanups are occurring without delay, sites are being put back to 
productive use wherever possible, and families and nearby residents 
know that their communities are safe. I have changed the approval 
process for sites with remedies estimated to cost $50 million or more 
to ensure they get the appropriate level of attention from myself and 
my senior staff. I have also established a Superfund task force to 
provide me with recommendations on how EPA can streamline and improve 
the Superfund program.
    In addition to the Superfund program, the Brownfields grants 
programs will safely clean-up and restore to enable the redevelopment 
of contaminated land under my leadership at EPA. These programs not 
only return land to productive use but also help spur economic 
development and job creation. Brownfields grants have a community 
driven approach, with over 67,000 acres of idle land made ready for 
productive use and over 124,300 jobs and $23.6 billion leveraged.
    Land cleanup and restoration efforts will continue at a funding 
level of $992 million in fiscal year 2018. When it comes to cleaning up 
these sites, I believe that with better leadership, and reducing 
inefficiencies and administrative costs, we can take steps to 
accelerate the pace of the clean- ups.
              ensuring the safety of chemicals in commerce
    Ensuring the safety of chemicals used in commerce is a priority. 
Resources are needed to support efforts to minimize American exposure 
to pesticides, help maintain a healthy food supply and address public 
health concerns.
    The EPA's toxics program will maintain its `zero tolerance' goal 
for preventing the introduction of unsafe new chemicals into commerce. 
In fiscal year 2018, $65 million is requested for the Toxic Substances 
Control Act (TSCA) Chemical Risk Review and Reduction Program to 
support the agency's significant continuing and new responsibilities 
for ensuring that chemicals in commerce do not present unreasonable 
risks to human health or the environment. New chemicals will be 
evaluated and decisions will be based on the best available science and 
the weight of evidence.
    EPA reviews about 1,000 new chemicals per year, and must complete 
the review of each submission within a specified timeframe, resulting 
in about 300 chemicals under review at any given time. By January 2017, 
the number under review had grown to about 600.
    Under my leadership, we have split by half the backlog of new 
chemical submissions being reviewed under TSCA, with plans to fully 
eliminate the backlog by the end of July. The agency is also increasing 
transparency for the public and the regulated community about these 
chemicals.
    We are working with companies to gather all the relevant 
information early in the process, to inform safety reviews for new 
chemicals. Reviewing new chemicals quickly will enable those deemed 
safe to enter the marketplace to support jobs and our economy.
    The reduction in the backlog is the result of prioritizing and 
implementing process efficiencies. EPA will continue to work with all 
stakeholders to identify additional changes to improve the quality, 
efficiency and transparency of the new chemical review program.
    For chemicals in commerce, EPA will maintain an ambitious schedule 
for initiating and completing chemical risk evaluations and, where 
risks are identified, for initiating and completing regulatory actions 
to address those risks. EPA also will implement the new mandates 
related to determinations on claims for confidentiality for chemical 
identities.
    In fiscal year 2018, the agency will continue implementing TSCA 
activities not amended by the Frank R. Lautenberg Chemical Safety for 
the 21st Century Act. The agency also will provide firm and individual 
certifications for safe work practices for lead-based paint abatement 
and renovation and repair efforts, as well as provide for the operation 
and maintenance of the online Federal Lead-Based Paint program database 
(FLPP) that supports the processing of applications for training 
providers, firms and individuals.
    Identifying, assessing, and reducing the risks presented by the 
pesticides on which our society and economy rely is integral to 
ensuring environmental and human safety. Chemical and biological 
pesticides help meet national and global demands for food. They provide 
effective pest control for homes, schools, gardens, highways, utility 
lines, hospitals, and drinking water treatment facilities, while also 
controlling vectors of disease. The program ensures that the pesticides 
available in the U.S. are safe when used as directed. In addition, the 
program is increasing the focus on pollinator health, working with 
other Federal partners, States, and private stakeholder groups to stem 
pollinator declines and increase pollinator habitat.
    In fiscal year 2018, EPA will invest resources to improve the 
compliance of pesticide registrations with the Endangered Species Act. 
A portion of the funding also will ensure that pesticides are correctly 
registered and applied in a manner that protects water quality.
                          punishing bad actors
    EPA will remain focused on punishing bad actors. That means 
enforcing civil and criminal cases in areas that address substantial 
impacts to human health and the environment. EPA's enforcement efforts 
have produced billions of dollars in cleanup commitments from violators 
and billions of pounds of pollution prevented and cleaned up as a 
result of those commitments to date.
    As States are the primary implementers of many enforcement action 
programs, we will focus agency resources on non-delegated programs. We 
will rely on our State partners to achieve compliance and enforcement 
goals, and we will focus resources on our direct implementation 
responsibilities and oversight, emphasizing violations with public 
health and environmental impacts.
                              streamlining
    As careful stewards of taxpayer resources, we will look to attack 
waste by examining our programs that are unnecessary, redundant, or 
those that have served their purpose and accomplished their mission or 
are outside EPA's statutory mandates. The fiscal year 2018 budget 
identifies and eliminates programs so that EPA can focus on its 
statutory mission, achieving greater value and greater results.
    In fiscal year 2018, these efforts include streamlining permitting 
processes and National Environmental Policy Act (NEPA) infrastructure 
project reviews along with the focused effort on improving Superfund 
processes. We will build on business process improvements by partnering 
with States, Tribes, and local governments to expand and support 
approaches across all our programs.
    To help achieve its mission, EPA will develop, review and analyze 
program requirements and implement options to effectively align and 
redistribute the agency's workforce based on priorities and 
technological advances. The result of these analyses is expected to 
create a need to reshape the workforce and maintain the current hiring 
freeze. The agency will also offer voluntary early out retirement pay 
(VERA) and voluntary separation incentive pay (VSIP) in fiscal year 
2018 to achieve effective reshaping.
    This budget does not include plans to close regional offices, but 
we will continue to prioritize efforts that save taxpayer dollars 
through space consolidation and essential renovations to reduce and 
optimize our physical footprint.
    The budget request also significantly reduces or eliminates funding 
for mature programs that no longer need a Federal presence or can be 
implemented by others. We will work with States and Tribes to target 
resources to core statutory work and provide flexibility to address 
particular priorities and concerns. The fiscal year 2018 President's 
budget identifies and eliminates programs, to save taxpayers $1.03 
billion relative to our fiscal year 2017 enacted budget.
    We are committed to performing the work that is necessary to meet 
our mission of protecting public health and the environment. With 
support from our State and local partners--and by working with each of 
you, and your colleagues in Congress, we can make a real difference to 
communities across America.
    I look forward to answering your questions.

                         STATE OF ALASKA ISSUES

    Senator Murkowski. Thank you, Administrator.
    My first question is so easy I shouldn't even be asking it, 
but I will because it's a priority for folks back home. And I 
mentioned in my opening that I had a number of parochial 
interests that we've been trying to advance over the course of 
many years, and with the former Administrator, we were able to 
schedule somewhat regular meetings with her and some of her 
team as well as my team to basically go through a punch list on 
the progress that we were making. I would like to restart those 
types of meetings with your folks, and I would like your 
commitment to that today.
    Mr. Pruitt. Yes, Madam Chair. As we met earlier at lunch, 
we started that process, and I look forward to working with you 
on those very important issues to the State of Alaska.

                        CONTAMINATED LAND ISSUES

    Senator Murkowski. Good. Thank you. And you had mentioned 
in your comments just here your commitment to ensuring that we 
have clean lands and a level of enforcement for those that 
would degrade the quality of our lands.
    While not necessarily in your jurisdiction here or your 
lines, we had Secretary Zinke before the subcommittee just last 
week, and it gave me an opportunity to speak with him about 
some of the failures that we have seen as it relates to our own 
Federal Government in failing to clean up lands, whether it's 
the legacy wells on the North Slope of Alaska, or whether it is 
lands that were conveyed to Alaska Natives as part of their 
land claim settlement that were conveyed as contaminated 
properties.
    Part of what we have been dealing with the contaminated 
lands issues is there has not been anybody that has been 
willing to be lead agency. I am not necessarily asking you to 
be lead, but I am saying that this is interagency, this is 
departments cooperating together, and hopefully we'll have an 
opportunity to sit with you, as the Administrator, and 
Secretary Zinke to talk about a game plan moving forward with 
some of these lands issues.
    Mr. Pruitt. Yes. As you've indicated, Madam Chair, there 
are Superfund sites across the country that have Department of 
Defense-Department of Energy responsibility, and that 
interagency coordination and collaboration is very, very 
important. What I've noticed as I reviewed our Superfund 
portfolio is that many times a decision just languishes over 
years. I think some of that is attributable to what you've 
identified this morning. You have the potential responsible 
parties, but you also have other agencies at the Federal level, 
and working with those agencies sometimes is very challenging.
    I've already reached out to some of my fellow members of 
the Cabinet with respect to these issues. I look forward to 
working with you to hopefully engage in a meaningful discussion 
on how we can work together interagency to achieve very 
definitive, clear processes to clean and remediate these sites.

                         BUDGET PRIORITIZATION

    Senator Murkowski. I think that will be key because if you 
are the individual, if you're the community, you don't care 
which department, which agency, has the responsibility, what 
you care is that it gets addressed. So I look forward to 
working with you on that.
    You're going to hear a lot of questions I think this 
morning about prioritization and the fact that a budget that 
comes out is effectively a prioritization of what is important. 
And in this fiscal year 2018 budget request, you do fund the 
Clean Water and Drinking Water State Revolving Funds equal to 
what we did in fiscal year 2017 in the Omnibus.
    Many other programs, again, as I have cited, and as the 
Ranking Member and the Ranking Member of the full committee 
have cited, have been chosen to be axed or reduced 
dramatically.
    I want to give you just a moment here to explain the 
prioritization, why you would have prioritized, for instance, 
these funds in this particular category, in the clean water and 
the drinking water, and how that fits with the overall 
philosophy of where you're trying to take the EPA right now. 
Because you mentioned clean air, clean water; the three of us 
have mentioned clean air, clean water; and yet you've got some 
real discrepancies in what we see outlined within the budget 
proposal. So if you can address that.
    Mr. Pruitt. Well, I think some of it depends on the area of 
their office. When I think through it, for instance, land 
contamination and the Superfund programs that we've made 
reference to this morning already. Senator Leahy mentioned this 
task force that I've established. That report is being provided 
to me by the end of this month, and I would be very, very happy 
to share that with you, Madam Chair, and other Members of the 
subcommittee.
    Senator Leahy, to address your comment earlier, it's not 
really an effort to engage in quick or very expeditious-only 
response, it's to make decisions. What I've noticed is that we 
have sites across the country. I've mentioned West Lake, but 
there are others, it's not isolated. West Lake, just outside of 
St. Louis, where it's taken 27 years for the Agency just to 
make a decision on whether to excavate or to cap the uranium 
there at the St. Louis facility. That's unacceptable. That's 
not a matter of being quick, that's a matter of just simply a 
decision languishing over years and no urgency at the Agency to 
address that. The citizens in that community deserve better. 
You have those kinds of sites across the country; the Port of 
Portland, the Hanover site, there are many; East Chicago, which 
I've visited as well.
    So I think, Madam Chair, with respect to air attainment and 
air quality under the NAAQS program, I mentioned the fact that 
we've achieved a 65 percent reduction in those NAAQS criteria 
pollutants since 1980. That's something that's very good, but 
we have much work to do because there's 40 percent of the 
country still living in nonattainment with respect to ozone, 
about 120 million.
    So working with counties, working with local jurisdictions 
on compliance and assistance, and engaging in enforcement is 
very, very important. Getting monitored data and having that be 
real time available to us as opposed to model data at times is 
something that we need to focus upon.
    There is a backlog of State Implementation Plans at the 
Agency. Over 700 State Implementation Plans have been submitted 
to the Agency and not responded to by the EPA. That's 
unacceptable because that doesn't provide clarity and focus to 
the States on how to engage in enforcement and activity through 
compliance and assistance at the local level.
    So there is much work through management and leadership, 
Madam Chair, that I think will go a long way towards improving 
outcomes in air, land, and water issues. Obviously, money 
matters, and I will let you know and advise you as we get into 
the Superfund program, and the cuts that are proposed under 
this budget. We have orphan sites in that portfolio of over 
1,300, and if there is not enough money in the budget to 
address those, I will advise you. But I think in many 
instances, it's just a matter of lack of decisionmaking, 
management, and leadership with respect to core priorities of 
the Agency.
    Senator Murkowski. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair.

                       RESPONSIVE COMMUNICATIONS

    Administrator Pruitt, I wanted to quickly raise a process 
concern. It's a long-standing practice for Members of this 
subcommittee of both parties to request information from your 
department. Can you confirm that you will continue the long-
standing practice of responding to all questions, including 
written correspondence, from both majority and minority Members 
of this subcommittee and do so as quickly as possible?
    Mr. Pruitt. Yes, without question, Ranking Member Udall. In 
fact, as I went through the confirmation process, I met with 
roughly 40 to 45 of your colleagues, many of whom were outside 
of the EPW Committee, and we talked about this very issue. In 
the last administration, both majority and non-majority Members 
said that there was not as much responsiveness to certain 
questions and phone calls and the rest, and that's the reason 
we try to be proactive through our Congressional and 
Intergovernmental Affairs Office.
    So, yes, absolutely. We will work diligently to respond to 
the questions that you have, provide information that you have, 
and I will say this to you as well, work with you on the 
concerns that are important to you at the State level. I mean, 
in going through the confirmation process, Senator Cardin and I 
talked about the Chesapeake Bay TMDL quite extensively, and it 
was very helpful to me.
    So we look forward to working on issues particularly to 
your State, as we talked about yesterday.

                            STAFFING CHANGES

    Senator Udall. Yes. Thank you. And I'm sure you'll hear 
from Senator Van Hollen also about Chesapeake Bay. He's on this 
subcommittee.
    We've heard about reorganization planning, Administrator 
Pruitt, that you're doing, and your budget proposes to shed 
3,800 employees. That's a quarter of the EPA's workforce. And I 
want to emphasize that this is simply a proposal. Congress has 
not yet acted on it. And as you are keen to reiterate, you are 
compelled to carry out Congress's direction.
    The fiscal year 2017 Omnibus provided funding in specific 
direction to maintain EPA's current staffing level. I 
understand you are planning voluntary buyouts. While I'm deeply 
disturbed by that step, your authorities stop there. This 
subcommittee will have a say in any further decisions, whether 
it will be through the budget or through a reprogramming 
process where we consider reorganization proposals.
    Will you commit to heeding this subcommittee's direction on 
staffing changes, including potential office closures or moves 
and major staff reductions, instead of prejudging congressional 
action?
    Mr. Pruitt. Ranking Member Udall, it was referenced earlier 
about pink slips. There are no pink slips being issued at the 
Agency. Through attrition, voluntary buyouts, the hiring freeze 
that's in place, those are the only steps that we're taking 
presently with respect to the personnel numbers that you make 
reference to.
    Senator Udall. So your answer to this question would be 
yes?
    Mr. Pruitt. We respect the rule of Congress in that regard, 
yes.

                       PROPOSED STATE BUDGET CUTS

    Senator Udall. Yes. Okay. And talking a little bit about 
State budgets and the Superfund, what I have the most trouble 
in your request is the mismatch of your stated priorities and 
then the funding request. For example, you've delayed new ozone 
standards because some areas have yet to meet old standards, 
but you cut $150 million in grants to States to reduce air 
pollution, including $50 million for upgrading dirty diesel 
engines, and for $30 million in grants targeted at areas with 
the worst air quality. I know you dismiss the problem of 
climate change, but these programs are about the air we breathe 
and having clean air.
    You've said that the States and other entities should take 
on more, but States are still struggling to recover from the 
recession, as you know that with your State, I know that in my 
State. In fact, 19 States, including New Mexico and Oklahoma, 
still have far fewer revenues than before the 2009 downturn.
    It looks to me like this budget proposes to create a 
foregone conclusion that State-delegated environmental programs 
die on the vine. How do you envision States would be able to 
make up for the drop in Federal support, that 45 percent drop 
you're talking about?
    Mr. Pruitt. Well, those Targeted Airshed Grants, as you've 
indicated, have served a very useful purpose. We look forward 
to the discussion with this subcommittee and Congress with 
respect to those issues. I would say to you, Senator, that the 
air transport issues, you know, the attainment issues that 
States face, clearly there are air quality issues that cross 
State lines. You know, things that are going on in Texas impact 
Oklahoma. Senator Leahy talked about the impact in Vermont as 
well. We serve a very important role at those air transport 
issues, cross-State air pollution issues. We look forward to 
working with this subcommittee and working with Congress to 
focus upon that to achieve better attainment.
    Senator Udall. You still haven't answered the question. How 
do you expect the States to do more and then cut their budgets 
45 percent? I mean, as you know, what we've done with major 
environmental laws over the years is we have delegated them to 
States, and we've given them significant budgets. And so those 
cuts really go deeply to what the States are doing on clean 
air, clean water, and a number of other areas, and I don't see 
how you fit those two together.
    Mr. Pruitt. Some of it, Senator, is better cooperation. I 
will say to you that my first weekend after having been sworn 
in on a Friday, I had 18 Governors in my office visiting about 
very hosted issues from Superfund issues to air attainment, 
compliance and assistance, and how we can better cooperate with 
them.
    As I indicated in my earlier answer, we have over 700 State 
Implementation Plans that are before the Agency today that the 
Agency hasn't responded to, and that was before any discussion 
about a budget. That provides a lack of clarity and direction 
to the States. That doesn't provide them the steps forward to 
achieve attainment under the Clean Air Act.
    So some of this, Senator, is truly just having more 
decisive approaches to working with States, cooperating with 
the States, making decisions, and compliance and assistance.
    Now, to your point, obviously the budget proposal is 
something that, as we go through the discussion, we have to be 
mindful because I really believe that the States serve a very 
important role in enforcement. In fact, we joined with a State 
yesterday on an enforcement matter. The State of Colorado, we 
joined in an action against a company with respect to 3,000 
tons of VOCs that had been emitted into the atmosphere there. 
Working with Justice, we actually have engaged in some very 
constructive and meaningful enforcement actions there.
    So you're right, the States serve a very important role in 
this enforcement and compliance and assistance, and we need to 
be mindful of that as we go through the budget process.
    Senator Udall. Well, I'm going to do everything I can to 
make sure they have the budgets to do their job.
    Senator Murkowski. Thank you, Senator Udall.
    Senator Daines.

                           SUPERFUND CLEANUP

    Senator Daines. Thank you, Madam Chair, Ranking Member 
Udall.
    Mr. Pruitt, I appreciate your interest in restoring the EPA 
to its core mission of protecting human health and protecting 
the environment. I'm very pleased that you just commented that 
some of your first meetings after you were confirmed were with 
Governors to restoring this relationship with the States, 
working better with the States.
    One of the examples of that was really some of the main 
flaws of the EPA Clean Power Plan where the standards were 
unattainable without creating drastic economic impacts to our 
States. In fact, in Montana, we were harmed the most of any 
State. According to the University of Montana, 7,000 jobs lost, 
$140 million of lost tax revenues for our schools, our teachers 
infrastructure. In fact, it was called the biggest economic 
disaster to happen in our State in over 30 years. So thank you 
for your leadership on pushing back on that EPA overreach and 
working back with the States now.
    I have some concerns about where we're headed with the 
Superfund program, and I want to talk about that for a moment. 
Montana is home to 19 National Priorities List Superfund sites, 
including a couple of the most infamous in the Nation. These 
sites impact Montanans every day through the potential hazards 
they pose to human health and property, through lost potential 
for commerce and economic developments, and the stigma they 
associate with some of our Montana communities and beyond. In 
our meeting in my office during your confirmation process, I 
urged you to prioritize the cleanup and return to productive 
use of Superfund sites in Montana and across the country.
    My question is this, one of the concerns I'm hearing from 
Montanans with respect to Superfund cleanup is a lack of 
transparency and collaboration with local governments, with the 
citizens on the ground there, and stakeholders. Do you intend 
to work more closely with those impacted locally in the 
remediation process? And what are some other aspects of 
Superfund processes that you would like to improve?
    Mr. Pruitt. Senator, absolutely. In fact, I will tell you 
it's not just a matter of working cooperatively or 
collaboratively with folks locally, it's just simply 
responsiveness. Butte, Montana, obviously is one of those sites 
that make up the Superfund portfolio. I would love to tell you 
that the sites across the country--I mentioned West Lake; 
Butte, Montana, is another that it's isolated, that you have 
some of these sites listed for a period of 25 or 30 or more 
years. It's just simply not the case.
    The Agency, in my estimation, has not been urgent at 
prioritizing this cleanup of various sites across the country, 
and it's some of the most tangible benefits we can provide 
citizens across the country. So we will not only work 
cooperatively and collaboratively with those at the local 
level, we will be responsive, making sure they're involved in 
the process, that their voice is heard, that we incorporate 
their concerns with respect to the objectives of how the land 
is going to be used post-remediation, and get accountability 
with those PRPs and others that are responsible for the 
cleanup.
    Senator Daines. Mr. Pruitt, you brought up the community of 
Butte, Montana. I think you're familiar, there were a couple of 
news publications that ran in Montana just over this past 
weekend. And I was hoping you could address some of the 
criticisms that they had regarding the EPA.
    Mr. Pruitt. Senator, you'll have to--I didn't read any 
articles, so maybe you can refer me--refer to the specific 
information.

                          SUPERFUND TASK FORCE

    Senator Daines. Yes. I think it's really looking at there 
have been some numbers thrown out there about how much money we 
think it will take to clean up the Superfund sites there in 
Butte, of $50 million. And just I guess the question is, and 
maybe it goes back to your earlier statement, how do we engage 
these communities that have been battling this for many, many 
years, are very frustrated by the lack of progress with the EPA 
to really restoring back to their core mission here of 
protecting health and human safety?
    Mr. Pruitt. Well, I think that the process is such that 
there are many vendors that are involved in remediation 
activities across the country. The regions really don't have a 
lot of consistency. We have 10 regions, as you know, and one of 
the objectives that I'm engaged in, in this Superfund task 
force is to get more uniformity, I guess more consistency, 
across the 10 regions on how we respond to these Superfund 
sites, because you may have sites languish more in Region 8 or 
Region 7 or what have you than you do in other parts of the 
country. So some of our regions can help educate best 
practices, share those best practices with others across the 
country.
    I do look forward to sharing that information with you 
because there is so much opportunity in this Superfund land 
remediation area because there are 1,330 or so Superfund sites 
across the country, I mentioned many of them have been on the 
list for decades.
    Senator Daines. Right.
    Mr. Pruitt. The Agency has not been, I believe, efficient 
about making decisions so that we can get a path forward with 
those potentially responsible parties and then accountability. 
I mean, many of these sites, Senator----
    Senator Daines. Yes. On the path forward, maybe this--I'm 
going to run out of time here, there is so much to talk about, 
but I appreciate where you're headed here and changing the way 
the EPA engages with their local communities. I would like your 
commitment that we could--that you would review each of 
Montana's Superfund sites with the goal of finding a workable 
solution for cleanup for each one of them.
    Mr. Pruitt. Absolutely. Then after we decide with the 
community what the cleanup should be, actually set forth a 
project management plan to achieve that within a certain 
timeframe. I've been onsite at the East Chicago Superfund site, 
and I've talked to quite a few folks in West Lake as well in 
St. Louis. Just on the ground there is just not a sense of 
urgency and lack of clarity on what the cleanup should be, the 
timeframe, and the accountability in that regard.
    Senator Daines. Yes. And I appreciate being on the ground, 
and we'll look forward to having you come out to Montana. I'd 
love to spend some time there in Butte with you so you can see 
it firsthand. And I appreciate your commitment and attention to 
these issues. There is going to be more talk about some of the 
cuts we're seeing right now in the EPA budget relates to 
concerns, how that will reconcile with our efforts for funding 
these Superfund remediation. But I'll be sending you a letter 
today which will include recommendations that I think how we 
could better improve the Superfund program. And I look forward 
to continuing to work together with you on this.
    Thank you.
    Senator Murkowski. Thank you.
    Senator Tester.
    Senator Tester. I will yield to the honorable Senator from 
Vermont.
    Senator Leahy. No, go ahead, go ahead.
    Senator Tester. No, go ahead. Go ahead, Patrick. Go ahead. 
I'll----
    Senator Murkowski. The only reason I'm going to Senator 
Tester is because----
    Senator Tester. Yes, is because we bumped me last time. 
That's why. Yes.
    Senator Murkowski [continuing]. You were actually here 
before Senator Leahy, but----
    Senator Leahy. He was. And I'm perfectly willing to wait.
    Senator Murkowski. But seniority does have its preference.
    Senator Tester. I would yield to the senior Member of the 
Democratic----

                        WATER POLLUTION CLEANUP

    Senator Leahy. Thank you. When I came here, I never 
expected being the Dean of the Senate. I still recall the very 
senior Member of the Senate, one of my first days here, told 
me, ``Boy, around here it's based on seniority, and you ain't 
got none. You hear me, boy?'' [Laughter.]
    I went to his funeral. [Laughter.]
    The EPA budget, as I said before, is really the worst I've 
seen. I don't think it invests in our future. I don't think it 
recognizes undisputed scientific evidence. Let's take what may 
sound parochial, but I think it's reflective of what's going 
on. The EPA is providing critical support for States and 
regions across the country working to clean up our lakes, our 
rivers, our estuaries.
    Now, Vermont and New York join at Lake Champlain, as I 
said, the largest body of fresh water outside of the Great 
Lakes in this country. It's infected by blue-green algae 
blooms. In 2016, EPA adopted a strict new cleanup plan for 
phosphorus in Vermont. Now, we Vermonters, even though it's 
going to be expensive and hard, we welcome that. We also 
embrace the moderate assistance the EPA has given us for 25 
years.
    We're making progress against point and nonpoint source 
water pollution, due in large part to EPA's culmination of 
regulatory oversight and targeted financial assistance. Now, 
this is not only in Lake Champlain, the Chesapeake Bay, the 
Great Lakes, the Gulf of Mexico, and other water bodies. You 
propose doing away with all of these, all of this financial 
support around this country.
    Do you believe that this proposal to terminate EPA funding 
will force Vermont and New York and the Lake Champlain Basin 
Program to shut down after all these years, is that going to be 
a setback to cleaning up Lake Champlain?
    Mr. Pruitt. Well, Senator, you have rightly stated that 
nutrient pollution, harmful algal blooms, are issues that 
States deal with substantially. In fact, in my home State of 
Oklahoma, we've had similar issues, phosphorus levels in the 
Illinois River----
    Senator Leahy. But are your cuts going to make it hard for 
us to continue this----
    Mr. Pruitt. I believe that these programs like Lake 
Champlain, Great Lakes Initiative, all have very important 
meaningful objectives that we should seek to meet and achieve 
as we go through this budget process. Senator, this is the 
start of the process and I look forward to your input in that 
regard. I recognize and actually acknowledge----
    Senator Leahy. Your budgets cuts the money. Your budget 
cuts out the money. Would that hurt the cleanup? It's a simple 
question.
    Mr. Pruitt. I think the assistance that the EPA provides to 
States on nonpoint source issues particularly is something 
that's very important that we should continue as part of our 
core program in the Office of Water or through specific 
geographical grants, as you identify.
    Senator Leahy. Even though the budget may be cutting it 
out.
    Mr. Pruitt. Well, as I indicated, the support and 
assistance we provide is important to continue whether it's 
part of the specific grant or part of the core programs at the 
Office of Water.

                           ELIMINATION OF EPA

    Senator Leahy. As some have said, the intent of the 
administration to actually dismantle the EPA as a Federal 
agency over the next 4 years. I remember one time years ago 
when they just constantly reorganized it every few months so 
nothing could get done, and you're cutting the budget. Is it 
the administration's plan to eliminate EPA within the next 4 
years?
    Mr. Pruitt. No, sir. As I indicated, Senator, in my 
confirmation process, and I said this years ago serving as 
attorney general, the EPA is not terribly popular in the State 
of Oklahoma, as you might imagine, and I said this as an 
elected official, there's a very important role for the EPA. 
There are air quality issues, water quality issues, Superfund 
issues, TSCA, there are many very important roles the Agency 
serves, will continue to serve, and it's important we fund 
those and that we prioritize those.
    Senator Leahy. Well, as you know and has been suggested by 
Senator Murkowski and Senator Udall and others, we have your 
budget, we will be voting on what we want to do with it. If we 
vote to add--to continue programs, even if they've been 
eliminated in the budget you present here, if we pass 
legislation that continues them, do I have your pledge you will 
follow what the Congress has done and maintain those programs?
    Mr. Pruitt. Absolutely.
    Senator Leahy. Thank you.
    Thank you, Madam Chair.
    Thank you, Senator Tester, for your continuous help.
    Senator Tester. It's always my pleasure, Senator Leahy, 
always.
    Senator Leahy. I'll now go to Judiciary and have fun. 
[Laughter.]
    Senator Murkowski. Thank you, Senator Leahy.
    Senator Tester, always waiting patiently.

                            SUPERFUND BUDGET

    Senator Tester. Thank you, Madam Chair, and Ranking Member 
Udall.
    And thank you for being here, Director Pruitt. I want to 
talk about Superfund for a second. Your opening statement was 
solid, as was the Chairwoman's, about the core mission of 
cleaning up the environment. The Superfund budget, the cleanup 
portion, is cut from $718 million to $515 million, a cut of 
$203 million. I didn't do the percentages on it, but it is 
very, very significant.
    Butte America, which you've already referenced, has a pit a 
mile long, a mile wide, that has been full of toxic water, high 
sulfuric acid, bad stuff, and bad stuff so bad that multiple 
times geese have landed on that lake and they're dead.
    So up until now, in the last 20, 30 years, 35 years or so, 
it has been a mining hole full of water. Now we're getting to 
the point where it's going to start impacting drinking water in 
a big, big way. And I'm not saying that it shouldn't have been 
cleaned up a long time ago, but this is a big dollar project. 
This could eat--this would eat up your entire budget in a 
minute. It would eat up the whole $515 million, and we would 
just be getting to it unless we can hold the folks accountable.
    So here's my question. The first question is that you said 
earlier in your statement that you were going to punish the bad 
actors. One of EPA's really important jobs is to hold those bad 
actors accountable and make sure they come to the table with a 
wallet that's got some money in it, and for the EPA to do the 
job of cleanup. Can you tell me how this budget, in the area of 
Superfund site, meets your core mission?
    Mr. Pruitt. Well, about 60 percent, Senator, of our 
Superfund sites approximately are privately funded, meaning 
that there are PRPs that are responsible. We've got about $3.3 
billion in accounts presently from some of those PRPs.
    Senator Tester. Yes.
    Mr. Pruitt. And I think you make a very good point. There's 
something I've noticed already. As a former attorney general, I 
dealt with enforcement. I led a grand jury, and I know what it 
means to hold bad actors accountable. I will tell you what I 
have noticed with respect to how we approach Superfund, is we 
go to those potentially responsible parties, we negotiate, as 
opposed to setting what the cleanup is going to be, and going 
to those PRPs saying, ``It's going to cost X number of dollars, 
and if you don't pay it, we're going to sue you.'' The CERCLA 
statute that you passed----
    Senator Tester. Yes.
    Mr. Pruitt [continuing]. Is one of the strongest 
environmental statutes on the books.
    Senator Tester. Yes.
    Mr. Pruitt. It's joint and several liability.
    Senator Tester. Yes.
    Mr. Pruitt. There is substantial opportunity to go to those 
PRPs and say, ``This is what the cleanup is going to be. Here's 
the timeline it's going to take place. And you're going to pay 
for it.''
    Senator Tester. Okay. But--and I agree with that, that's 
great, but what happens if they say, ``Sorry, we're not going 
to agree to that''?
    Mr. Pruitt. We will sue them.
    Senator Tester. Okay. So it eventually ends up in court 
anyway.
    Mr. Pruitt. Well, look, I mean, you have to enforce some 
way. That's the enforcement mechanism that you've provided, 
and----
    Senator Tester. Look, we don't disagree. We agree on this, 
Director. We agree on this.
    Mr. Pruitt. Yes, yes, yes.

                        ENFORCEMENT NEGOTIATIONS

    Senator Tester. At some point in time you've got to hold 
their feet to the fire.
    And there's another issue that's gone on in Butte and 
probably in a lot of other sites, that the EPA goes into 
negotiations with these companies, and you talked about working 
with the local community, and the local community is never told 
what the hell is going on with these negotiations----
    Mr. Pruitt. That's right.
    Senator Tester [continuing]. And they're left out in the 
cold.
    Mr. Pruitt. And community groups as well.
    Senator Tester. What's that?
    Mr. Pruitt. And citizens, and community groups across----
    Senator Tester. That's correct.
    Mr. Pruitt. Yes, correct.
    Senator Tester. No, that's correct. Can you give me some 
assurance that it will be not business as usual when it comes 
to keeping the subcommittee informed on these negotiations?
    Mr. Pruitt. It's already not business as usual because I've 
already met with those community groups in East Chicago, those 
community groups that were not being responded to by the 
Agency.
    Senator Tester. Yes.
    Mr. Pruitt. So absolutely.
    Senator Tester. Okay. Because there is always a lot of 
frustration that the negotiations are going on, the community 
is putting their input, they don't know if the negotiations are 
even meeting the goals that the subcommittee puts--or the 
community puts forward, so----
    Mr. Pruitt. And what's--if I may, Senator?
    Senator Tester. Yes.
    Mr. Pruitt. It's not just input from the community and 
they're making a decision----
    Senator Tester. Yes.
    Mr. Pruitt [continuing]. It's then execution upon the 
record and decision to make sure it gets done in a timely 
fashion.
    Senator Tester. And making sure they're a part of the 
making of that record or decision.
    Mr. Pruitt. Yes, sir.

                    SUPERFUND REVIEW--LIBBY, MONTANA

    Senator Tester. We have another situation in Libby: 
asbestos, bad stuff. We've had an asbestos mine up there. We've 
insulated homes throughout this country with that asbestos I 
might add, but Libby is particularly hard hit. And even to the 
fact that the trees have asbestos in it, so if we ever get a 
forest fire, it's going to do a whole lot more good--a whole 
lot more harm not only to Libby, but the entire region where 
that smoke will go. That's another separate Superfund site 
that's going to be--has been very expensive and will continue 
to be very expensive. And that is why I will just tell you the 
statement about going back to the core mission, I don't think 
this budget even gets you back to a core mission.
    Mr. Pruitt. Well, Senator, I can say to you that as we're 
going through the Superfund review, if the monies are not 
sufficient to address that site in Montana or the orphan sites 
that make up the portfolio, I will be sure to advise and then 
make you aware of that because it is important to me and to the 
Agency that we actually show progress in the area of Superfund. 
We have not shown progress in many years on many sites across 
the country, and it's important that we change that direction.
    Senator Tester. So you will be here multiple times in front 
of this subcommittee, for sure the next time you have a budget, 
if not before. And you're telling me things are going to be 
different next time you're in front of this subcommittee.
    Mr. Pruitt. That's my commitment to you, and I will make 
sure that the Chair, the Ranking Member, yourself, and other 
Members of this subcommittee, as we implement these changes to 
the Superfund program, if there are insufficient monies and 
capital to achieve the objectives that are important to the 
American people, I will make you aware of that.
    Senator Tester. I look forward to that meeting. Thank you.
    Senator Murkowski. Thank you, Senator Tester.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Madam Chairman.
    Welcome, Mr. Administrator.
    Mr. Pruitt. Thank you.

                      CHESAPEAKE BAY--TMDL PROGRAM

    Senator Van Hollen. And I want to talk a little bit about 
the Chesapeake Bay, which is a vital national treasure, natural 
resource. It's also essential to have a clean Bay if we're 
going to have a strong economy in the State of Maryland. It's 
vital to our tourism industry, to our watermen, to our boating 
industry. That's why decades ago the six States and the 
District of Columbia got together with the EPA. We formed a 
compact.
    Senator Cardin asked you about this during your 
confirmation hearing about your support for the EPA's role with 
the Chesapeake Bay and making sure that we enforce the TMDL 
program, the Total Maximum Daily Load program. Here's what you 
said in response at that hearing, I'm quoting, ``I really want 
to emphasize to you that process,'' meaning the process we've 
got with the Bay States, ``represents what should occur for 
States to join together and enter into an agreement to address 
water quality issues, and then involve the EPA to serve the 
role it is supposed to serve is something that should be 
commended and celebrated. And as it relates to enforcing the 
TMDL, I can commit to you that in fact I will do so.'' That's 
what you said to Senator Cardin. I understand a little earlier 
today you referenced those conversations as an example of EPA's 
relationship working with the States.
    Can you explain how totally eliminating the $73 million for 
the EPA's Chesapeake Bay program meets that commitment?
    Mr. Pruitt. Senator, I really appreciate the summary you've 
provided. Senator Cardin and I did have very meaningful and 
good discussions through the confirmation process. And truly 
the Chesapeake Bay TMDL is reflective of what is good about 
States joining together to address point source-nonpoint source 
pollution in the Chesapeake Bay. I will say to you that as we 
go through this process, if this subcommittee chooses to 
restore that funding, then that's something obviously we're 
going to implement and carry out our responsibilities, but even 
if it didn't happen, the EPA is going to work collectively with 
those States to ensure that that nonpoint source-point source 
related concerns of those six States and the DC area are 
addressed, whether it's in the Office of Water or in other 
areas of the Office to enforcement or otherwise.
    Senator Van Hollen. But you would agree, would you not, 
that eliminating the EPA's commitment and role and funding 
would make it harder to achieve our goals?
    Mr. Pruitt. My commitment and the Agency's commitment to 
the Chesapeake Bay TMDL is not changing and will not change. As 
we go through this budget process, if it's restored, that's 
something that we obviously dedicate and carry out our 
responsibilities with the new funding, or the funding.
    Senator Van Hollen. Well, I can assure you we'll work very 
hard to restore that. I can tell you the EPA cut to the 
Chesapeake Bay is the one thing that has united everybody in 
the State of Maryland across party lines and regional lines, 
every member of the Maryland congressional delegation, 
Republicans, Democrats, and our Governor Hogan, Republican 
Governor.
    Mr. Pruitt. It's very hard to do. It's very hard to achieve 
that type of cooperation and collaboration. I mean, I've worked 
on similar issues from the State perspective with Arkansas----
    Senator Van Hollen. Yes.
    Mr. Pruitt [continuing]. And it's tough to get six States 
joined together to achieve that type of agreement. So I commend 
you for that. I commend the leadership in the six States. 
Please know you have my commitment, no matter what, we're going 
to do our work under the Chesapeake Bay TMDL to achieve the 
outcomes that have been set out.
    Senator Van Hollen. Got it. And I do want to point out that 
the Federal Government's role has been important from the 
start. I mean, this goes back to when people like Senator 
Mathias were here and others in forging that agreement.
    In that regard, I understand that the Chesapeake Bay 
Commission has requested a meeting with you. Will you take a 
meeting with them?
    Mr. Pruitt. Yes. And we've had representatives actually 
onsite meeting with those individuals already, but absolutely.

                         NEW YORK TIMES ARTICLE

    Senator Van Hollen. I appreciate that. So one of the issues 
that has arisen over and over in the last couple months is the 
integrity and accuracy of information coming out of the EPA. 
There was a report today in the New York Times you may have 
seen where they quote Deborah Swackhamer, who is the 
environmental chemist who headed the EPA's Board of Scientific 
Counselors. She testified on the House side back in May, and 
she reported that the Chief of Staff to the EPA, Mr. Jackson, 
called her to try to change her testimony, and I just want to 
quote from what she has said. She said, quote, `` `I was 
stunned that he was pushing me to correct something in my 
testimony,' said Dr. Swackhamer, a retired University of 
Minnesota professor. I was factual, and he was not. I felt 
bullied.''
    Do you know about this incident?
    Mr. Pruitt. You know, I have not read the article, Senator. 
I would say to you that any emails, communications, that relate 
to this issue I would be happy to provide to the subcommittee 
and make sure that you're fully aware of the conversations that 
took place between the individual you cite and the Chief of 
Staff.
    [The information follows:]

               Committee on Science, Space, & Technology

                         Lamar Smith, Chairman

_______________________________________________________________________

June 27, 2017  <rm-bond>  Press Release

  EPA EMAILS SHOW DUE DILIGENCE, SST MINORITY EMAIL SHOWS POLITICALLY 
                            MOTIVATED AGENDA

    WASHINGTON.--Chairman Lamar Smith (R-Texas) of the House Science, 
Space, and Technology (SST) Committee released the following statement 
upon reviewing all documents and official correspondence surrounding 
Dr. Deborah L. Swackhamer's testimony before the Committee on May 23 in 
the Environment Subcommittee Hearing, Expanding the Role of States in 
EPA Rulemaking (https://science.house.gov/legislation/hearings/
environment-subcommittee-hearing-expanding
-role-states-epa-rulemaking). The Chairman has reviewed the email 
exchange between Swackhamer and U.S. Environmental Protection Agency 
(EPA) Chief of Staff Ryan Jackson in addition to the letters sent by 
the SST Minority to EPA Administrator Pruitt and EPA Inspector General 
Arthur J. Elkins.
    ``The truth has come out that EPA was pursuing a course of due 
diligence and ensuring that information provided in witness testimony 
before Congress was accurate and without factual error. It's 
unfortunate that the Minority has tried to hijack committee hearings 
for their own politically motivated agenda. It is clear that the 
Minority invited Dr. Swackhamer to testify because she was a member of 
the EPA Board of Scientific Counselors, despite protestations from the 
Minority that she was testifying only in her `personal capacity.' The 
American people are smart enough to see past the Minority's highly 
politicized tactics. In a move to support full transparency, the emails 
we have obtained can now be viewed by the American public who will see 
that the Minority's claims are baseless.''
Background:
    At the Subcommittee on Environment hearing entitled Expanding the 
Role of States in EPA Rulemaking, the Subcommittee sought testimony 
from State environmental protection officials regarding the role that 
States play in U.S. Environmental Protection Agency rulemaking and how 
the States and EPA could work together to pursue common goals. The 
Minority invited retired University of Minnesota professor Deborah 
Swackhamer to testify at this hearing.
    Coincidentally, Swackhamer currently serves as the Chair of the 
Board of Scientific Counselors (BOSC) at EPA. In the weeks prior the 
hearing, Swackhamer made statements to the press critical of EPA 
Administrator Pruitt's decision to evaluate the current membership of 
the BOSC. On May 17, less than a week before the hearing, and after 
Swackhamer's statements to the press, the Minority informed the 
Committee of its intention to invite her as a witness.
    The Minority and Swackhamer contend that the testimony she provided 
to the Committee was done so solely in her personal capacity and not as 
the Chair of the BOSC. However, documents obtained by the Committee, as 
well as the opening statement of Ranking Member Eddie Bernice Johnson 
(D-Texas) at the May 23 hearing, demonstrate that the true intent of 
this testimony was to criticize Administrator Pruitt's evaluation of 
the BOSC rather than discuss State involvement of EPA rulemaking.
    On May 19, the Committee received an email from the staff of 
Science Committee Minority Member Congressman Don Beyer (D-Va.) 
inquiring about Beyer's participation in the hearing even though he is 
a not a member of the Environment Subcommittee. The subject line of 
this email referred to the hearing as ``FW: ** Tuesday Subcommittee 
Hearing about EPA Science Board **.'' The Minority's characterization 
of the hearing as ``about the EPA Science Board'' demonstrates that it 
was the Minority's intent to have Swackhamer testify to discuss the 
matters pertaining to the BOSC, rather than the stated purpose of the 
hearing to discuss State involvement in EPA rulemaking.
    Furthermore, Ranking Member Johnson made clear the intent of 
Swackhamer's testimony in her opening statement, ``The decision by EPA 
Administrator Scott Pruitt earlier this month to not renew 9 of the 18 
members of the Agency's Board of Scientific Counselors (BOSC) is just 
the latest example of this Administration's efforts to silence 
scientists,'' and goes on to say, ``We are fortunate that Dr. Deborah 
Swackhamer is here today to provide us with her perspective on these 
unfortunate events. Dr. Swackhamer, a Professor Emerita of Science, 
Technology, and Public Policy as well as a Professor Emerita of 
Environmental Health Sciences at the University of Minnesota brings a 
wealth of scientific expertise to the table. She is also the current 
Chair of the EPA's Board of Scientific Counselors and the former Chair 
of the EPA's Science Advisory Board. Although she is testifying today 
in her personal capacity as a scientific expert and not representing 
any of the EPA's science advisory boards, I am glad she has decided not 
to stay silent.''
    On June 26, Ranking Member Johnson and Members of the Minority sent 
a letter to EPA Administrator Scott Pruitt and EPA Inspector General 
Arthur Elkins accusing Ryan Jackson, the EPA Chief of Staff, of 
attempting to interfere with the testimony of Swackhamer before the 
Environment Subcommittee. The Minority contends that an email sent by 
Jackson to Swackhamer regarding her testimony before the Subcommittee 
was inappropriate and an attempt to ``shape her testimony.''
    Upon review of the email communications referenced in the 
Minority's June 26 letter as the basis for its accusations, it is clear 
that Swackhamer failed to adhere to EPA processes for reviewing 
testimony and that Jackson sought to merely clarify a section of the 
testimony that would be provided to the Committee.
    The email communications indicate the following: Swackhamer failed 
to adhere to established review practices set forth for testimony 
provided by EPA-affiliated witnesses when testifying before 
Congressional Committees, including submitting this testimony for 
review by the Office of Congressional and Intergovernmental Relations 
and the Office of General Counsel. Jackson attempted to discuss 
Swackhamer's testimony with her on the telephone, but was unable to 
reach her, thus prompting further email communications. Jackson sought 
only to clarify a point in Swackahmer's testimony regarding 
Administrator Pruitt's decision to evaluate the BOSC membership and did 
not use threatening or intimidating language in his communications as 
you can read in the linked exchange below. Career EPA attorney and 
acting General Counsel Kevin Minoli was copied on all of the email 
communications sent to Swackhamer pertaining to this matter.
    The full email exchange between Jackson and Swackhamer, can be 
viewed here (https://science.house.gov/sites/
republicans.science.house.gov/files/documents/
EPA%20Emails%20%281%29.pdf).
    The SST Minority email from a member of Congressman Don Beyer (D-
Va.)'s staff that internally refers to the hearing as the ``Tuesday 
Subcommittee Hearing about EPA Science Board'' can be viewed here 
(https://science.house.gov/sites/
republicans.science.house.gov/files/documents/
Minority%20Email%20%281%29.pdf).
    The opening statement of Ranking Member Eddie Bernice Johnson (D-
Texas) can be viewed here (https://democrats.science.house.gov/sites/
democrats.science.house.
gov/files/documents/S20Font%20Ms.%20Johnson%20Statement%20-
%20Enviro%20Sub%20Hearing%20-%20EPA%20BOSC%20-%205.23.2017.pdf).
    The written testimony of Dr. Deborah L. Swackhamer can be viewed 
here (https://science.house.gov/sites/republicans.science.house.gov/
files/documents/HHRG-115-SY18-WState-DSwackhamer-20170523.pdf).

    Senator Van Hollen. But you agree it's really important 
that EPA provide accurate information to the Congress.
    Mr. Pruitt. Without question. I would say to you that those 
members of BOSC, there's a rotation. None of those folks have 
been fired. Those individuals can reapply for positions on the 
Board; in fact, are. It's intended that as we make decisions 
about representation on that Board that we have geographical 
dispersion, and that's something that was actually mentioned to 
me both by Democrats and Republicans in the confirmation 
process, that we had folks from different parts of the country 
participating and providing scientific review on rulemaking 
that we engage in.
    Senator Van Hollen. I appreciate that.
    Mr. Pruitt. So just please know that in that regard, any 
information specific to that matter we will get to you, but the 
integrity of the scientific review is something that I take 
very seriously.

                         CLIMATE CHANGE WEBSITE

    Senator Van Hollen. Thank you.
    If I may, Madam Chairman, just along the lines of 
disclosure, why is it that you took down the climate change 
website at the EPA? Why did you take that----
    Mr. Pruitt. Senator, there were many changes to the website 
that have been made that were not meant to send any particular 
message one way or the other. We have a job to do under the 
Clean Air Act, and that job is going to continue whether it's 
on a website or not. We have an endangerment finding from 2009. 
We have a Supreme Court case in 2007 from Mass v. EPA. The 
Agency tried twice to regulate carbon and failed twice with 
respect to the Clean Power Plan and the UARG decision involving 
the tailoring rule.
    So there is ongoing review with respect to what authority 
we have under the Clean Air Act to address those issues. How it 
affects the website or what the website----
    Senator Van Hollen. Could you tell this subcommittee--could 
you get back to this subcommittee and tell us what you found 
inaccurate about that website? Because this was the compilation 
of a lot of information that had been vetted. You've got, you 
know, political conservatives, liberals, who follow this issue 
both saying it was the gold standard. So I would appreciate if 
you could tell us what you found inaccurate about it. Could you 
do that?
    Mr. Pruitt. As part of the record, post this meeting, we'll 
get to you the information associated with that.
    [The information follows:]
                 inaccuracies in climate change website
    The changes that were made to the website were made under the 
direction of the then Associate Administrator for Public Affairs to 
bring the website in line with current Administration priorities. A 
number of areas on the site, specifically the endangerment finding, 
remain unchanged. All of the removed material is housed in the agency's 
website archive and is fully accessible. Additionally, a ``snapshot'' 
of the EPA website was taken prior to the transition of 
Administrations, and the link can be found at the bottom of the website 
page.

    Senator Van Hollen. Thank you.
    Mr. Pruitt. Thank you.

                     CLIMATE CHANGE--CO<INF>2</INF>

    Senator Murkowski. Thank you, Senator Van Hollen.
    Let me just do a little follow-up to Senator Van Hollen's 
question. I come from a State where we talk about the fact that 
we see our climate that has changed, that has seen impact with 
ice that is further from the shore, with erosion along our 
coastline and in the interior, and there is a visuality to the 
changing climate. And so there is a discussion about it in the 
State that's relatively open. When your budget came out--and 
Senator Van Hollen mentioned the website--there has been some 
directed criticism that the budget zeros out effectively all of 
the climate change programs.
    Now, if you look through, you don't necessarily see the 
words ``climate change'' or, as I mentioned, many of these 
programs are zeroed out, but we recognize that within the 
mission set of the EPA, if you focus on your back-to-the-
basics,'' which are clean air, clean water, ultimately this 
works to address so much of what we're seeing with the 
environmental impact that is associated with any climate 
change.
    Can you speak to some of the commonsense parts of the 
proposal that you feel will have a positive impact on climate, 
just something that I can give the folks back home?
    Mr. Pruitt. So this isn't a question with respect to the 
NAAQS program and those criteria pollutants. You're making 
reference to steps that we're taking with respect to 
CO<INF>2</INF>?
    Senator Murkowski. Just to ensure that, yes, we are making 
headway with----
    Mr. Pruitt. I think the greatest progress we've made as an 
agency has really been obviously with mobile sources, you know, 
the CAFE standards. The Clean Air Act's focus on mobile sources 
over the last several years, I think, has made a substantial 
difference with respect to GHG and CO<INF>2</INF>.
    I think we've also seen great progress with respect to our 
CO<INF>2</INF> footprint that industry has contributed to. 
We're at pre-1994 levels right now with respect to our 
CO<INF>2</INF> footprint since 2000. From 2000 to 2014, we 
reduced our CO<INF>2</INF> footprint by 18-plus percent, you 
know, and that's primarily through industry.
    Sometimes we don't recognize the technology and how it's 
contributed to better outcomes. Conversion to natural gas and 
the generation of electricity through hydraulic fracturing and 
horizontal drilling have contributed to that. We have 
technology that's being deployed with respect to coal 
generation that matters. But I think from a regulatory 
perspective, the areas that we've made the most progress is in 
that mobile source category.
    Senator Murkowski. Do you feel that the budget proposal, as 
we have now, allows you to continue those positive outcomes?
    Mr. Pruitt. Yes. I mean, I think when you look at the CAFE 
standards, as an example, where the mid-term review will come 
in April of 2018, we've been in discussions, meaningful and 
intense discussions, over the last several months with parties 
with respect to that mid-term review. I think that will 
continue the progress we're making with respect to the 
CO<INF>2</INF> footprint.

                  WATERS OF THE UNITED STATES (WOTUS)

    Senator Murkowski. Let me ask you about WOTUS. I mentioned 
it in my opening statement, Waters of the U.S. I mentioned that 
I am pleased that the administration is reexamining the 
regulation and hopefully going to be coming up with a more 
sensible proposal. I understand that the Office of Information 
and Regulatory Affairs is currently reviewing a proposal to 
rescind the previous administration's rule, and what we are 
hearing is that it is imminent.
    What I've learned around here is that ``imminent'' is a 
very vague term. Can you give me a better sense as to the 
Agency's schedule on this and moving forward once the previous 
administration's rule is rescinded?
    Mr. Pruitt. I chuckle, Madam Chair, because as you asked 
the question, Holly has given me a little note saying, ``Well, 
how about today?''
    Senator Murkowski. That's imminent. Oh, my goodness, that's 
really moving toward imminency.
    Mr. Pruitt. I think it's in the ``Federal Register'' that's 
being published or being sent to the ``Federal Register'' as of 
today.
    Senator Murkowski. So that will be published----
    Mr. Pruitt. That's very imminent, by the way.
    Senator Murkowski. That is very imminent, unusually 
imminent around here, so thank you for that. So then the 
process moving forward, can you outline some of that?
    Mr. Pruitt. I think what's important with respect to this 
issue is the lack of clarity that the previous rule, the 2015 
rule, created. I mean, it created a situation where farmers and 
ranchers, landowners, across the country did not know whether 
their stream, or dry creek bed in some instances, was actually 
subject, as you know, Madam Chair, to EPA jurisdiction and EPA 
authority. So they were facing fines that were substantial as 
they engaged in earthwork to build subdivisions, and it was 
something that created a substantial amount of uncertainty and 
confusion.
    So what we endeavor to do is to provide clarity by 
withdrawing the 2015 rule, revert back to 2008, the standard 
that was adopted in 2008, through some guidance in that 
timeframe, and then have a proposed rule on a replacement to 
the 2015 rule by the end of this year or the first quarter of 
next year at the latest.
    Senator Murkowski. Okay. Well, I appreciate that update. 
And, again, we've had a discussion about the situation in 
Alaska, recognizing that about two-thirds of the State of 
Alaska is already considered a wetland. And we had asked with 
the previous administration to provide details on the impact of 
the proposal on Alaska. We weren't ever able to get that 
information from them.
    So I would just ask that we have an opportunity to work 
with you, specifically to the impact of any new proposal and 
how it might work with the State. Again, we're one-fifth the 
size of the country, and two-thirds of us is either pretty wet 
or pretty frozen.
    Mr. Pruitt. What's encouraging, Madam Chair, is that we've 
already engaged with Tribes and States on that issue. We've had 
over 150 responses, as I recall, by those States and Tribes 
with respect to this issue. So there is robust discussion going 
on, hearing from folks locally, all over the country.
    Senator Murkowski. Great. I appreciate that.
    Senator Udall.

                          GOLD KING MINE SPILL

    Senator Udall. Thank you, Madam Chair.
    Administrator Pruitt, we're approaching the second 
anniversary of the Gold King Mine spill. And as I've been 
saying from day one, we owe it to the Navajo Nation, the Navajo 
people, and others harmed by this spill to ensure that they are 
compensated for business losses and property damage they've 
suffered. EPA took full responsibility for the accident. We owe 
it to the Navajo and others harmed to make things right. And I 
will continue to work and make sure that that happens.
    As you continue to learn more about this issue, can you 
commit to reaching out to everyone that was affected by the 
spill, not just those who have submitted claims?
    Mr. Pruitt. Yes, Senator. I would say to you I'm not sure 
the Agency has taken full responsibility. I think the Agency's 
response to the Gold King spill, where it shirked, in my 
estimation, its response to help compensate claimants that were 
impacted or injured. I mean, that was something that we're 
trying to remedy and are in fact in the process of remedying. I 
look forward to sharing with Members of this subcommittee what 
you and I discussed yesterday and the EPA response. But we've 
been engaged in a very robust investigation on the ground, 
developing facts that I think demonstrate the EPA needs to do 
more than what was done by the end of last year in response to 
that Gold King situation.

                    NAVAJO NATION--WATER MONITORING

    Senator Udall. Well, thank you for that. And as you know, 
I've been advocating that for years, and I'm glad we found a 
place we can agree. We owe it to the Navajo and others harmed 
to make things right. Still I'm troubled because the fiscal 
year 2018 budget proposes to totally eliminate the $4 million 
in water quality monitoring that I worked hard to secure in the 
fiscal year 2017 Omnibus. That funding was authorized into law 
as a 5-year effort to track the water still flowing from the 
mine. It's critical to the health of those living downstream 
from the Gold King Mine.
    Can you assure us today that you will be fully committed to 
working with the Navajo Nation and the States to ensure that 
water monitoring is ramped up quickly despite the request to 
stop funding for these State and Tribal efforts in fiscal year 
2018?
    Mr. Pruitt. Yes, Senator. It's important for the Agency to 
do more than what it's done with respect to the Gold King 
situation, and I'll commit to you that we're going to do that.

                                  TSCA

    Senator Udall. Thank you very much. Administrator Pruitt, 
I'm glad to hear that you've offered your support for robust 
implementation of TSCA, yet this proposal cuts programs that 
are vital to TSCA, such as the Office of Research and 
Development cut in half, the core Agency functions, like 
enforcement. We can't just build a wall around the TSCA office 
and expect it to perform. The same applies to clean water, 
clean air, hazardous waste, radon, and even childhood lead 
poisoning programs. Strong implementation requires a strong EPA 
across all of its disciplines. Given that the EPA budget is 
already lower than in previous years, how do you reconcile 
these dramatic cuts with support for a strong, timely TSCA 
implementation?
    Mr. Pruitt. Ranking Member Udall, the way we approach it is 
you know we have scientific review and scientists internal to 
each of the offices--Office of Water, Office of Air, the 
Chemical Office as well--and then those individuals are 
supported by ORD.
    To give you an example, when I came into this position, 
there was a backlog, as you know, of chemicals. TSCA required 
that any new chemicals entering into the flow of commerce 
needed to be approved by the Agency, and there was a backlog of 
roughly six to seven hundred of those as I came into this 
position. We actually worked--ORD and the Chemical Office--
together adding FTEs to really focus on addressing that 
backlog, and it's going to be clearly cleaned out by the end of 
next month.
    So you make a very good point, and the point is that ORD, 
working with those program offices, needs to provide the 
support and assistance and partnership to achieve good 
rulemaking. That's going to continue. It's something we're 
committed to.
    I would say this to you as well, ORD can provide, I think, 
technical assistance to the States in a way that helps them 
develop plans to address air attainment and water quality 
issues and the rest. So that mission is important to ORD as 
well.
    Senator Udall. I thank you for that answer. I'm also very 
concerned about the TSCA framework rules that you announced 
last week. I need your assurance that EPA is going to take a 
comprehensive look at chemicals and their impacts on public 
health and the environment, not a limited review focused solely 
on uses that help shield chemical companies from regulation of 
their products.
    It feels like everything is headed towards stamping 
chemicals is okay for specific purposes, to shield them from 
State or Federal action, instead of prioritizing elimination of 
the biggest threats. Will you assure me that EPA will not 
cherry-pick conditions of use when evaluating chemicals for 
safety?
    Mr. Pruitt. Senator, look, the Chemical Office at the EPA 
is working very diligently. Those three rules, we had a 
deadline. We met that deadline of June 22. You had the 
prioritization rule, you had the inventory rule, you had the 
risk rule. All those rules were met and addressed.
    We're following the statute there. The statute, as you 
know, provides a risk-based assessment on these chemicals. 
That's what's going to be applied and we'll do so vigorously.
    Senator Udall. Yes. Thank you, Madam Chair.

                      FAIRBANKS NORTH STAR BOROUGH

    Senator Murkowski. Thank you, Senator Udall.
    Administrator, we have talked about Fairbanks and the 
interior and the issues that they have with meeting air quality 
requirements within the Fairbanks North Star Borough. This is 
the PM<INF>2.5</INF> issue. Fairbanks was fortunate. They wrote 
a very strong application last year under the Targeted Airshed 
Program Grants. They got a $2.5 million grant to do a woodstove 
changeout. They're working to do that. As was mentioned here 
earlier by both myself and the Ranking Member, I think these 
Targeted Airshed Grants are important programs; you have 
acknowledged that as well.
    Fairbanks is in a situation now because in April, they were 
officially reclassified, the borough was officially 
reclassified, from moderate to serious nonattainment, and the 
designation means that the State is required to submit the air 
quality plan by the end of this year, by December 31. And I 
know that EPA has been working with the State, been working 
with the borough, to develop a plan and provide that level of 
technical assistance.
    So you know the issues. We've had the conversation about 
some of the challenges that the Fairbanks North Star Borough 
faces. It's not because of lack of trying, but you don't have a 
lot of alternatives. The geography of the area makes it very, 
very complicated. So I'm hoping that again by the time we have 
an opportunity to meet with your team, that we've got some 
specifics in terms of measures that you can outline that will 
help us working with those in the area that are really trying 
to come into compliance. Nobody wants to be in a nonattainment 
area, they want to try to clean it, but it is a difficult set 
of facts, and we appreciate that.
    Mr. Pruitt. You know, Madam Chair, we've interpreted and 
perceive that the individuals, the Alaska Department of 
Environmental Quality, the equivalent DEQ there, their elected 
leadership, they're committed to finding answers, and that's 
good.
    Senator Murkowski. Yes.
    Mr. Pruitt. So we are working very cohesively with them. 
And you're right, there's a SIP that is due by the end of this 
year. It's very important, I believe, that that State 
Implementation Plan is actually drafted and completed by that 
time so there's not exposure with respect to potential 
litigation. We're working diligently, members of our team here 
in DC and through the region, with Alaska to try to achieve 
some good outcomes and also a very good plan going forward.

                       PEBBLE LIMITED PARTNERSHIP

    Senator Murkowski. Good. We appreciate that.
    Let me ask you about the settlement agreement that was 
reached in May with the Pebble Limited Partnership that would 
allow Pebble to apply for a Clean Water Act permit from the 
Army Corps, and this is with regards to a mine, proposal for a 
mine, in Bristol Bay.
    Regardless of where you may be in pro-mine or anti-mine 
there, I have been consistently neutral on potential 
development in the area, but I've supported the idea that the 
Pebble Limited Partnership should be allowed to apply for a 
Clean Water permit from the Corps before the EPA preemptively 
acts to prevent development within the State. I have also 
consistently supported local and tribal voices being heard on 
the issue.
    So as part of the settlement agreement, EPA agreed to 
withdraw the proposed Clean Water determination and agreed to 
do so within 60 days. Now, my understanding is that as of this 
point in time, EPA has not yet proposed to actually withdraw 
that determination and that when you then do so, that's when 
the clock begins running on the public comment period.
    The problem that we have with this is if the Agency uses 
the entire 60 days, the withdrawal could happen in July, which 
is right in the middle of the Bristol Bay commercial fishing 
season. It would--you go out there beginning just about now 
until the end of August, and this is the time when people are 
working 20, 24 hours a day. And I'm very concerned that this 
timing may inadvertently limit the participation of the folks 
there.
    So since we have had good conversation about the importance 
of robust engagement of the Tribes and because the timing of 
this withdrawal could happen during the middle of fishing 
season, I would ask if you can commit to having a reasonable 
comment period of 90 days so that everyone in the region really 
has an opportunity to weigh in and participate if they choose 
to do so.
    Mr. Pruitt. I think you make a wonderful point, Madam 
Chair. We're going to make sure that as we go through this 
process that all voices are heard. That's what we restored.
    Senator Murkowski. Right.
    Mr. Pruitt. As you know, our decision earlier this year was 
not a decision on whether to grant a permit, it was simply 
restoration of due process. So as we open up this comment 
period, I can comment to you that it will be sufficient length 
to make sure that all voices are heard and that whether it's 90 
days or whatever, that's something that we will commit to you 
that we will do.
    Senator Murkowski. I appreciate that. Thank you.
    Senator Udall.

                              CHLORPYRIFOS

    Senator Udall. Thank you. Thank you very much.
    One of the first acts as EPA Administrator was to revoke 
the food tolerances for chlorpyrifos, a pesticide linked to 
brain damage and to worker and bystander poisonings. What was 
the scientific basis of your sudden decision to reverse EPA's 
decision to ban the use of chlorpyrifos on food crops? And what 
new information did the EPA receive since the election that 
would suddenly justify the reversal of this ban? Or did you 
simply overrule the judgment of the professional staff?
    Mr. Pruitt. A couple things Ranking Member Udall. One, 
there has not been a decision. The decision on what to do with 
chlorpyrifos will occur by October 1 of this year. You make 
reference to a petition to ban. That was denied, and it was 
based on a USDA communication to the EPA that the scientific 
basis that was being used by the Agency was very questionable. 
That was actually an interagency communication between USDA and 
the EPA. I've got a copy of the letter I can provide you and 
would be happy to do so.
    [The information follows:]

                United States Department of Agriculture

January 17, 2017

Jack E. Housenger, Director
Office of Pesticide Programs (7501P)
U.S. Environmental Protection Agency
1200 Pennsylvania Avenue NW
Washington, DC 20460

Dear Mr. Housenger,

    USDA appreciates the opportunity to comment on EPA's proposal to 
revoke chlorpyrifos tolerances, and in particular the new underlying 
risk assessment that was announced on November 17, 2016 
(``Chlorpyrifos; Tolerance Revocations; Notice of Data Availability and 
Request for Comment,'' 81 FR 81049, Docket ID EPA-HQ-OPP-2015-0653). As 
you know, EPA is proposing this action in response to a petition to 
revoke chlorpyrifos tolerances submitted by the Natural Resources 
Defense Council and Pesticide Action Network North America in 2007.
    USDA has both grave concerns about the EPA process that has led to 
the Agency publishing three wildly different human health risk 
assessments for chlorpyrifos within 2 years, and severe doubts about 
the validity of the scientific conclusions underpinning EPA's latest 
chlorpyrifos risk assessment. Even though use of the Columbia Center 
for Children's Environmental Health (CCCEH) study to derive a point of 
departure was criticized by the FIFRA Scientific Advisory Panel, EPA 
continues to rely on this study and has now paired it with an 
inadequate dose reconstruction approach.
    In light of these developments, USDA calls on EPA to deny the NRDC/
PANNA petition to revoke chlorpyrifos tolerances. This would allow EPA 
to ensure the validity of its scientific approach as part of the 
ongoing registration review process, without the excessive pressure 
caused by arbitrary, litigation-related deadlines.
    Our detailed comments on the latest chlorpyrifos risk assessment 
follow. We look forward to continuing to work with EPA to ensure that 
pesticides remain both safe to the public and available to U.S. 
farmers. Please do not hesitate to contact me if you have any further 
questions.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Sheryl H. Kunickis, Ph.D.
Director

 USDA Comments on the Risk Assessment Underlying the Reopened Proposed 
Rule ``Chlorpyrifos; Tolerance Revocations; Notice of Data Availability 
       and Request for Comment'' (Docket ID EPA-HQ-OPP-2015-0653)

Science is the backbone of the EPA's decisionmaking. The Agency's 
ability to pursue its mission to protect human health and the 
environment depends upon the integrity of the science on which it 
relies. The environmental policies, decisions, guidance, and 
regulations that impact the lives of all Americans every day must be 
grounded, at a most fundamental level, in sound, high quality science.

 --Excerpt from Scientific Integrity Policy, U.S. Environmental 
Protection Agency

Introduction
    The ``Revised Human Health Risk Assessment for Registration 
Review'' dated November 3, 2016, is the third human health risk 
assessment for chlorpyrifos that EPA has released, and that USDA has 
reviewed and commented on, within the past 2 years. Typically, three 
risk assessments for the same hazard published so close together 
represent successive attempts at improvement and refinement, with the 
goal of reducing uncertainty and improving the reliability of the 
results. However, EPA's three risk assessments resemble more of a 
scattershot approach, with the agency switching between different 
health outcomes and points of departure, and adopting widely varying 
dose measurement and reconstruction approaches.
    In its latest assessment, EPA has stopped using the dose data from 
the Columbia Center for Children's Environmental Health (CCCEH) study 
it had endorsed in its previous risk assessment just 8 months earlier, 
and instead has chosen to rely on a dose-reconstruction approach to 
identify a point of departure. This dose reconstruction approach 
supposedly estimates the amount of chlorpyrifos to which women in the 
CCCEH cohort might have been exposed in their homes around the turn of 
the century. It is not based on any empirical data, but rather on 
conversations EPA had with ``several'' pesticide applicators in 2016 in 
which they ``recalled'' what the ``predominant'' use of chlorpyrifos 
``in New York City apartment buildings'' was 15-20 years earlier. 
Without any actual data as to use of chlorpyrifos in the cohort 
members' apartment buildings, let alone their individual apartments, 
EPA is merely guessing that the women in the CCCEH cohort were exposed 
to one crack-and-crevice application of chlorpyrifos per month.
    These exposure guesses are then linked to adverse health outcomes 
that EPA's own Scientific Advisory Panel (SAP) has questioned as being 
either statistical artifacts or not caused by chlorpyrifos exposure. In 
addition, the latest risk assessment is still based on just the single, 
not replicated, and unconfirmed CCCEH study. Many weaknesses inherent 
in the study have been identified by the SAP and others, which 
undermine its suitability for determining a point of departure. These 
weaknesses remain unaddressed in EPA's latest risk assessment. This 
cannot be the type of ``sound, high quality science'' the writers of 
EPA's Scientific Integrity Policy envisioned as the ``backbone of the 
EPA's decisionmaking.'' USDA has grave concerns that ambiguous response 
data from a single, inconclusive study are being combined with a mere 
guess as to dose levels, and the result is being used to underpin a 
regulatory decision about a pesticide chemical that is vital to U.S. 
agriculture, and whose removal from market would have a major economic 
impact on growers and consumers.
    Our more detailed comments follow, and are divided into two 
sections, substantive and procedural. USDA requests a response that 
addresses our comments both comprehensively, and on a paragraph-by-
paragraph basis.
Substantive Concerns
    Over the past 2 years, USDA has observed EPA's chlorpyrifos risk 
assessments transition from a more traditional, incremental approach 
based on combining a point of departure from a well-established health 
outcome (10 percent red blood cell acetylcholinesterase inhibition, or 
10 percent RBC AChEI) with retention of a 10X FQPA safety factor based 
on some new epidemiological observations, to a completely novel, even 
radical, approach of basing the entire risk assessment, and through it 
the regulatory and economic future of this major agricultural chemical, 
on a single limited and problematic epidemiological study.
    Throughout the latest risk assessment and the accompanying notice 
in the Federal Register, EPA gives the impression that the Agency has 
addressed concerns voiced by the April 2016 SAP and is following the 
SAP's recommendations. For example, in the Federal Register Notice 
published on November 17, 2016, which announced the availability of the 
latest risk assessment, EPA claimed that it ``modif[ied] the methods 
and risk assessment . . . in accordance with the advice of the SAP'' 
(81 FR 81050). The SAP exists to provide independent scientific advice 
to the Agency; as such the SAP's findings are particularly important 
when they disagree with an approach taken by EPA. Even though SAP 
reports are not legally binding on the Agency, USDA strongly encourages 
EPA to thoroughly consider the advice received from the SAP. An 
objective, comprehensive review of the meeting minutes of the SAP's 
April meeting, published July 20, 2016, simply does not lead to the 
conclusion that SAP concerns have been addressed. Instead, the latest 
risk assessment raises additional and more acute concerns about the 
viability of EPA's risk assessment approach and the reliability of its 
findings.
    EPA's latest risk assessment rests on three central conclusions. 
USDA disagrees with all three.

  1.  EPA concludes that studies show an actual effect on working 
        memory among children in the CCCEH cohort

    In order for a study to be meaningful for deriving a point of 
departure, it must detect an actual health effect. EPA has chosen a 2 
percent change in working memory, measured at age 7 and discussed in 
the Rauh et al. (2011) study of the CCCEH cohort, as the critical 
effect for its last two risk assessments, the first of which was 
reviewed by the SAP in April. There was considerable disagreement among 
SAP members as to whether this 2 percent change is even significant or 
anything more than a statistical artifact:
  --``The [SAP] was conflicted with respect to the importance of a 2 
        percent change in working memory.''
  --``Some members considered a 2 percent change in working memory 
        (less than one standard deviation in the distribution of scores 
        in the general population) to be of questionable biological 
        significance.''
  --``By definition, the [standard deviation] for an essentially 
        unexposed population is really 15 percent. A 2 percent 
        reduction seems to be a particularly low threshold for 
        concluding `abnormal.' ''

 Quotes from FIFRA SAP meeting minutes on chlorpyrifos (July 20, 2016)

    If the Rauh et al. study failed to detect a true health effect, any 
further discussion on the use of this study to derive a point of 
departure would be moot. USDA does not deny that some SAP members did 
argue that a 2 percent change in working memory is a significant health 
effect. Rather than taking a position as to whether the observed 2 
percent decrement in working memory is ``real'' or ``significant,'' 
USDA merely wishes to highlight the considerable disagreement within 
the EPA SAP as to this very basic question. If the experts convened by 
EPA cannot even agree that a health effect (let alone an adverse health 
effect) was observed, this severely weakens the study's suitability as 
the sole quantitative foundation of a major, economically significant 
risk assessment. Equally concerning is EPA's failure to address in its 
most recent risk assessment the questions raised by the SAP.

  2.  EPA concludes that the 2 percent change in working memory was 
        caused by prenatal exposure to chlorpyrifos

    Establishing causality between the exposure of interest (in this 
case, prenatal chlorpyrifos exposure) and the observed health effect 
(in this case, a 2 percent change in working memory measured at age 7) 
is a crucial prerequisite to using the CCCEH cohort data in 
quantitative risk assessment. EPA's latest risk assessment does nothing 
to address the April 2016 SAP's strongly-worded concerns regarding the 
lack of established causality. If anything, EPA's Federal Register 
Notice accompanying the risk assessment further obfuscates the SAP's 
conclusions. It states that ``generally, however, the FIFRA SAP agreed 
with the overall conclusion of the CCCEH study, i.e. the association 
between prenatal chlorpyrifos exposure and neurodevelopmental outcomes 
in children'' (81 FR 81050; emphasis added). Whether or not 
chlorpyrifos exposure is associated with the change in working memory 
is not the issue here; an association between chlorpyrifos exposure and 
change in working memory could be the result of a confounding factor or 
a multiple comparisons problem, and thus be meaningless for risk 
assessment.
    Rather than association, the relevance of the CCCEH study depends 
on whether chlorpyrifos caused the change in working memory. The SAP 
emphatically commented on question of causality (emphases added):
  --``The assumption that the impaired working memory and lower IQ 
        measures observed [in the CCCEH study] are caused primarily by 
        a single insecticide (chlorpyrifos) and predicted by the blood 
        levels at time of delivery is not supported by the scientific 
        weight of evidence.''
  --``Some members of the [SAP] were also concerned about the lack of 
        knowledge of the sensitive window(s) of exposure during 
        pregnancy that would lead to neurodevelopmental outcomes. 
        Without accurate knowledge that exposure occurred during a 
        sensitive window, it is impossible to derive causation.''
  --``Without any evidence in the animal literature or elsewhere of a 
        mechanism of action that could explain how pg/g levels in blood 
        could impair IQ and/or working memory, there does not appear to 
        be biological plausibility. This is a significant 
        uncertainty.'' (Biological plausibility is a crucial element 
        for establishing causality.)
  --``The [SAP] is not aware of any scientific evidence where pg/g 
        levels in the blood would lead to deleterious 
        neurotoxicological effects in a mammalian system. This lack of 
        data could indicate a lack of biological plausibility.''
    The majority of the SAP members drew the correct logical conclusion 
from the absence of indicated causality, namely that use of the CCCEH 
study in a highly impactful risk assessment is ``premature and possibly 
inappropriate.'' This is a necessary conclusion EPA refuses to draw, by 
continuing to rely on the CCCEH study in its latest risk assessment. 
Even more worrisome is EPA's willingness to portray its latest risk 
assessment as responsive to the SAP concerns, when in reality it is 
extremely difficult to see how any continued use of the CCCEH study as 
a basis for a point of departure is consistent with the SAP 
conclusions. The larger passage from the SAP minutes reads as follows 
(emphases added):
  --``The majority of the [SAP] considers the Agency's use of the 
        results from a single longitudinal study to make a decision 
        with immense ramifications based on the use of cord blood 
        measures of chlorpyrifos as a [point of departure] for risk 
        assessment as premature and possibly inappropriate. The basis 
        for this majority view includes: (1) an inability to either 
        know, or confidently make assumptions about, aspects of 
        exposure patterns, labor and delivery, and blood collection . . 
        . [and] (5) lack of biological plausibility for how low cord 
        blood (low parts per trillion) concentrations of chlorpyrifos 
        can alter working memory and produce neurodevelopmental 
        impairment.''
  --``Some Panel members stated that the reliance on single cord blood 
        measurements from only one study (i.e. the CCCEH study) as a 
        primary basis for a highly impactful regulatory decision goes 
        against standard practices of science in the field of 
        toxicology and pharmacology.''
    EPA argues that it addressed SAP concerns about the cord blood data 
by no longer using them in its latest risk assessment, having replaced 
them with the dose reconstruction approach. In doing so, EPA misreads 
the SAP's concerns. While the SAP did criticize EPA for using a single 
measurement of cord blood, rather than deriving a time-weighted 
average, the SAP's fundamental disagreement centered on the fact that 
the risk assessment was based on just a single study with insufficient 
evidence of causality between exposure and effect. It is not the cord 
blood data per se that are the problem, and replacing them with a time-
weighted average not based on any relevant exposure data does not 
improve the risk assessment. Rather, it is EPA's ``inability to either 
know, or confidently make assumptions about, aspects of exposure 
patterns, labor and delivery, and blood collection,'' as well as the 
``lack of biological plausibility'' that render the CCCEH study 
unusable. These criticisms are equally valid whether EPA uses the CCCEH 
cord blood data or a time-weighted average based on the reconstructed 
dose data.
    EPA's reconstructed doses are not based on any additional exposure 
data collected from the CCCEH cohort, nor do they help overcome the 
fundamental lack of biological plausibility and thereby causality. In 
fact, the SAP criticized the use in the risk assessment of not only the 
dose data (cord blood measurements), but also of the observed outcome 
data (change in working memory):
  --``It was the Panel's conclusion that the Agency provided 
        insufficient justification for using cord blood chlorpyrifos 
        levels and associated neurobehavioral health outcomes to derive 
        a [point of departure]'' ( emphasis added).
    In the end, the fatal flaw of EPA's use of the CCCEH study is that 
there is insufficient evidence of causality underlying the observed 
association involving chlorpyrifos. The problems with the chlorpyrifos 
cord blood data identified by the SAP cannot be isolated from the CCCEH 
study as a whole. Instead, the entire study, including the cord blood 
data, is problematic because it fails to indicate a causal relationship 
between chlorpyrifos and the health effect. Replacing the cord blood 
data with a different (and arguably inferior) set of reconstructed dose 
data, as EPA did in its latest risk assessment, does nothing to improve 
the quality or reliability of the risk assessment, and introduces new 
and greater uncertainty rather than decreasing it.
    The SAP meeting minutes also restated many other concerns about the 
CCCEH study that have been previously identified by USDA and others, 
and that continue to be relevant as long as EPA attempts to use the 
CCCEH study to derive a point of departure. These include the potential 
presence of numerous confounding factors that further weaken any claim 
of causality between chlorpyrifos exposure and the change in working 
memory, the lack of access by EPA or the public to the raw study data, 
and questions surrounding the analytical methods used to detect the 
very low (picogram per gram) levels of chlorpyrifos in the cord blood.
  --On confounding factors: ``In addition to the air sampling study and 
        the cord blood sampling study indicating exposure of the 
        [CCCEH] study cohort to various pesticides, the cohort was 
        additionally exposed to multiple contaminants including PAHs, 
        tobacco smoke, piperonyl butoxide, and phthalates. . . . The 
        fact that the pregnant mothers were exposed to a complex 
        mixture of chemicals, many of which induce deleterious effects 
        on the same neurobehavioral parameters that chlorpyrifos is 
        reported to affect, increases the level of uncertainty for 
        using measurements of chlorpyrifos alone as the basis for the 
        risk assessment. . . . [T]he environment where the exposure 
        occurred contained multiple organophosphate insecticides and 
        multiple carbamate insecticides. . . . Thus, there was the 
        opportunity for the pregnant mothers to be simultaneously 
        exposed to multiple cholinesterase inhibiting chemicals. 
        Following exposure to such a mixture, it would be biologically 
        impossible to separate the independent effects of each chemical 
        on a neurochemical or behavioral outcome regardless of the 
        statistical model used'' ( emphasis added).
  --On raw data availability: ``Finally, some [SAP] members thought the 
        quality of the CCCEH data is hard to assess when raw analytical 
        data have not been made available, and the study has not been 
        reproduced.''
  --On the analytical method: ``A major source of uncertainty for the 
        [SAP] was the lack of verification and replication of the 
        analytical chemistry results that reported very low levels of 
        chlorpyrifos (pg/g). Imputing quantitative values when the 
        concentration of analyte falls below the level of detection 
        (LOD) was a particular concern, especially given that a large 
        fraction of cord blood samples included in the analyses 
        presented with levels below LOD.''

  3.  EPA uses reconstructed dose estimates that are not based on any 
        empirical data or any actual knowledge of the exposure 
        experienced by members of the CCCEH cohort

    EPA used its 2012 Residential SOPs, which are typically used to 
estimate exposure to a pesticide for the general population, to 
estimate the doses experienced by the CCCEH cohort. Exposure models, 
such as the Residential SOPs, are designed to produce conservative 
exposure estimates that are then compared to experimental dose data 
derived from animal or human studies. In other words, a study typically 
supplies actual dose values linked to actual response data, which can 
then be compared to modeled exposure estimates to determine whether a 
response is expected in the modeled population.
    Dose reconstruction is usually based on an internal dose 
(biomarker) measurement as a starting point and uses reverse dosimetry 
to arrive at a corresponding external dose. In this case, EPA has no 
usable internal dose data, and instead is using exposure models to 
estimate both the doses received by the individuals in the study, as 
well as the exposure experienced by the general population. The problem 
is that there is no cause-and-effect link between the dose estimates 
provided by the exposure model (Residential SOPs) and the change in 
working memory observed in the CCCEH study. Any exposure model can 
produce a huge range of exposure estimates due to both population 
variability and uncertainty. In this case, the uncertainty around any 
modeled dose estimate is expected to be massive, since EPA has no way 
of knowing when, how often, and at what levels chlorpyrifos was applied 
in the CCCEH cohort members' apartments, nor does EPA know the duration 
and intensity of exposure experienced by study participants post-
application. Did they apply chlorpyrifos themselves and did they do so 
instead of or in addition to professional applications? How long did 
they spend in the apartment post-application? Were the windows open or 
closed? When did they shower? Were they also exposed elsewhere, for 
example at work?
    The wide range of exposure estimates and the vast uncertainty 
associated with any estimate makes it impossible to identify an actual 
dose estimate that is linked to the rather small change in working 
memory observed in the CCCEH study. The fact that EPA's response to the 
SAP report--which highlighted in a negative way the ``inability to 
either know, or confidently make assumptions about, aspects of exposure 
patterns, labor and delivery, and blood collection'' and the ``the lack 
of knowledge of the sensitive window(s) of exposure during 
pregnancy''--was to derive dose reconstruction estimates based on 
absolutely no data related to the cohort members' timing of exposure or 
sensitive windows, indicates a misunderstanding of the SAP's concerns. 
The SAP went on to criticize reliance on the CCCEH study, because the 
data showed ``a lack of a clear dose-response relationship and evidence 
of temporality (i.e., two key concepts in pharmacology and 
toxicology).'' Abandoning the CCCEH cord blood exposure data in favor 
of EPA's dose reconstruction estimates, which are completely devoid of 
actual connection to the CCCEH cohort, exacerbates this SAP concern 
instead of mitigating it.
    In addition, EPA is using an inappropriately high level of 
conservatism in its dose-reconstruction effort given that its stated 
goal is to derive a lowest observed adverse effect level (LOAEL) dose. 
In the latest risk assessment, EPA references an earlier dose 
reconstruction that was part of the 2014 Revised Human Health Risk 
Assessment (2014 HHRA). The goal of the 2014 HHRA exercise was to 
estimate an ``upper limit, bounding level exposure'' and as a result it 
contained very conservative assumptions with regards to exposure 
duration and bathing frequency. By contrast, EPA states that the 
purpose of the dose reconstruction in its latest risk assessment is to 
predict ``typical'' product usage and behaviors, and therefore the 
assumptions are essentially realistic or even tend to underestimate 
exposure (e.g., daily shower taking place immediately after 
application; exposure duration of only 2 hours/day). However, EPA 
should be estimating upper limit exposures if its goal is to derive a 
LOAEL dose. Assuming for a moment that the CCCEH study did observe an 
actual association between chlorpyrifos exposure and change in working 
memory, only the most highly exposed cohort members would have 
experienced this adverse effect. Most cohort members were exposed to 
comparatively lower levels of chlorpyrifos, which did not cause a 
change in working memory. Therefore, exposure resulting from 
``typical'' product usage and behaviors should not be expected to cause 
a response, and if used at all should be considered a no observed 
adverse effect level (NOAEL) dose, not a LOAEL dose. Instead, upper 
limit exposures, representing the most highly exposed individuals 
within the CCCEH cohort, would have been the only doses to be 
potentially associated with an adverse effect.
    Taking a step back, USDA wishes to highlight a logical flaw in 
EPA's reasoning. In its dose reconstruction, EPA considered the 
exposure from the monthly residential crack-and-crevice application to 
be the only contributor to the chlorpyrifos doses experienced by the 
CCCEH cohort. In other words, EPA is assuming that the crack-and-
crevice application, and only the crack-and-crevice application, is 
causing any adverse effects potentially observed in the CCCEH study 
cohort, such as a change in working memory. By implication, this 
indicates that the Agency considers any dietary (food or drinking 
water) exposure to chlorpyrifos among the CCCEH cohort to be 
negligible. As EPA points out in its latest risk assessment, all 
residential uses of chlorpyrifos were cancelled in 2000, meaning that 
today the only relevant exposures for the general population are food 
and drinking water exposures. There is no reason to believe that the 
population today is exposed to significantly higher levels of 
chlorpyrifos in the diet than the CCCEH cohort was. How then is it 
possible that food and drinking water exposures were not even 
considered in the CCCEH cohort dose reconstruction, but EPA now claims 
that food exposure alone causes some individuals to exceed the 
acceptable level of chlorpyrifos exposure by as much as 140 times?
                  conclusion for substantive concerns
    EPA's latest risk assessment depends on three conclusions related 
to the existence of a health effect, causality, and the dose-
reconstruction approach. For EPA's assessment to be meaningful, all 
three conclusions would have to be well-supported by the evidence and 
logically coherent. Instead, they range from questionable to 
unsupported by the evidence to incorrect. As a result, the latest risk 
assessment fails to show either a causal or a dose-response 
relationship between chlorpyrifos exposure and a change in working 
memory among the CCCEH cohort, even though causality and the existence 
of a dose-response relationship are two fundamental pillars of 
regulatory toxicology and risk assessment. USDA concludes by asking 
whether, before November 2016, EPA has ever derived a point of 
departure for pesticide risk assessment based on a single study which 
the Agency has concluded does not contain any usable dose data.
Procedural Concerns
    USDA strongly urges EPA to abandon use of the CCCEH study to set a 
point of departure for chlorpyrifos and to return to using AChEI as the 
critical effect. If EPA chooses to continue to use the CCCEH study, 
EPA's latest risk assessment should be re-submitted to the SAP for 
review. USDA finds this to be absolutely crucial for maintaining public 
confidence in the pesticide regulatory process. Compared to the March 
2016 risk assessment that the SAP reviewed, the latest risk assessment 
is even further beyond the ``mainstream'' of pesticide risk assessment. 
Mostly, this is due to the dose reconstruction approach that, to USDA's 
knowledge, has never been externally reviewed. In addition, the fact 
that the latest risk assessment continues to be based on the CCCEH 
study clearly weighs in favor of allowing the SAP to review again, in 
order to determine whether its earlier criticisms of the CCCEH study 
have been addressed or mitigated.
    USDA notes that according to EPA's Peer Review Policy, ``external 
peer review is the approach of choice'' for influential scientific 
information intended to support important decisions. Influential 
scientific information in turn is characterized, inter alia, by its 
establishment of a significant precedent, model, or methodology; its 
material adverse effect on the economy or a sector of the economy; its 
addressing of significant controversial issues; its significant 
interagency implications; and its consideration of an ``innovative'' 
approach for a previously defined problem (EPA Peer Review Handbook, 
4th Ed.). In USDA's opinion, all of these factors are present in EPA's 
latest chlorpyrifos risk assessment, indicating that an external peer 
review of the document is warranted. USDA commends EPA for having 
consulted the SAP three times already on the subject of chlorpyrifos. 
However, this latest hybrid approach is more than just a refinement or 
an implementation of previous SAP recommendations. A completely new 
risk assessment approach is being considered which will have a wide 
impact on the evaluation chlorpyrifos, as well as other pesticides in 
the future. USDA strongly urges EPA to present this latest risk 
assessment to the SAP. Before doing so, EPA should thoughtfully 
consider and publicly respond to all public comments received on the 
subject of chlorpyrifos since the 2014 Revised Human Health Risk 
Assessment was published. This will allow the public to provide an 
informed opinion at the next SAP meeting, and it will help the SAP in 
fully understanding the breadth of risk assessment approaches 
considered by the Agency.
    USDA is aware that EPA is under a court-ordered deadline to fully 
respond to the PANNA/NRDC petition (by issuing a final rule, if 
necessary) by March 31, 2017. However, USDA strongly feels that EPA 
should take the necessary time to fully address the SAP concerns and to 
develop a robust risk assessment. To that end, USDA requests that EPA 
issue an order denying the petition to revoke chlorpyrifos tolerances 
and cancel uses. This would allow the Agency to continue its evaluation 
of chlorpyrifos as part of the ongoing pesticide review process and 
free from undue litigation-induced pressure, and would not preclude the 
Agency from taking mitigation action in the future if 
neurodevelopmental effects related to chlorpyrifos are identified and 
confirmed.

    Senator Udall. Thank you. No, that would be great to get 
that letter. But my understanding, in reading the press, is 
you've delayed this decision off a number of years. But you're 
saying now you're going to make it in October.
    Mr. Pruitt. The decision process that's been defined is 
there will be a decision by October 1 of this year.
    Senator Udall. Yes. Okay. As you know, I mean, this has 
been an issue that's been studied for 30 years by exposure 
scientists, and there is very, very strong scientific evidence 
there in terms of the damage that can be done. And also the 
additional issue is that there are alternatives. I mean, from 
everything I can tell, there are alternatives that could be 
used in the same way.
    What are your concerns in terms of Federal law? Can you 
specify those in terms of chlorpyrifos?
    Mr. Pruitt. I think, Ranking Member Udall, what we 
determined is what I shared just a minute ago, is that it was 
interagency communications between the USDA and the EPA about 
the scientific basis of the decision. There was a petition that 
was denied based upon that, and then a process set forth that a 
decision would be made by October 1 of this year.
    Senator Udall. Yes. And are you aware that there are more 
than 20 alternative chemicals available to farmers?
    Mr. Pruitt. Senator, we're going through the process, and 
there will be a decision by October 1.
    Senator Udall. Okay.
    Mr. Pruitt. Yes.

                         MANMADE CLIMATE CHANGE

    Senator Udall. We've heard from many administration 
officials a variety of statements on humans' activity and its 
impact on global warming and climate change, and these are 
quotes: it's the oceans, not humans; climate change is 
happening, but the jury is still out on human impact; 
CO<INF>2</INF> is not the main contributor to climate change. 
Those are the kinds of statements.
    But what I want to ask you is, what is the official Trump 
administration position on accepting the scientific evidence 
that manmade climate change is occurring?
    Mr. Pruitt. Senator, I've been consistent from my 
confirmation hearing through all my comments that the global 
warming--CO<INF>2</INF> is impacting the climate, that human 
activity contributes to it in some measure. Measuring that with 
precision is very difficult. But there is a very important 
question, what is the process as far as response?
    The Clean Air Act, if you go back to the individuals, and 
perhaps you were here at the time, I'm not entirely sure, when 
the Clean Air Act was amended in 1990, there was great question 
about whether greenhouse gases and CO<INF>2</INF> were meant to 
be regulated. The Clean Air Act fundamentally is about regional 
and local air pollutants. And someone--you know, Congressman 
Dingell was actually quoted as saying that if the current 
framework was used to regulate CO<INF>2</INF>, it would create 
a glorious mess, quote, unquote. So the question from a process 
perspective----
    Senator Udall. Administrator, you know they've settled that 
issue. The court settled the regulation.
    Mr. Pruitt. No, they----
    Senator Udall. The court settled the regulation of 
CO<INF>2</INF>.
    Mr. Pruitt. Mass v. EPA simply said that the EPA--the 2007 
case, that they had to make a decision on whether to regulate, 
would have imposed a risk to health, and there was an 
endangerment finding that followed that in 2009. It did not 
address whether the tools were in the toolbox. It did not 
address whether the Agency--because, as you know, Senator, 
Congress has not responded to the CO<INF>2</INF> issue with 
respect to amendments to the Clean Air Act, and the Supreme 
Court has said that, in the Clean Power Plan stay as well as 
the UARG decision with respect to the tailoring rule.
    Senator Udall. Now, I asked you the official Trump 
administration position. Is that the one you stated? I know you 
stated your position, but what is the official position of the 
administration?
    Mr. Pruitt. The Agency that I lead is responsible for 
responding to----
    Senator Udall. Do you not know of any official position?
    Mr. Pruitt. That--that--I've responded to you based upon 
what our responsibilities are at the Agency and the 
CO<INF>2</INF>.
    Senator Udall. But do you know of any official position 
that I can find somewhere and understand what the Trump 
administration official position is?
    Mr. Pruitt. I think what's important, Senator, is that we 
are responding to the CO<INF>2</INF> issue through the 
regulation of mobile sources. We are also evaluating the steps 
or the tools that we have in the toolbox with respect to 
stationary sources, and that's our focus.

                        RENEWABLE FUEL STANDARD

    Senator Udall. Yes. Administrator Pruitt, the Senate 
Environment Committee is looking at updates to the Renewable 
Fuel Standard. I supported the creation of this program when I 
served in the House, but I'm becoming concerned with its 
implementation now. First, I'm concerned that it has led to 
widespread land conversion, to corn to produce ethanol, which 
Congress did not intend.
    EPA is charged with reviewing and reporting on this issue, 
but has failed to produce the required reports. I wrote a 
letter, a recent letter, to you on this topic with Congressman 
Peter Welch. Will you respond to that letter and seek to 
produce the reports required by the statute?
    Mr. Pruitt. Yes, Senator. And you're right, the Agency 
historically--there's a 3-year review process that is supposed 
to be submitted to this body, and that's not happened, and 
that's something that's being corrected.
    Senator Udall. Okay. And you will get that letter in then.
    Mr. Pruitt. Yes, sir.
    [The information follows:]

             United States Environmental Protection Agency

August 4, 2017

Hon. Tom Udall
United States Senate
Washington, DC 20510

Dear Senator Udall:

    Thank you for your letter of May 5, 2017, to the U.S. Environmental 
Protection Agency regarding the Renewable Fuel Standard (RFS) program 
and the status of the Triennial Report to Congress and the anti-
backsliding study that are required under the Clean Air Act.
    As your letter notes, EPA's Office of Inspector General (OIG) 
released a report titled EPA Has Not Met Certain Statutory Requirements 
to Identify Environmental Impacts of Renewable Fuel Standard (Report 
No. 16-P-0275) late last year. In response to this report the EPA 
committed to completing the next triennial report to Congress on the 
environmental impacts of biofuels by December 31, 2017. The agency is 
currently on track to complete the report by that date.
    With respect to the anti-backsliding study required under Section 
211(q)(1) of the Clean Air Act, EPA acknowledged our obligation under 
the law. EPA already has taken a number of steps that are important 
prerequisites for the study. However, as the OIG report correctly 
notes, there are multiple intermediate research steps that still need 
to be completed before EPA can plan, fund, and conduct a comprehensive 
anti-backsliding study. These steps include development or baseline, 
current, and projected scenarios for how renewable fuels have and might 
be produced, distributed, and used to fulfill the RFS requirements; 
generation of emissions inventories; and air quality modeling; all of 
which are time-consuming and resource-intensive. This work must be 
conducted on top of other statutorily-required actions under the RFS. 
EPA expects to meet the timeframe that we committed to in the OIG 
report.
    Again, thank you for your letter. If you have further questions. 
please contact me or your staff may contact Patricia Haman in the EPA's 
Office of Congressional and Intergovernmental Relations at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6ded7dbd7d898c6d7c2c4dfd5dfd7f6d3c6d798d1d9c098">[email&#160;protected]</a>

 Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Sarah Dunham,
 Acting Assistant Administrator.

    Senator Udall. Yes. Thank you.
    Madam Chair, I'm over my time here, so----

                              BRISTOL BAY

    Senator Murkowski. We'll keep going back and forth here.
    Let me talk about fish and fish grinding siting stuff, but 
for our fishermen, really important stuff. The NPDES general 
permit for seafood processors within the State allows for 
grinding and discharge of seafood waste, but the permit 
requires that all seafood waste be ground to a size of no more 
than \1/2\ inch in any dimension.
    So our seafood processors in the State have installed 
grinders to grind to \1/2\ inch or smaller, but the best 
available technology is not out there, it doesn't exist, to 
achieve a \1/2\-inch grind dimension on a consistent basis due 
to the fact that fish waste is different. You've got the bones, 
you've got the skin, you've got different things that make it 
that much more difficult. And the industry has spent a lot of 
money upgrading its waste systems in an effort to comply, but 
they've come to the point where achieving 100 percent of 
compliance all the time is not possible right yet, but this 
results in noncompliance reporting, it serves as a constant 
threat of enforcement risk and loss.
    In addition, you have the situation offshore where the 
issue of fish grinding just has not yet been resolved. 
Processing vessels that are operating in offshore waters are 
subject to the same requirements even though there is no 
documented water quality issues that would require such 
grading. And this grinding--this issue has been going on now 
since 2012.
    And I appreciate, Administrator Pruitt, with just about 
every question that you've heard from this panel, you've said, 
look, delays within the Agency are just not acceptable, we've 
got to make some hard decisions, we need to move through a 
process. And I hope that this is one of those areas where these 
long drawn-out reviews with no answers can come to a 
conclusion.
    So know that I want to work with you to find a solution for 
both onshore and offshore to effectively allow onshore that the 
fish processors that are using the best available technology or 
best conventional practice are not going to be facing the fines 
and the threats of fines that they currently do, and then to 
resolve where we are with the offshore in ensuring that it's 
going to be the science that leads us to the appropriate 
regulation in this regard.
    So I don't know if you have any updates for me on that, but 
we're in the midst of a fishing season. Bristol Bay is really 
going to be coming online, as I mentioned, in a week or so, and 
this is front of mind for a lot of folks back home.
    Mr. Pruitt. Well, you have my commitment to work with you 
on that issue. Regulatory certainty, Madam Chair, is so 
important. You mentioned those in the commercial space, 
industry space, facing fines, not knowing whether their 
practices are compliant with regulatory action by the Agency or 
current statute. It's something that we need to be decisive and 
provide that clarity to them, and I look forward to working 
with you in that regard, both onshore and offshore.

                              INCINERATORS

    Senator Murkowski. Good. Well, and we've got other 
situations going on all over the State. I've mentioned our 
small and remote incinerators. To my Ranking Member here, one 
of our dilemmas is when you are working in these very remote 
areas, for instance, the North Slope of Alaska or some of our 
small villages, you create waste. You need to be able to remove 
them, but there is no road. And so your methods for dealing 
with this are basically helicopter it hundreds of miles to a 
place where the solid waste can be disposed of in an 
appropriate way.
    But we have been working with EPA in search of an 
administrative solution on this again for a number of years. We 
were so close to making it happen with Administrator McCarthy. 
But we need to get to a situation where we're able to resolve 
this issue, not be in conflict with the Clean Air Act. But, 
again, long-standing issue causing uncertainty and cost not 
only to the oil and gas industry up north, but really around 
our State with our many remote operations.
    Mr. Pruitt. Yes, I know that Alaska has requested an 
exemption. That's something that we are working through, Madam 
Chair. It's an exceptional circumstance. It's something that, 
as an agency, we need to be mindful of as we approach these 
kinds of decisions. I mean, you made reference to the 
incinerators. I think even the woodstove issue, you know, in 
Fairbanks is equal to that. You know, people are using 
woodstoves to stay alive, to stay warm.
    So as we work through these issues locally, it's important 
that we truly learn from the folks on the ground and try to set 
forth some practical responses to achieve the outcomes that we 
endeavor to achieve. But it's an exceptional circumstance, and 
you have my commitment to work with you in that regard.

                               GENERATORS

    Senator Murkowski. Well, and oftentimes, and I know that 
you understand and appreciate this, but you have regulations 
that people cannot comply with because the technology isn't 
there or because of unusual circumstances, again remoteness or 
cost. And we see this with the diesel generators in remote 
villages, and the standards now that are put in place and 
required under this Executive Order 13777. But instead of 
individuals being able to meet the upgrades, if you will, what 
they're doing is they're saying, ``I can't do it,'' so they are 
basically rebuilding their older generators.
    And if you think about the impact, the purpose of the 
regulation is to move us towards cleaner air, but you cannot 
meet the requirements of the regulation, so what you do is you 
just rebuild the older, dirtier model. It doesn't get you to 
your intended goal.
    So, again, working to find some of the solutions in these 
areas, particularly in these remote communities where we're 
identifying and we're working off small microgrids that are not 
connected to anybody else, but making sure that we're moving 
forward, regulations that incent in the right way rather than 
provide a disincentive to stick with the older, dirtier, less 
efficient.
    Mr. Pruitt. Yes, well said, Madam Chair. We're reviewing 
the Executive Order 13777. And, again, these are unique 
circumstances to Alaska, and it's something that we need to be 
mindful of as we engage in these Tier 4 standards.

                          LEADERSHIP POSITIONS

    Senator Murkowski. Well, and my final question to you kind 
of speaks to the fact that I have outlined some of the perhaps 
more unique issues in the State, and that really kind of begs 
the question of where we are with getting regional 
administrator positions filled, as you know, Region 10, pretty 
important to us and the State of Alaska. And the last time we 
talked about getting these positions filled--and, again, 
they're not subject to Senate confirmation, so hopefully one 
would think that we'd be able to advance them quicker. And the 
last time we talked about this, they were stuck in the 
bottleneck of personnel decisions.
    But it's not just Region 10 where they're asking for this, 
and the other regions, I've had other Members contacting me 
saying, ``When can we expect some movement here?'' I know, I 
know full well, that you need people, and you need people not 
only in the confirmed spots, but you need them throughout.
    So let me know if there is anything that I can do to be 
helpful in advancing these positions, but I think the sooner we 
get people in place and brought up to speed on many of these 
areas, where, again, I look at them as parochial, but for our 
fishermen, for our miners, for the people that live in these 
remote areas and are raising their families, these are pretty 
key.
    Mr. Pruitt. Yes, on the substantive issues, you're exactly 
right. On the leadership issues, the personnel side, I believe 
we're making progress, and I'm hopeful that we'll have regional 
administrators in place soon.
    Senator Murkowski. Imminent?
    Mr. Pruitt. Well----
    Senator Murkowski. I like the earlier----
    Mr. Pruitt [continuing]. Not as imminent perhaps as the 
last date I provided you, but that would be good. We're working 
through that process, and I hope to see good outcomes sometime 
soon.
    Senator Murkowski. I appreciate that. Thank you.
    Mr. Pruitt. Yes.
    Senator Murkowski. I have no more questions, Senator Udall.
    Senator Udall. Thank you, Madam Chair.
    Mr. Administrator, when we were talking about chlorpyrifos, 
you said you would make a decision by October 1? Was that 
October 1 of this year? Because your website says October 1 of 
2022. The EPA website says 2022.
    Mr. Pruitt. Okay. It's my understanding that it's October 
1, 2022, Senator. But we'll get the clarification to you----
    Senator Udall. And the reason--whether it's 2022 or even 
this October, the reason is, is under Federal law, you are 
required to ban a pesticide if you cannot prove with reasonable 
certainty that the pesticide is safe. And at this point, I've 
had very--a large number of exposure scientists say the 
evidence is overwhelming over 30 years that this pesticide is 
not safe. And so the decision is before you to ban it.
    Mr. Pruitt. Again, the only decision that's been made 
presently is a petition that has been denied, and that was 
based upon the interagency discussion between USDA and the EPA, 
which we will provide you that letter. And we're engaged in the 
process to make a determination based upon the available 
science and data.

                        RENEWABLE FUEL STANDARDS

    Senator Udall. Yes. Well, I would urge you on the available 
science and data to act quickly. And I think it's justified to 
act more quickly, even more quickly than October 1 of this 
year.
    We were also talking about the renewable fuels earlier, and 
I'm concerned that the RFS is not helping produce advanced and 
cellulosic biofuels, as Congress intended. And now there is 
legislation under consideration which would allow more 
conventional ethanol. As EPA and Congress consider the RFS, do 
you agree that we should focus on what we can do to incentivize 
advanced biofuels rather than only promoting more conventional 
corn ethanol?
    Mr. Pruitt. Congress has set forth four categories, you 
know, under the advanced and conventional banners, and the 
statute, as you know, sets forth, like in cellulosic, it's over 
4 billion gallons. I don't remember the exact amount presently, 
Senator, and I think last year the waiver was down to around 
300 million or so gallons.
    This is something, I know that there is much effort, much 
work, being done in Congress on updating potentially the 
statute. I think that would be a good thing for Congress to do 
because we need clarity. This statute is very difficult to 
administer because Congress has been prescriptive, and as it's 
been prescriptive, the very specific gallons that are supposed 
to be blended is not being achieved in many of the advanced 
categories, as you know. So we need the help of Congress in 
responding.
    My objective is to use waiver authority judiciously to be 
respectful of what Congress has said as far as the intent of 
the statute, but we will work with you, work with others in 
this body, to address any legislative responses to that 
statute.
    Senator Udall. Well, we look forward to working with you. 
There is real bipartisan--there is a bipartisan sweet spot on 
this issue if we can get the information from you and then try 
to move forward with some legislation.
    Mr. Pruitt. I think that's important.

                    NEW SOURCE PERFORMANCE STANDARDS

    Senator Udall. Yes. You recently proposed a 2-year 
suspension for the oil and gas industry to comply with the leak 
detection and repair requirements of the New Source Performance 
Standards rule that limit methane emissions from oil and gas 
infrastructure. The regulation was designed to cut methane 
pollution by 40 to 45 percent from 2012 levels. This 2-year 
delay comes shortly after your earlier 90-day stay issued 
without advanced notice to the public or seeking public 
comment. The EPA recently estimated that the cost savings to 
the oil and gas industry from suspending the rule will be more 
than $173 million.
    At the same time, EPA understands that this suspension puts 
children's health at risk. The EPA acknowledges that children 
are disproportionately susceptible to air quality pollution and 
that they will continue to be exposed to harmful emissions for 
2 years during this delay.
    Does your suspension to review the methane rule signal that 
you will begin a formal Federal rulemaking process to replace 
it with a new rule that will protect the health of our children 
and the environment with similar or more stringent standards?
    Mr. Pruitt. It's not intended to send a message in any 
particular way, Ranking Member Udall. The standard under the 
statute for a delay of implementation is insufficient 
information, and based upon the information provided to me, the 
implementation issues that need to be addressed, that's why the 
delay occurred. It's not indicative of one particular approach 
over another on a replacement or withdrawal per se, it's just 
simply to address data and information that's necessary for 
implementation of the rule.
    Senator Udall. But will you begin a formal Federal 
rulemaking process to replace this rule?
    Mr. Pruitt. That's not been determined, Senator.
    Senator Udall. That hasn't been. And so you're--but you're 
not saying you're----
    Mr. Pruitt. I'm not--that's just not been determined yet.
    Senator Udall. Okay. Okay. Is it your position that EPA has 
no role in regulating methane pollution?
    Mr. Pruitt. Absolutely not. We absolutely have a role. Yes.
    Senator Udall. Madam Chair, that's my final question. I 
would just ask on the question that Senator Van Hollen asked 
with regard to the website that was taken down by the 
Administrator. This was a website that had been up for 16 years 
under Democratic Presidents, Republican Presidents. It was 
updated. It had the most recent science. And the person who ran 
that website was a guy named Jason Samenow. He is now a 
reporter for the ``Washington Post.'' And he wrote an article 
about his position on what the Administrator did, and I would 
just ask that that article be put in the record.
    Senator Murkowski. It will be so.
    [The information follows:]

               [From the Washington Post, June 22, 2017]

_______________________________________________________________________

Outlook  <rm-bond>  Perspective

    I WORKED ON THE EPA'S CLIMATE CHANGE WEBSITE. ITS REMOVAL IS A 
                          DECLARATION OF WAR.

                           (By Jason Samenow)

    Jason is the Washington Post's weather editor and Capital Weather 
Gang's chief meteorologist. He earned a master's degree in atmospheric 
science, and spent 10 years as a climate change science analyst for the 
U.S. Government. He holds the Digital Seal of Approval from the 
National Weather Association.
    This spring, political officials at the Environmental Protection 
Agency removed the agency's climate change website, one of the world's 
top resources for information on the science and effects of climate 
change.
    To me, a scientist who managed this website for more than 5 years, 
its removal signifies a declaration of war on climate science by EPA 
Administrator Scott Pruitt. There can be no other interpretation. I 
draw this conclusion as a meteorologist with a specialization in 
climate science and as an independent voter who strives to keep my 
political and scientific views separate. I concede that this specific 
issue is personal for me, given the countless hours I spent working on 
the site. But it should be obvious to anyone how this senseless action 
runs counter to principles of good governance and scientific integrity.
    Some 20 years in the making, the breadth and quality of the 
website's content was remarkable. It lasted through Democratic and 
Republican administrations, partly because its information mirrored the 
findings of the mainstream scientific community, including the National 
Academy of Sciences, other Federal agencies and the United Nations 
Intergovernmental Panel on Climate Change. It ``presented the current 
understanding of the science and possible solutions in a fair and 
balanced way,'' says Kerry Emanuel, a world-renowned atmospheric 
scientist at MIT and a political conservative.
    The site's overarching conclusion, informed by these scientific 
organizations and reports, was that recent warming is largely a result 
of human activities, specifically the burning of fossil fuels, which 
releases large amounts of carbon dioxide into the atmosphere.
    Yet Pruitt, a lawyer who has spent much of his career fighting 
climate change mitigation efforts, decided that he knows more than the 
thousands of scientists whose decades of work support this conclusion. 
These are his words about the impact of human activity: ``I would not 
agree that it's a primary contributor to the global warming that we 
see.'' Pruitt has championed the administration's decision to exit the 
Paris climate agreement and called for a debate on the fundamentals of 
the issue, even though there's virtually no disagreement about it among 
scientists. He then effectively cleansed the EPA's Board of Scientific 
Counselors, a steering committee for the agency's research.
    The EPA's official line is that it is ``updating'' the climate 
change website to reflect new ``priorities'' under Pruitt and Trump. It 
has archived the old site but put nothing in its place nor announced a 
timetable for ``updating'' it. Pruitt may not accept mainstream climate 
science conclusions, but if he wanted to promote his alternative views, 
a much more defensible and transparent action would have been to leave 
the site up while posting his perspective as well. Instead, one of the 
world's best climate science sites has vanished.
    In its heyday in the early 2000s, if you Googled ``climate change'' 
or ``global warming,'' the EPA's site was the first hit. The site not 
only presented climate science, it was also a portal to data on 
warming's effects and greenhouse gas emissions, along with guidance and 
tools to help people, municipalities and states reduce their carbon 
footprints. It included a vibrant kids' site treasured by educators, 
featuring interactive teaching tools and videos, which was also taken 
down.
    While the George W. Bush administration attempted to exert some 
control over the site, it was never so drastic. When Bush's political 
appointees filed into the EPA in 2001--coinciding with when I began 
managing the site--updates were put on hold for several months. For a 
while, we were permitted to update only one page a month, which first 
went through an onerous White House review process. As the site 
contained several hundred pages of content at that time, this was 
effectively a ``let it rot'' policy. But at least the site wasn't 
trashed.
    During Bush's second term, the constraints on updating were lifted, 
and we resumed regularly posting new material. That carried on through 
the Obama administration (I left the EPA in 2010 to join The Washington 
Post).
    To be perfectly clear, it is any administration's prerogative to 
revise or archive Web pages that relate to policies and programs it is 
no longer pursuing. For example, Pruitt's move to archive material on 
the Obama administration's Clean Power Plan was totally justified; the 
Trump administration has shelved the policy.
    But there is no justification for political interference with 
authoritative, carefully vetted scientific information. Neither the 
National Oceanic and Atmospheric Administration nor NASA has altered 
its online climate science content--which is not substantively 
different than material on the EPA's site. They are not currently run 
by political appointees.
    It is refreshing that governments in several cities, including 
Chicago, Boston and San Francisco, have published replica versions of 
the EPA's now-defunct site to keep it alive.
    Pruitt's order to delete the site feels purely spiteful, as if he 
simply couldn't abide knowing that the agency he leads was publishing 
information he doesn't believe. But science is not about belief--it's 
about evidence. Of all people, the head of the EPA should have the 
utmost respect for this evidence and its transparent communication. 
Pruitt's choice to destroy carefully vetted scientific information 
rather than preserve it is a reckless and dangerous abdication of his 
responsibility.

    Senator Udall. Yes. And we may well have additional 
questions for the Administrator.
    But thank you very much. Appreciate you being----
    Senator Murkowski. And the record will be kept open for a 
week then if Members choose to submit additional questions.
    Administrator, we thank you for being here. And I 
appreciate particularly your just direct responses, clearly 
very well informed. I think you can tell from the issues that 
are raised, we care about ensuring that our air is clean and 
our waters are clean, whether it's Chesapeake Bay or what you 
heard from both Senators from Montana, they care about what's 
going on with the Superfund site there in Butte and otherwise, 
and in New Mexico. And so I think we clearly have common ground 
to work in so many different areas.
    I particularly appreciate the imperative that you seem to 
be bringing to the Agency that delays in decisionmaking that go 
on for years do not benefit anyone. And sometimes these 
decisions are difficult, and we appreciate that. But when you 
think about the uncertainty that comes, when you don't know 
whether or not that site is going to be cleaned or whether or 
not that regulation is going to be enforced, it just adds to 
ongoing frustration, additional costs.
    And we haven't done anything to address the issues, the 
back-to-the-basics, which is clean air, clean water, and what 
we're going to do to ensure that these mandates are met. So I 
appreciate your direction here this morning.
    Mr. Pruitt. Thank you, Madam Chair, for the opportunity to 
be with you this morning. I look forward to the partnership 
with you and the Ranking Member.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
                Questions Submitted to Hon. Scott Pruitt
             Questions Submitted by Senator Lisa Murkowski
                   indian general assistance program
    Question. The fiscal year 2016 Omnibus contained a provision that 
allowed the EPA to continue ``solid waste and recovered materials 
collection, transportation, backhaul, and disposal services'' through 
the Indian General Assistance Program through fiscal year 2020. If this 
provision is not made permanent, what alternatives does the Agency have 
for continuing the backhaul program, which is extremely important to 
many in Alaska?
    Answer. To address the highest hazard waste materials, EPA, the 
Alaska Department of Environmental Conservation and others in the Solid 
Waste Alaska Taskforce, have convened private sector stakeholders, 
government agencies, Tribes, and nonprofits to develop a plan for a 
Statewide Backhaul program. The goal is to have the program in place by 
October 1, 2020. The program is being designed to reduce backhaul costs 
through transportation economies of scale and increase revenue through 
recycling commodities in bulk quantities. Once fully implemented, the 
program is being designed to create a new waste transportation 
coordination service for the many public and private entities that 
generate waste in Alaska and charge economical service fees to further 
offset the cost of backhaul for remote communities statewide, 
including, but not limited to, Alaska Native Villages. EPA, ADEC, and 
Alaska backhaul stakeholders are assessing a variety of financing 
options to ensure program solvency and financial viability without the 
need for continued EPA funding through the Indian Environmental General 
Assistance Program (GAP). Through this backhaul program EPA and 
partners are exploring a solution to optimize waste management that 
will respond to concerns for protection of human health and the 
environment, including subsistence resources, due to disposal of wastes 
in these areas over time.
    EPA's management of GAP remains focused on these statutory 
purposes, which are to support (1) development of Tribal Government 
capacity ``to implement programs administered by the EPA'' and (2) 
``the development and implementation of solid and hazardous waste 
programs for Indian lands'' in accordance with the purposes and 
requirements of applicable provisions of law. Indian Environmental 
General Assistance Program Act of 1992, 42 U.S.C. Sec. 4368b (as 
amended). These Federal authorities cover core environmental programs 
such as water quality standards for surface waters, protecting Tribal 
members and natural resources from air and water pollution, delivering 
safe drinking water to Tribal communities, and assuring compliance with 
hazardous waste management requirements. Tribes across the country face 
a myriad of serious environmental and human health threats; 
contamination resulting from improper waste management is only one 
facet of these challenges. Tribal environmental protection programs 
generally lag behind the rest of the country and EPA's management of 
GAP strives to support all federally recognized Tribes who are building 
capacity to implement the full spectrum of environmental regulatory 
programs currently administered by the EPA.
            coal combustion residuals federal permit program
    Question. The Water Infrastructure Improvements for the Nation Act 
included a provision related to coal combustion residuals. Language was 
included as part of that provision to allow the Administrator to set up 
a Federal permit program for States that do no set up State permit 
program. However, my understanding is that it is possible that such a 
program must specifically be authorized in an appropriations bill. Is 
that the case or can the EPA move forward administratively to set up 
such a program?
    Answer. The WIIN Act provides: ``in the case of a non-participating 
State and subject to the availability of appropriations specifically 
provided in an appropriations Act to EPA to carry out a program in a 
nonparticipating State, the Administrator shall implement a permit 
program for CCR facilities.''
    Thus, it is EPA's understanding that Congress must provide a 
specific appropriation for EPA to carry out a permit program in a non-
participating State. However, EPA is the permitting authority in Indian 
country.
                      carbon neutrality of biomass
    Question. The fiscal year 2017 Omnibus included language 
establishing the carbon neutrality of biomass. The bill set up a 
process where the EPA, USDA, and the Department of Energy would 
establish a consistent Federal policy related the carbon neutrality of 
biomass.
  --What is the status of the creation of that Federal policy? Has EPA 
        closely coordinated with DOE and USDA at this stage and what is 
        the timeframe for moving forward?
  --Will EPA take any steps to reverse the treatment of biomass in the 
        2010 tailoring rule, which required regulation without regard 
        to the ongoing forest carbon cycle?
    Answer. There are a variety of programs across EPA that work on 
aspects of the production, processing, and consumption of biomass. EPA 
will continue to address the use of biomass in its policies and 
programs in a manner consistent with the directives within the 
Consolidated Appropriations Act, 2017 (Public Law No: 115-31) and other 
legal authorities. EPA will work with our interagency partners, 
including the U.S. Departments of Agriculture and Energy, to establish 
clear and simple policies for the use of biomass as an energy solution, 
and striving for consistency across Federal policies and programs. EPA 
is committed to our ongoing work with all stakeholders, including 
industrial partners, States, Tribes, local governments, and non-
governmental organizations.
    Additionally, EPA is taking a common-sense approach to developing 
standards for greenhouse gas emissions from mobile and stationary 
sources under the Clean Air Act, including advancing its understanding 
of the role the use of biomass can play in affecting overall greenhouse 
gas emissions. EPA will continue to evaluate the use of biomass in the 
context of its policies and programs.
                     coal refuse-fired power plants
    Question. Coal refuse-fired power plants use fluidized bed 
combustion technology to burn abandoned coal refuse piles in a highly 
controlled manner to generate electricity, and then use the alkaline 
coal ash produced to reclaim the site and abate the mine drainage. This 
eliminates the potential for uncontrolled coal waste fires, acid mine 
drainage and the need for Federal, State or local funds for this 
purpose. The reclaimed land is available for commercial and 
recreational purposes, including shopping centers, housing 
developments, industrial uses, soccer fields and pastures. In 
Pennsylvania, coal refuse-fired power plants have reclaimed more than 
7,000 acres of land, improved or restored over 1,200 miles of polluted 
streams, and burned more than 200 million tons of coal refuse so far.
    In promulgating New Source Performance Standards (NSPS), EPA 
concluded that the unique multi-media environmental benefits provided 
by these facilities warranted special consideration. EPA amended the 
NSPS so as to not discourage coal refuse facilities, recognizing that 
different vintage waste coal units have different capabilities relative 
to their ability to control sulfur dioxide (acid gas). Unfortunately, 
this was not done in Mercury and Air Toxics Standards (MATS) rule. Coal 
waste generators emit very little mercury--in fact, these facilities 
were used to establish the ``maximum achievable control technology 
(MACT)'' standards for mercury. However, there is no economic way for 
these facilities to meet the additional acid gas requirements of the 
current MATS rule. In fact, use of the control technology suggested by 
EPA would actually result in increased mercury emissions from the 
plants, and eliminate their ability to use coal ash to restore the 
abandoned mine sites.
    The coal refuse fired-generators have appealed the MATS rule, which 
is pending before the D.C. Circuit. That proceeding has been suspended, 
pending a review of the rule by EPA. They have also filed comments in 
response to EPA's request for comments concerning the Agency's response 
to Executive Order 13777, ``Enforcing the Regulatory Reform Agenda.'' 
These generators have requested that EPA revise the MATS rule to either 
exempt coal refuse- fired generators from MATS or revise application of 
the current acid gas emission limitation for coal-refuse-fired 
generators.
    Would you make a commitment to review this application for relief 
that would allow these plants to continue creating jobs and generating 
electricity, while eliminating toxic air and water pollution at no cost 
to the American taxpayer?
    Answer. On February 24, 2017, the President issued Executive Order 
13777 on Enforcing the Regulatory Reform Agenda. The Executive order, 
among other things, requires each agency to create a Regulatory Reform 
Task Force to evaluate existing regulations and identify any that 
should be repealed, replaced, or modified. To inform these 
recommendations, the Air and Radiation Program held a public meeting, 
via teleconference, on April 24, 2017, to hear from those directly 
impacted by these regulations, including Federal, State, local and 
Tribal governments, small businesses, nongovernmental organizations, 
and trade associations. EPA will continue to work with stakeholders to 
inform EPA's Regulatory Reform efforts to comply with Executive Order 
13777. EPA also will be reviewing specific comments submitted in 
response to Executive Order 13777 about coal refuse units.
               superfund: authority and sediment guidance
    Question. I have been closely following your recent efforts to 
improve the Agency's implementation of the Superfund program, such as 
revising the delegation of authority procedures to require that 
remedies potentially totaling more than $50 million must receive 
approval from the Administrator. Closer coordination with the 
Administrator's office throughout the process will, in your words, help 
ensure ``increased oversight, accountability and consistency in remedy 
selections.''
    Moreover, you established a Superfund Task Force to conduct a 30-
day review of the program, and to recommend any necessary changes to 
ensure remedies are consistent nationwide, data-driven, and efficient. 
Especially at large contaminated sediment sites or ``mega- sites''--
which demand significant Agency and Federal Government resources, 
including additional FTE; can effect local communities for decades; and 
often result in multi-million and--billion dollar cleanups--the 
Agency's attention to proper guidance and procedure has eroded.
    These sites must be cleaned up as expeditiously as possible to 
revitalize urban areas and help spur economic growth and the creation 
of real, high-paying jobs. Since the 30-day timeframe ended on June 22, 
I look forward to reviewing the Task
  --Does the change in delegations of authority--and your instruction 
        to increase headquarters' involvement in site progression from 
        initial assessment to remedy selection--apply to continuing/
        future actions at sites with existing Records of Decision as 
        well as new cleanups?
    Answer. Administrator Pruitt's May 22, 2017 memorandum 
``Prioritizing the Superfund Program'' applies to future records of 
decision and record of decision amendments meeting/exceeding the cost 
threshold criterion. For more detail on the memorandum, please see: 
www.epa.gov/sites/production/files/2017-05/documents/
prioritizing_the_superfund_program_memo_5-22-2017.pdf. For a copy of 
the Superfund Task Force Recommendations, please refer to the following 
website: www.epa.gov/superfund/superfund-task-force-recommendations.
    Question. At new contaminated sediment sites and sites where 
existing Records of Decision are being implemented, what actions are 
you taking to ensure that EPA's Regional offices closely follow the 
principles set forth in the Agency's 2005 Sediment Guidance?
    Answer. EPA's policy and technical guidance encourages selection 
and implementation of sound, nationally consistent remedies at 
contaminated sediment sites. For example, on January 9, 2017, EPA 
issued ``Remediating Contaminated Sediment Sites--Clarification of 
Several Key Remedial Investigation/Feasibility Study and Risk 
Management Recommendations, and Updated Contaminated Sediment Technical 
Advisory Group Operating Procedures.'' This memorandum responds in part 
to an October 2016 Government Accountability Office report (GAO-16-777) 
and updates the Agency's 2005 guidance with additional recommendations, 
consistent with CERCLA, the NCP, and existing CERCLA guidance, for 
characterizing sediment sites, evaluating remedial alternatives, and 
selecting and implementing appropriate response actions.
    Regional offices consult with headquarters on sediment cleanups 
exceeding a certain size threshold, and site cleanups that are large, 
complex, and/or controversial undergo ongoing review by the Agency's 
national Contaminated Sediments Technical Advisory Group. Additionally, 
contaminated sediment sites with proposed remedies estimated to exceed 
$50 million typically also undergo review by EPA's National Remedy 
Review Board (NRRB). The $50 million threshold is part of a pilot 
initiated in 2014 along with the regional remedy review team (RRRT) 
process. The RRRT review normally entails a modified NRRB review for 
proposed remedies between $25 million and $50 million. The pilot is 
expected to continue until the end of fiscal year 2017.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                              chlorpyrifos
    Question. Please provide the EPA scientific analysis and 
recommendation presented to you on your decision to reject a petition 
to revoke food tolerances for chlorpyrifos.
    Answer. EPA denied a petition asking the Agency to revoke all 
pesticide tolerances (maximum residue levels in food) for the pesticide 
chlorpyrifos under the Federal Food, Drug, and Cosmetic Act (FFDCA) and 
cancel all chlorpyrifos registrations under the Federal Insecticide, 
Fungicide, and Rodenticide Act (FIFRA). Prior to this determination, 
EPA took the issues raised in the petition to the FIFRA Scientific 
Advisory Panel (SAP) and presented approaches and proposals for 
evaluating recent epidemiologic data exploring the possible connection 
between in utero and early childhood exposure to chlorpyrifos and 
adverse neurodevelopmental effects. The SAP has reviewed experimental 
toxicology and epidemiology data, and their incorporation into risk 
assessments (2008, 2010, 2012, 2016), risk assessment approaches for 
semi-volatile pesticides (2009), and the evaluation of a chlorpyrifos-
specific pharmacokinetic-pharmacodynamic (PBPK-PD) model (2011). The 
SAP's reports have offered numerous recommendations for additional 
study and sometimes conflicting advice for how EPA should consider (or 
not consider) the epidemiology data in conducting EPA's registration 
review human health risk assessment for chlorpyrifos.
    Following a review of public comments on both the November 2015 
proposal to revoke tolerances and the November 2016 notice of data 
availability, EPA concluded that, despite several years of study, the 
science addressing neurodevelopment effects remained unresolved. 
Further evaluation of the science during the remaining time for 
completion of registration review is warranted to achieve greater 
certainty as to whether the potential exists for adverse 
neurodevelopmental effects to occur from current human exposures to 
chlorpyrifos. Included in the comments under consideration were 
statements submitted by the U.S. Department of Agriculture. Those 
comments can be viewed at www.regulations.gov under docket numbers EPA-
HQ-OPP-2015-0653-0369 and EPA-HQ-OPP-2008-0850-0833.
    EPA is committed to resolving these questions through the 
registration review process, a program that re-evaluates all pesticides 
on a 15-year cycle. EPA does not believe the FFDCA petition process 
should serve to truncate that review. On July 18, 2017, the court 
rejected the petitioners' request and explained that EPA ``has now 
complied with [the court's prior] order by issuing a `final response to 
the petition' [seeking the tolerance revocation].'' In re PANNA, Dkt. 
No. 65, p.4. The court also directed the petitioners to file 
administrative objections under the FFDCA if they wish to challenge 
EPA's denial of their petition. The 9th Circuit ruling affords EPA the 
necessary time to conduct a proper evaluation, under the law, of the 
science and the studies on chlorpyrifos.. Currently, chlorpyrifos 
remains registered as the registration review continues. EPA will not 
complete the human health portion of the registration review or any 
associated tolerance revocation of chlorpyrifos without first 
attempting to come to a clearer scientific resolution on those issues. 
Congress has provided that EPA must complete registration review by 
October 1, 2022, a deadline the Agency intends to meet. All documents 
related to the registration review can be located in the chlorpyrifos 
registration review docket EPA-HQ-OPP-2008-0850 located at 
www.regulations.gov.
             superfund: process, standards, and priorities
    Question. The budget proposes a cut of 30 percent to the Superfund 
program. The list includes 20 sites in the State of New Mexico. The 
areas around Church Rock Mine the site of the largest accidental 
radiation release in U.S. history still needs extensive cleanup. The 
Navajo Nation has suffered greatly from the legacy of uranium 
contamination for generations.
    The Bonita Peak Mining District is also on the Superfund list. That 
area includes the Gold King Mine site that caused a toxic spill in 
2015. These cleanups require funding for engineering, transportation, 
labor, and physical disposal.
  --Will you implement a fully transparent process for any changes to 
        the Superfund program? Will you ensure that the cleanup 
        standards will not be lowered in order to more quickly complete 
        sites on the list? Will EPA's efforts at Church Rock and Gold 
        King continue to be a priority under your administration?
    Answer. Consistent with the Comprehensive Environmental Response, 
Compensation, and Liability Act of 1980 (CERCLA or Superfund), EPA 
communicates and shares information with States, Tribes, and 
communities on site-specific decisionmaking. The Superfund program will 
continue to use its long-standing community involvement process in 
future cleanup decisions at CERCLA sites. For any program-wide changes, 
EPA will utilize a transparent process for implementation.
    EPA will continue to determine site-specific cleanup standards 
based on site-specific risks as the agency implements actions to 
expedite cleanups.
    Addressing human health and environmental risks at National 
Priorities List sites, including the North East Church Rock Mine and 
Bonita Peak Mining District (of which the Gold King Mine is a part) 
will continue to be the Superfund program's core focus. The 
Administrator visited the Gold King Mine Site in early August to 
reinforce his commitment to the communities impacted by the release and 
to discuss a path forward in cleaning up the site. In this visit, he 
brought together local, State and national officials and also technical 
experts to highlight the importance of continued remediation for the 
benefit of all those impacted by the discharges from the Bonita Peak 
area.
                   analysis of enforcement reductions
    Question. Your proposed budget would reduce funding for enforcement 
of Federal environmental laws 25 percent and cut one in five people on 
the enforcement staff.
  --What analysis was conducted to assess the impact of these cuts? How 
        many State inspections would States have to cut? Have you 
        assessed the impact of those cut inspections on assuring 
        compliance with the laws? How many air inspections? How many 
        water inspections? How many hazardous waste inspections?
    Answer. EPA works in partnership with State and Tribal agencies to 
assure compliance, protect public health and the environment, and 
ensure a level playing field for companies that follow the rules. In 
fiscal year 2018, the Agency will focus our resources on our direct 
implementation responsibilities and the most significant violations. 
For fiscal year 2018, the total number of Federal inspections and 
evaluations is projected to be 9,500.
    Question. Companies often say they want more help understanding the 
regulations. How much compliance assistance would be cut, State by 
State, and from the Federal offices? Have you evaluated what the State 
by State effect would be on companies? On small businesses that 
particularly rely on compliance assistance? Please provide the dollar 
amounts of the cut and the numbers of actions that would not occur 
under your budget proposal.
    Answer. The Agency agrees that compliance assistance is a key 
component of a comprehensive compliance and enforcement program. In 
fiscal year 2018, the Agency will work to make more effective use of 
the full array of tools to assist and encourage compliance, in concert 
with traditional enforcement approaches, while focusing on our direct 
implementation responsibilities and the most significant violations.
                              puget sound
    Question. This question is submitted on behalf of Senator Patty 
Murray. Puget Sound recovery and restoration is critical to my home 
State of Washington, to the Pacific Northwest, and to the country as a 
whole. A healthy Puget Sound plays an essential role in the region's 
economy and is important to the environmental and economic future of 
Washington. Healthy waters and tributaries are essential to the 
recovery of several Endangered Species Act-listed salmon populations 
and the protection of Tribal treaty rights. EPA's Geographic Programs 
provide critical Federal support to ongoing State and local efforts to 
implement Washington State's Puget Sound Action Agenda, which supports 
our commercial, recreational, and Tribal fishery industries and outdoor 
recreation economy. I am extremely disappointed with the 
Administration's decision to eliminate the Geographic Programs and 
funding for Puget Sound.
  --Administrator Pruitt, have you analyzed the economic and health 
        impacts of eliminating funding for all Geographic Programs? If 
        Congress disregards the President's misguided proposal and 
        restores funding for Geographic Programs, do I have your 
        commitment to implement the program?
    Answer. EPA will follow the direction of Congress, and will 
implement the Puget Sound program if directed to do so. EPA looks 
forward to continued discussions with the Committee and relevant 
stakeholders to achieve the shared environmental goals and good 
outcomes for the impacted regions. EPA recognizes the significance of a 
healthy Puget Sound. In fact, EPA recently declined to revisit a 
determination that adequate pump out facilities existed in the region, 
thereby allowing the entire Puget Sound to be designated as a ``no-
discharge zone.'' This will be by far the largest such ``no discharge 
zone'' in the Nation.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                  fiscal year 2018 omb budget request
    Question. In your written testimony and during the hearing you 
repeatedly said that you want to prioritize the EPA's core statutory 
mission of providing Americans with clean air, land, and water. Yet 
your budget proposes deep cuts for health and environmental protection 
and the EPA's core traditional programs for air, drinking water, waste, 
chemical safety, pesticides, as well as enforcement and research.
  --What was your original budget request to OMB for fiscal year 2018? 
        Did you submit any appeals to OMB based on the OMB passback for 
        the EPA and, if so, what were those appeals? Please supply 
        these for the record.
    Answer. Per Office of Management and Budget (OMB) Circular A-11, 
the President's budget deliberation process is confidential.
                analyzing changes to agency regulations
    Question. You have stated that you think there are too many 
burdensome EPA regulations and that you are extremely concerned about 
how much certain environmental regulations might cost some sectors of 
our economy. You have already taken steps towards reducing the number 
of EPA regulations and delaying the implementation or enforcement of 
other regulations. Yet revising regulations or delaying them will also 
require detailed analysis and a sound record, just as issuing 
regulations did.
  --How will you analyze possible changes to regulations if you are 
        cutting the staff of the programs and firing or retiring the 
        agency's experts?
    Answer. Reducing inefficiencies and streamlining is good government 
and consistent with E.O. 13563. We are working to ensure we are 
creating a more effective Agency that protects human health and the 
environment, while also being respectful of the American taxpayer.
                         air quality management
    Question. States depend on the EPA's enforcement program for 
technical guidance and coordination. Individual States cannot take on 
nationwide pollution issues that affect Americans across the country, 
and cannot effectively tackle air and water pollutants that cross State 
lines. I am also concerned that industries and businesses may suffer 
from poorly funded, inconsistent State enforcement of Federal laws and 
regulations that create a patchwork situation across the country.
  --With the cuts you propose to EPA's Air Office and to the funds that 
        support State air quality programs, what steps would you be 
        able to take to maintain the air quality we have today, and 
        avoid slipping back to unhealthy dirty skies?
    Answer. EPA will continue to meet its statutorily-required 
obligations under the Clean Air Act including its Clean Air Act 
mandated responsibilities to administer the NAAQS by reviewing State 
plans, working with States to approve State Implementation Plan (SIP) 
submittals on a timely basis, and by developing regulations and 
policies to ensure continued health and welfare protection. EPA will 
continue to look for ways to improve the efficiency and effectiveness 
of programs, in partnership with State and local air agencies, to 
maintain and improve the air quality we have today.
                           lead paint program
    Question. This budget proposes to eliminate the Lead Paint Program, 
as well as the State grant funding for critical local implementation.
  --What is your justification for doing away with the Lead Paint 
        Program?
    Answer. EPA will continue to provide firm and individual 
certifications for safe work practices for lead-based paint abatement 
and renovation and repair efforts. EPA also will continue to provide 
for operation and maintenance of the online database (FLPP) that 
supports the processing of applications for training providers, firms, 
and individuals. These aspects of the lead program will be funded 
within the Chemical Risk Review and Reduction program. Other forms of 
lead exposure are addressed through other targeted programs, such as 
lead pipe replacement with the State Revolving Funds.
    Question. Has the EPA calculated the full costs of the increased 
demand the U.S. would see for medical intervention and special 
education services, and the decrease in academic and lifetime earning 
potential for poisoned children with brain damage if the EPA's lead 
poisoning prevention program is eliminated?
    Answer. EPA's Lead Paint Program has made significant progress in 
reducing the blood lead levels of children through multiple initiatives 
over several years. A combination of outreach and regulations have 
helped make a difference. EPA will continue to provide firm and 
individual certifications for safe work practices for lead-based paint 
abatement and renovation and repair efforts. EPA will continue to 
provide for operation and maintenance of the online database (FLPP) 
that supports the processing of applications for training providers, 
firms, and individuals.
    Question. If you think the work on lead poison prevention is better 
carried out by the States, why have you proposed to eliminate the 
funding that States rely on to support these vital programs?
    Answer. EPA's Lead Paint Program has made significant progress in 
reducing the blood lead levels of children through multiple initiatives 
over several years. A combination of outreach and regulations have 
helped make a difference. States could choose to fund programs targeted 
at reducing lead based paint poisoning and continue activities that 
have been supported by EPA. Additionally, other forms of lead exposure 
(in water and air) continue to be addressed through a host of Federal 
and State programs.
                          geographic programs
    Question. With respect to the Geographic Programs that you propose 
to eliminate.
  --What impacts will such a sweeping and sudden Federal disinvestment 
        and disengagement have on public health and environmental 
        protection in these sensitive regional areas? What analysis on 
        such impacts has the EPA done or utilized to justify 
        eliminating these funds?
    Answer. EPA will work with States to implement core environmental 
programs. EPA looks forward to continued discussions with the Committee 
and relevant stakeholders to achieve the shared environmental goals of 
the region.
                         regional consolidation
    Question. There have been several news reports of possible closings 
of some regional offices that you have pushed back against. At the same 
time, an OMB document from March contained directions to the EPA to 
submit a plan for reducing the number of regional offices from 10 to 8 
by June 15.
  --How did the EPA respond to OMB's request for a regional 
        consolidation plan? Did you advise the OMB that this is not on 
        the table for discussion for the EPA?
    Answer. The fiscal year 2018 budget does not propose closing any 
regional facilities.
    Question. In the total absence of a nearby regional EPA office, how 
would the EPA manage an immediate emergency response to a natural 
disaster or industrial accident affecting our environment that both 
adequately and rapidly coordinates Federal, State and local first 
responders, environmental agencies, law enforcement and others?
    Answer. The fiscal year 2018 budget does not propose closing any 
regional facilities.
    Question. I have repeatedly heard from Vermont State agency staff 
about the important technical expertise, on-the-ground knowledge, and 
leadership at the EPA's regional offices. How would you propose 
replacing those skillsets and the roles of regional staff essential to 
developing acceptable resolutions when a company is charged with a 
violation and ensuring environmental compliance?
    Answer. The fiscal year 2018 budget does not propose closing any 
regional facilities. The budget provides over 5,400 FTE in the regions 
to continue to provide leadership and technical expertise to the 
regulated community, and to partner effectively with States and Tribes.
                       elimination of energy star
    Question. I come from a State with high electricity costs. For this 
reason, I am especially supportive of the Energy Star program, which 
according to EPA saved consumers and businesses $34 billion dollars on 
their utility bills in 2015, yet costs the government just $50 million, 
a stunningly impressive return on investment. Over 16,000 retailers, 
manufacturers and other businesses partner with the Energy Star 
program, providing one of the best examples of a public/private 
partnership.
  --Given the success of this program, what is the rationale for 
        elimination of the program in the fiscal year 2018 budget 
        request?
  --Energy Star has 90 percent brand recognition, which helps nearly 
        every consumer in America to make energy efficient decisions. 
        Do you believe helping consumers make energy efficient choices 
        is an important goal for the EPA?
    Answer. The President's fiscal year 2018 budget request for EPA 
reflects the success of environmental protection efforts, a focus on 
core legal requirements, and the important role of Federal-State 
partnerships in implementing the Nation's environmental laws. EPA will 
continue to find ways to partner with stakeholders in the private 
sector to innovate, improve our environment, and strengthen our 
economy.
                  office of inspector general funding
    Question. In fiscal year 2017, the EPA Office of the Inspector 
General was funded at $41.49 million. Your fiscal year 2018 budget 
proposal calls for a $4 million reduction to that office, which will 
undoubtedly limited its ability to independently uncover and prevent 
fraud, waste, and abuse at the EPA.
  --You have said that economic efficiency is one of the main goals of 
        this EPA. If this is the case, what is the justification for 
        cutting funding to the office that is in charge of ensuring 
        cost effective programs at EPA? How can we be sure American tax 
        dollars are being well spent if you fail to provide the 
        necessary funding for oversight at the EPA?
    Answer. The fiscal year 2018 President's budget includes $37.4 
million for the Office of the Inspector General to continue its vital 
work. In fiscal year 2018, OIG will continue to provide independent 
audit, program evaluation, inspection and investigative services and 
products that fulfill the requirements of the Inspector General Act, as 
amended, by identifying fraud, waste, and abuse in agency, grantee and 
contractor operations, and by promoting economy, efficiency, and 
effectiveness in the operations of the agency's programs. Proposed 
reductions in the President's budget to the OIG are consistent, if not 
lower than the reductions across the Agency.
                           regional haze rule
    Question. EPA grants to States have been critical over the years in 
implementation of the Regional Haze Rule to clean up the air in our 
national parks and wilderness areas. These grants to States were 
essential in the development of visibility plans that have led to 
tremendous gains in cleaning up hazy park skies over the last 10 years.
  --With the drastic proposed cuts to State grants, how does EPA expect 
        States to perform and fulfill their Clean Air Act 
        implementation and enforcement obligations?
  --Would your proposed cuts for Federal grants to States result in a 
        backsliding on current progress and result in more pollution in 
        our national parks and communities due to a lack of enforcement 
        and new and additional financial burdens on State agencies as 
        they aim to fill the budgetary gap in order to comply with 
        clean air laws?
    Answer. It is essential for EPA to work cooperatively with State 
and Tribal governments to provide the environmental protection our laws 
demand and the American people deserve. EPA is seeking to engage in 
meaningful discussion about how shared environmental goals can best be 
achieved and will work with States and Tribes to target resources to 
core statutory work and provide flexibility to address environmental 
priorities and concerns. The fiscal year 2018 President's budget 
request reflects EPA's role in a model of cooperative Federalism that 
emphasizes strong cooperative State and Tribal partnerships and is 
guided by congressional direction in core environmental statutes.
                            climate research
    Question. Your budget eliminates funding for climate change 
research, including research on how climate change worsens unhealthy 
air pollution like smog. There is a clear scientific consensus that 
climate change is happening in real time and directly caused by human 
actions. Unprecedented levels of carbon dioxide emissions have 
accelerated the warming of the planet, directly contributing to violent 
and unpredictable weather patterns that we are seeing in Vermont, as 
well as rising sea levels, threatened wildlife, and deadly heat 
records.
  --How will the EPA execute its core responsibility of protecting 
        public health and the environment from a changing climate 
        without collecting and researching basic information such as 
        this?
    Answer. EPA's Office of Research and Development's (ORD) research 
is critical to supporting EPA's mission to improve and maintain clean 
air, water, and healthy ecosystems. Under the President's budget, ORD's 
core science efforts, as it relates to this program, will prioritize 
statutory obligations surrounding these activities.
                          workforce reduction
    Question. you propose to cut as many as 3,200 jobs from the EPA and 
I understand have already begun an aggressive process of buying out 
employees and refusing to renew the terms for dozens of scientific 
advisers.
  --How do these personnel cuts, including many from scientific 
        advisory boards that provide expert input, help achieve the 
        central mission of the EPA?
    Answer. EPA is focused on its mission of protecting human health 
and the environment. Sound science is the backbone of EPA's rule-making 
process. EPA is eager to not only fill these advisory boards through a 
competitive application process but also ensure that EPA competitively 
selects the best individuals for these boards. Rather than 
automatically renew the terms of BOSC members among other boards, EPA 
opened the solicitation process to review if the existing Membership's 
expertise and breadth is appropriate given the new Administrator's 
priorities, while also identifying and selecting additional qualified 
individuals, from a wide background, to serve. The EPA aims to select 
the best individuals from a diverse pool, representing a wide range of 
stakeholders and viewpoints, to serve on these boards. During the 
period which EPA opened soliciting new members for these Boards, 44 
applied to serve on CASAC and 110 applied to serve on the SAB, so far. 
430 unique individuals applied to serve on the BOSC. During the 
previous Administration, for a nearly 2-year period, EPA did not even 
convene the BOSC. This current Administration has different plans. EPA 
is reviewing the applications and will announce members to the BOSC in 
October and convene regular meetings thereafter. EPA will value and 
ensure scientific review is a principal part of its activities. EPA 
will prioritize science and research activities directly tied to 
statutory requirements and inquiries into environmental and human 
health sciences.
  --Since Congress has the final word over funding for the EPA, do you 
        commit to abiding to congressional intent and direction if the 
        EPA is directed to slow or stop its process of cutting staff?
    Answer. EPA will adhere to congressional direction.
                                 ______
                                 
          Questions Submitted by Senator Shelley Moore Capito
                 clean drinking water rural communities
    Question. I am pleased that you and the president recognize the 
importance of the Clean Water and Drinking Water State Revolving Funds 
in your budget. Many of our systems in rural communities, specifically 
in southern West Virginia, are legacy systems that were built in 
company towns as far back as the 1930s. When the companies left these 
areas, they left the water systems behind with no technical assistance.
  --How do you see EPA as a partner with these communities to ensure 
        they get clean drinking water, rather than simply just an 
        enforcer that issues fines?
    Answer. In the last 5 years, the Agency has awarded approximately 
$40 million to provide training and technical assistance to small 
public water systems. The funding helps provide training and tools to 
improve small system operations and management practices, promote 
sustainability, and support EPA's mission to protect public health and 
the environment. The areas of assistance include asset management, 
capital improvement planning, fiscal planning and rate setting, water 
loss reduction, water system collaboration and partnerships, managerial 
leadership, funding coordination, as well as training and technical 
assistance to assist in achieving compliance with National Primary 
Drinking Water Regulations. In the first year of funding, one of the 
grantees provided more than 2,200 individuals with technical assistance 
and taught more than 100 workshops in all 50 States and in 4 U.S. 
Territories.
    Since its inception, the State-managed Drinking Water State 
Revolving Fund (DWSRF) have cumulatively provided $9.2 billion to small 
systems through over 8,000 assistance agreements. In addition to 
financing infrastructure through loans, States have four DWSRF set-
asides States can use to support small system capacity. On average, 
States use up to 16 percent of the allowed 31 percent of a State's 
DWSRF capitalization grant to fund capacity building activities such as 
asset management and energy/water efficiency to help small systems 
become sustainable. States have used set-aside funds for a variety of 
pre-development activities to support small systems including (but not 
limited to): capital investment project planning, design and 
engineering to get water system projects ``construction-ready'' to 
receive a DWSRF loan; facilitation of water system partnership 
opportunities for water systems to share costs or joint system 
management; development of water conservation or energy efficiency 
programs; facilitated coordination of Federal funding for small system 
projects, and on-site technical support by circuit riders providing 
managerial and operational assistance.
    In addition, the Agency will continue to work with our Federal 
partners such as the U.S. Department of Agriculture and the Department 
of Veteran Affairs to collaborate on programmatic missions that will 
enhance the implementation of the drinking water program.
            small and rural communities technical assistance
    Question. Recently I joined Senator Wicker in cosponsoring the 
Small and Rural Community Clean Water Technical Assistance Act, which 
would identify and define small and medium-sized communities and set 
aside funding for technical assistance for these water systems. Many 
communities in West Virginia fit into this ``small treatment works'' 
definition, having less than 10,000 individuals being served by a water 
system.
  --Do you support that approach?
    Answer. Over 90 percent of public water systems in the United 
States are classified as small systems. As a result, the Safe Drinking 
Water Act has a significant focus on support for small public water 
systems. EPA, State staff, and our stakeholder groups have been 
directing technical and financial assistance to small systems capacity 
building for several years. EPA financial assistance has been provided 
through two main sources of funding--the Drinking Water State Revolving 
Fund (DWSRF) and the National Training and Technical Assistance Grants. 
EPA continues to make significant investment in technical assistance 
and training as our water sector stakeholders continue to reinforce the 
need these systems have for assistance. Additionally, to the extent 
that EPA can provide technical assistance to your office and Senator 
Wicker's office to improve how EPA responds and assists our small 
communities and systems, we would be eager to work with you in that 
opportunity.
    Question. Would you agree that solutions for fixing and maintaining 
small water systems must differ from larger systems in urban areas?
    Answer. Over 90 percent of public water systems in the United 
States are classified as small systems. As a result, the Safe Drinking 
Water Act has a significant focus on support for small public water 
systems. EPA, State staff, and our stakeholder groups have been 
directing technical and financial assistance to small systems capacity 
building for several years. EPA financial assistance has been provided 
through two main sources of funding--the Drinking Water State Revolving 
Fund (DWSRF) and the National Training and Technical Assistance Grants 
and more recently through the Water Infrastructure Finance and 
Innovation Act (WIFIA). EPA continues to make significant investment in 
technical assistance and training as our water sector stakeholders 
continue to reinforce the need these systems have for assistance. 
Additionally, to the extent that EPA can provide technical assistance 
to your office and Senator Wicker's office to improve how EPA responds 
and assists our small communities and systems, we would be eager to 
work with you in that opportunity.
    Question. Can you commit to working with us here in Congress to 
find solutions that work for our small communities' water systems?
    Answer. Without question. EPA is eager to work with Congress to 
identify and implement solutions that best address the needs of public 
water systems to enhance their technical managerial, and financial 
capacity to address long-term compliance with the National Primary 
Drinking Water Regulations.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                           california waiver
    Question. Under the Clean Air Act, California has the ability to 
set its own vehicle emissions standards. California's standards 
currently mirror the Federal standards, thanks to a carefully 
negotiated consensus. But, if this Administration were to weaken 
Federal standards, California would be able to maintain its stronger 
standards through 2025 under a routine waiver that was granted by the 
Obama administration.
    During your confirmation hearing, you told Senator Kamala Harris 
that you might consider reviewing, and presumably revoking, 
California's waiver, which would be unprecedented and without a 
statutory basis. But at a hearing this month, you told Representative 
Ken Calvert that California's waiver is not currently under review.
  --I was glad to see you testify that California's waiver is ``not 
        currently being reviewed,'' but has a firm decision been made 
        not to re-open the waiver in the future?
  --Will you commit to keep this committee informed if California's 
        waiver comes under review in the future?
    Answer. Under the Clean Air Act, EPA shall waive Federal preemption 
of California's standards for mobile sources when certain specific 
statutory criteria are met. At this time, EPA is not reviewing waivers 
for California's standards for light-duty vehicles.
   vehicle emissions standards: collaboration with the department of 
         transportation and the california air resources board
    Question. The vehicle emissions standards are a shared 
responsibility between your agency, the Department of Transportation, 
and the California Air Resources Board.
    One of the main reasons that this program has been a success is 
because all three agencies have worked very hard to achieve consensus. 
That's why we currently have one coordinated national program that 
provides certainty for the auto industry.
    If EPA does not maintain the current consensus, it would likely 
lead to years of protracted litigation from all sides. This is an 
outcome that everyone, including even the auto industry, seems to want 
to avoid. Given how much President Trump has talked about wanting to 
protect the auto industry, I hope you will recognize that the best way 
forward is to maintain an effective national consensus.
    The country needs you to engage in good-faith negotiations, based 
on sound science, with the intention of maintaining consensus.
  --What steps will you take to involve California from the outset in 
        your review of the coordinated national program?
  --Are you working with the Department of Transportation to coordinate 
        your review of the vehicle emission standards with their rule 
        making on the fuel economy standards?
  --Are you allowing the EPA technical experts to collaborate with the 
        Department of Transportation experts and provide unbiased 
        assessments?
    Answer. The Agency's positive environmental agenda builds on 
cooperative Federalism between the Federal Government and implementing 
partners. It is essential for EPA, in conjunction with other Federal 
agencies, including the Department of Transportation, to work with 
State and Tribal governments to provide the environmental protection 
our laws demand and the American people deserve. EPA is working to 
engage in meaningful discussion about how shared environmental goals 
can best be achieved.
    The Administrator announced, in March 2017, his intention to 
reconsider the January 2017 Final Determination and his plans to issue 
a new Final Determination no later than April 1, 2018. As part of this 
reconsideration, EPA plans to coordinate with the Department of 
Transportation in support of a national harmonized program. EPA expects 
California will work with us to be part of the process and with their 
participation, this reconsideration will be based on the best available 
data and part of a robust, timely, and inclusive process.
                      investing in infrastructure
    Question. Administrator Pruitt, I was deeply disturbed to see that 
your fiscal year 2018 budget eliminated funding for critical State and 
local grant programs, particularly the San Francisco Bay Restoration 
Program and the U.S.-Mexico Border Infrastructure program.
    President Trump repeatedly promised to reinvest in our cities and 
in America's infrastructure. But in light of these EPA cuts, it appears 
to me that President Trump has turned his back on America's cities and 
reneged on his promise to invest in America's infrastructure.
  --Administrator Pruitt, how do you square the budget you're 
        presenting today with President Trump's promise to invest in 
        our cities and our infrastructure?
    Answer. EPA is committed to working with States, cities, and 
private companies to invest in our water infrastructure through the 
Clean Water and Drinking Water State Revolving Funds and the Water 
Infrastructure Finance and Innovation Act. EPA will continue to discuss 
cross-border environmental issues with stakeholders. EPA maintains a 
border office in San Diego dedicated to working with the Federal, State 
and local partners dedicated to eliminating the pollution and dangers 
emanating from Mexico. EPA is consistently engaged with the 
International Boundary and Water Commission (``IBWC''), California 
Regional Water Council, CONAGUA, the local government of Tijuana, City 
of Imperial Beach, U.S. Customs and Border Patrol as well as the 
Agents' representatives the National Border Patrol Council AFGE Local 
1613 to find solutions to the problems and continue to help bring 
Mexico into compliance with its obligations.
                   u.s.-mexico border infrastructure
    Question. After heavy rain, the Tijuana River carries wastewater, 
trash, and sediment from Tijuana, Mexico into the United States, 
resulting in flooding, pollution, and beach closures in San Diego 
County. Beyond damaging public and private property, transboundary 
flows harm sensitive wildlife areas, including the Tijuana River's 
National Estuarine Research Reserve, River Mouth State Marine 
Conservation Area, and River Valley Regional Park Preserve, which 
provide habitat for over 300 species of birds as well as marine animals 
such as leopard sharks and bottlenose dolphins.
    In February 2017, approximately 28 million gallons of raw sewage 
was discharged from Mexico into the Tijuana River Valley negatively 
impacting the health and human safety of U.S. citizens and Border 
Patrol Agents operating in the area. Given these cross-national 
challenges, which affect our beaches, wildlife habitats, public and 
private property, health and human safety, and border patrol 
operations, I believe we must fully fund environmental programs along 
the U.S.-Mexico border.
  --Given the risk to U.S. citizens, including Border Patrol Agents, 
        why has EPA eliminated funding for Border Environmental 
        Infrastructure Fund?
  --If Congress were to accept the proposed elimination of funding for 
        this program, how would EPA protect human health along the 
        border and ensure that the United States is protected from 
        infrastructure deficiencies in Mexico?
  --Other than the U.S.-Mexico Border Infrastructure Program, what 
        other Environmental Protection Agency programs are currently 
        directing efforts and funding to the region to monitor and 
        mitigate cross-border pollution?
    Answer. The State Revolving Funds and the Water Infrastructure 
Finance and Innovation Act (WIFIA) program are sources of 
infrastructure funding that can continue to fund water system 
improvements in U.S. communities along the border. The fiscal year 2018 
President's budget request for EPA includes a total of over $2.2 
billion for the Clean Water and Drinking Water State Revolving Fund 
programs and $20 million for the WIFIA program. In addition, the EPA 
maintains a border office in San Diego dedicated to working with the 
Federal, State and local partners on border dedicated to eliminating 
the pollution and dangers emanating from Mexico. The EPA is 
consistently engaged with the International Boundary and Water 
Commission (``IBWC''), California Regional Water Council, CONAGUA, the 
local government of Tijuana, City of Imperial Beach, U.S. Customs and 
Border Patrol as well as the Agents' representatives the National 
Border Patrol Council AFGE Local 1613 to find solutions to the problems 
and continue to help bring Mexico into compliance with its obligations.
                     imperial county air pollution
    Question. Imperial County, like many regions in California 
including the Los Angeles Basin and the Central Valley, has significant 
hospitalization rates for childhood asthma, especially among low-income 
and Hispanic families.
    For Imperial County specifically, particulate matter and air 
pollution is carried across the U.S.-Mexico border and throughout the 
region by strong desert winds. According to State public health 
officials, approximately 12,000 children in Imperial County have been 
diagnosed with chronic respiratory illness. Imperial County has more 
than double California's rate of asthma-related emergency room visits 
and hospitalizations for children, between ages 5 and 17. Given these 
ongoing challenges, I believe it is imperative that the environmental 
programs along the U.S.-Mexico border be fully funded.
  --What is EPA currently doing to protect children and families in 
        Southern California, specifically Imperial County, from air 
        pollution coming across the border from Mexico?
    Answer. EPA works closely with the Imperial County Air Pollution 
Control District, the California Air Resources Board, and other local 
organizations to develop air quality plans to meet national ambient air 
quality standards, implement projects to address asthma, enhance 
monitoring of air pollution, and engage with Mexican colleagues to 
reduce air pollution. Recognizing that Imperial is the only county in 
the U.S. that is currently designated as not meeting three different 
EPA air quality standards (for ozone, fine particulate, and dust), EPA 
has focused financial, policy, and enforcement resources in Imperial 
County.
    Question. How will these efforts be impacted by the cuts proposed 
in the fiscal year 2028 budget?
    Answer. The President's fiscal year 2018 budget request continues 
to provide support for EPA, State and local governments, and local 
communities, across the country, to advance programs that protect human 
health and the environment.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
                     states' budgets and resources
    Question. Administrator Pruitt, in your Senate confirmation 
hearing, you highlighted that States should be at the forefront of 
environmental protection and said that States ``remain our Nation's 
frontline environmental implementers and enforcers.'' As you are 
probably aware, approximately 65 percent, or $5.3 billion, of the EPA's 
budget went out as grants to States, Tribes, and municipalities in 
2016. However, while you are asking States to take on more 
responsibility, the President's budget cuts grants to States and Tribes 
by 30 percent. If you take out the nearly level funding for the State 
water revolving funds, then total State funding is cut by over 50 
percent. These are the core categorical grants that go towards 
protecting our air and water, and enforcing environmental standards and 
protections.
  --Moving forwards, how will your agency guarantee that States have 
        the budget and resources, including technical assistant from 
        the EPA, to ensure that core environmental and public health 
        protections are maintained, including air and water monitoring, 
        restoration, enforcement, and compliance? Please show the 
        analysis on State budget impacts that the EPA conducted prior 
        to submitting its fiscal year 2018 budget request.
    Answer. The Agency's positive environmental agenda builds on 
cooperative Federalism between the Federal Government and implementing 
partners, better engagement with communities through technical 
assistance, and optimization of the regulatory and permit process. This 
agenda is designed to strengthen EPA's ability to faithfully execute 
and administer environmental laws, as outlined in the statutes, in 
order to protect human health and the environment for all Americans.
    EPA's resources support our core mission of protecting human health 
and the environment, and not on activities beyond the scope of EPA's 
regulatory authority or those that can be led by State and local 
partners.
                              energy star
    Question. The EPA's fiscal year 2018 budget proposed cutting the 
EnergyStar program.
  --Please detail the amount of funds the Federal Government has spent 
        on EnergyStar, and the resulting savings to consumers in lower 
        electricity use and bills.
    Answer. The Energy Star Program began in year 1992 and in fiscal 
year 2016, EPA spent $43.2 million on the Program.
    Question. Please also outline the overall cost-benefit ratio of the 
EnergyStar program, and describe the communications with relevant 
energy and industry groups prior to proposing the elimination of this 
highly successful and popular program.
    Answer. EPA will continue to find ways to partner with stakeholders 
in the private sector to innovate, improve our environment, and 
strengthen our economy.
                            climate research
    Question. Administrator Pruitt, the EPA's fiscal year 2018 budget 
would virtually eliminate every climate research program in the agency. 
This position contradicts the statement you made during your 
confirmation hearing that climate science should continue to be 
debated.
  --Since the EPA's budget cuts this research, does that mean you know 
        longer need convincing, and that you acknowledge that the EPA 
        has determined that the accumulation of carbon dioxide air 
        pollution in the atmosphere endangers public health and 
        welfare, and that power plants significantly contribute to that 
        air pollution?
    Answer. Sound science is the backbone of EPA's rulemaking process 
and the statutes passed by Congress outline the agencies authorities. 
EPA will continue to conduct a range of economic, scientific, and 
technical analyses for Clean Air Act (CAA) regulatory actions, 
technical input, and policy support.
    Question. Do you therefore acknowledge that EPA has a legal 
obligation under the Clean Air Act to limit power plant carbon dioxide 
emissions?
    Answer. The Supreme Court ruled, in Massachusetts v. EPA, that EPA 
has the authority to regulate carbon dioxide as an air pollutant under 
the Clean Air Act. Congress as a body, however, has not weighed in on 
the question about whether the Agency is obligated to regulate carbon 
dioxide.
                           climate briefings
    Question. Administrator Pruitt, have you ever had a briefing on 
climate change science by EPA's climate scientists and/or experts?
  --If yes, please list the date(s) of these briefings, the presenters, 
        and the content.
  --If no, have you ever asked for such a briefing and do you believe 
        that such a briefing could inform your work as you are 
        attempting to cut programs that the EPA has stood by as 
        important mechanisms to protect public health in the past?
    Answer. The Administrator welcomes and holds briefings with EPA 
experts on a variety of issues that that could inform work at EPA.
    Question. Have you ever had a briefing from EPA scientists on the 
impacts of climate change on public health and welfare in America or 
globally?
  --If yes, please list the date(s) of these briefings, the presenters, 
        and the content.
  --If no, have you ever asked for such a briefing and do you believe 
        such a briefing could inform your work as you make decisions 
        impacting public health?
    Answer. The Administrator welcomes and holds briefings with EPA 
experts on a variety of issues that that could inform work at EPA.
    Question. Have you ever had a briefing the subjects in question 4 
or question 5 by scientists and experts from NASA, NOAA, the U.S. 
Global Change Research Program, or the National Centers for Disease 
Control?
    Answer. The Administrator welcomes and holds briefings with experts 
on a variety of issues that that could inform work at EPA.
              executive order 13783 and climate briefings
    Question. The ``Presidential Executive Order on Promoting Energy 
Independence and Economic Growth'' (Executive Order 13783) was released 
on March 28, 2017. This Executive order calls for the review and 
possible repeal of virtually all climate-related regulations.
  --While this Executive order was being prepared, did you discuss 
        climate science or impacts with the President?
    Answer. The Executive order does not call for the review and 
possible repeal of ``virtually all climate-related regulations,'' but, 
rather Section 3 says ``Certain Energy and Climate-Related Presidential 
and Regulatory Actions.'' The President and I have both made our views 
on climate science clear many times.
    Question. Did the President receive any briefing on climate science 
or impacts from any of the science agencies, including NOAA, NASA, the 
Centers for Disease Control, or the U.S. Global Change Research 
Program?
    Answer. NOAA, NASA, CDC are not part of the U.S. Environmental 
Protection Agency. The U.S. Global Change Research Program is overseen 
by the White House Office of Science and Technology Policy (OSTP). 
Please reach out to those agencies directly for details about their 
discussions and briefings with the President.
    Question. Similarly, in preparations for the President's June 1, 
2017, announcement of his intention to withdraw from the Paris Climate 
Agreement, did you discuss climate science or impacts with the 
President?
    Answer. All my discussions with the President leading to 
President's courageous decision to withdraw from the Paris Agreement 
focused on whether or not the Paris Agreement was a good deal for this 
country.
    Question. Did the President receive any briefing on climate science 
or impacts from any of the above mentioned science agencies?
    Answer. Please reach out to those agencies directly for details 
about their discussions and briefings with the President.
         federal vehicle and fuels standards and certification
    Question. By any measure, the EPA greenhouse gas emissions 
standards for cars, known as the CAFE standards, have been extremely 
successful: sparking technology innovation, saving consumers far more 
dollars at the pump than they spend in the showroom for the improved 
technology, increasing vehicle sales and jobs, and reducing pollution. 
Prior to the implementation of these standards, two of the three U.S. 
based car companies had fallen behind on technology and had to be 
bailed out. Now U.S. car companies are thriving.
  --Why reduce funding for vehicle pollution work that is helping to 
        remake and revive America's auto industry?
    Answer. The fiscal year 2018 President's budget request for EPA 
reflects the success of environmental protection efforts, a focus on 
core legal requirements, and the important role of Federal-State 
partnerships in implementing the Nation's environmental laws. In fiscal 
year 2018, under the Federal Vehicle and Fuels Standards and 
Certification program, EPA will focus its efforts on the certification 
decisions that are required under the Clean Air Act.
                                 ______
                                 
            Questions Submitted by Senator Chris Van Hollen
          chesapeake bay program office in annapolis, maryland
    Question. The Chesapeake Bay Agreement of 1983 established the 
Chesapeake Bay Program Office (CBPO), a formal program designed to 
coordinate Federal, State, local and non-profit efforts to restore and 
protect the Chesapeake Bay ecosystem in a ``partnership-based office'' 
in Annapolis, Maryland:

        ``We recognize that the findings of the Chesapeake Bay Program 
        have shown an historical decline in the living resources of the 
        Chesapeake Bay and that a cooperative approach is needed among 
        the Environmental Protection Agency (EPA), the State of 
        Maryland, the Commonwealths of Pennsylvania and Virginia, and 
        the District of Columbia (the States) to fully address the 
        extent, complexity, and sources of pollutants entering the Bay. 
        We further recognize that EPA and the States share the 
        responsibility for management decisions and resources regarding 
        the high priority issues of the Chesapeake Bay. Accordingly, 
        the States and EPA agree to the following actions: a liaison 
        office for Chesapeake Bay activities will be established at 
        EPA's Central Regional Laboratory in Annapolis, Maryland, to 
        advise and support the Council and committee.''

    In 1987, the Chesapeake Executive Council (EPA Administrator 
representing the Federal Government, along with the Governors of 
Virginia, Maryland, Pennsylvania, the Mayor of the District of 
Columbia, and the Chair of the Chesapeake Bay Commission) signed a new 
agreement--the 1987 Chesapeake Bay Agreement--which included the 
following commitment to co-locating program participants in one office:

        ``To achieve these goals we agree to strengthen the Chesapeake 
        Bay Liaison Office by assigning, as appropriate, staff persons 
        from each jurisdiction and from participating Federal agencies 
        to assist with the technical support functions of that 
        office.''

    Currently, the CBPO in Annapolis, MD houses 30 CBPO staff, 35 non-
Federal partners, 25 NOAA staff, 20 U.S. Fish and Wildlife staff, 4 
U.S. Forest Service staff, 4 USGS staff and 25 NPS staff--all of whom 
collaborate to fully restore the Bay's health. The current lease on the 
Chesapeake Bay Program Office space is scheduled to expire in February 
2019.
  --Will you commit to ensuring that the Chesapeake Bay Program Office 
        remains in Annapolis as established in the original Chesapeake 
        Bay Agreement to ensure continued, effective collaboration 
        between Bay partners?
    Answer. EPA is committed to maintaining effective collaboration 
between the Bay partners. As our lease is expiring for the current 
office, we are committed to remain in close proximity of the Bay and, 
in keeping with the Federal Asset Sale and Transfer Act, best utilize 
existing space.
                         chesapeake bay program
    Question. In addition to eliminating the Chesapeake Bay Program, 
the budget eliminates the Section 319 Nonpoint Source Pollution grant 
program, which Maryland and other Bay States use to address nonpoint 
source pollution from stormwater and agriculture, which are major 
challenges for the Bay. The EPA budget says that the agency will work 
with USDA to address runoff, but the USDA budget proposes eliminating 
the Regional Conservation Partnership Program, which is intended to 
help critical watersheds like the Bay.
  --Should these cuts go into effect, how much direct assistance (in 
        dollars) would EPA commit to the Chesapeake Bay States for the 
        cleanup process? Where would those dollars come from?
    Answer. Based on the percentage of Bay States' surface area within 
the Chesapeake Bay, EPA can reasonably estimate that EPA would spend 
approximately $79 million in Clean Water State Revolving Fund and 
Section 106 Pollution Control grant funding in the region. EPA looks 
forward to continuing to work with the Chesapeake Executive Council and 
its Principals' Staff Committee and relevant partners to achieve the 
shared environmental goals of the Chesapeake Bay Watershed Agreement 
and the Chesapeake Bay TMDL.
    Question. Should these cuts go into effect, will staff with 
institutional knowledge of the cleanup process be reassigned to other 
departments? How many staff will EPA commit to work directly with the 
Bay States to provide coordination and technical assistance?
    Answer. EPA is committed to working with the Bay States and other 
relevant partners to achieve the shared environmental goals of the 
Chesapeake Bay Watershed Agreement and the Chesapeake Bay TMDL.
                         environmental justice
    Question. Too often in our country, pollution and polluting 
industries are concentrated in communities where people don't have the 
political power to prevent them. Or, as in the case of Flint, Michigan, 
the cries of a vulnerable community about poisons in their environment 
go unheard. The EPA's Office of Environmental Justice, which was 
founded under President George H.W. Bush as the Office of Environmental 
Equity, is intended to hear them, often poor and minority communities, 
and help solve their problems. With proper funding and authority, the 
Office of Environmental Justice should ensure that equity and fairness 
is a clear priority throughout the EPA and that no community has an 
undue burden of pollution and waste.
    Under this budget, the Office of Environmental Justice isn't just 
cut--it is completely eliminated. According to the budget, 
``Environmental Justice will continue to be supported in the work done 
at the EPA, when applicable.''
  --Can you name specific instances when you would deem environmental 
        justice an applicable consideration for EPA programs?
    Answer. The Agency remains committed to working with communities to 
develop solutions to the environmental and public health challenges 
they face. Environmental Justice will not only continue to be 
considered within the work done at EPA, but EPA is moving it back into 
the Office of the Administrator under this administration to ensure it 
remains a key component of all rulemakings, guidance, and actions.
    Question. The budget goes on to say, ``EJ work impacting the entire 
agency will be incorporated into future policy work within the 
Integrated Environmental Strategy program.'' IES has primarily worked 
with developing countries on public health initiatives.
  --What is the strategy for ensuring that environmental justice is a 
        key part of the EPA's domestic work?
    Answer. The Agency remains committed to working with communities to 
develop solutions to the environmental and public health challenges 
they face. Environmental justice will continue to be considered within 
the work done at EPA and also is specifically incorporated into policy 
work within the Office of the Administrator.
 military advisory board report: ``national security and the threat of 
                            climate change''
    Question. In 2007, the Military Advisory Board, a group of retired 
three- and four-star flag and general officers from the Army, Navy, Air 
Force, and Marine Corps, released a report, ``National Security and the 
Threat of Climate Change,'' in which they wrote: ``The nature and pace 
of climate changes being observed today'' that's in 2007, 10 years ago 
``are grave and pose equally grave implications for our national 
security.''
  --Are you aware of the military's concerns about climate change and 
        its impact as a ``threat multiplier'' on our national security?
    Answer. EPA is aware of the Military Advisory Board's report and 
concerns.
                            research budget
    Question. You've talked about having a ``Red Team, Blue Team'' 
approach to climate debate to come to scientific consensus.
  --If you do want to repeat the exhaustive scientific debate that has 
        already occurred--over 830 experts weighing in on the 
        Intergovernmental Panel on Climate Change, over 300 on the 
        National Climate Assessment--why does the budget slash climate 
        research, including eliminating the Global Change Research 
        Program?
    Answer. The fiscal year 2018 President's budget includes $276.8 
million to support EPA's Office of Research and Development and support 
science, the backbone of EPA's rulemaking process. In fiscal year 2018, 
ORD will shift its programmatic resources to focus on core Agency 
responsibilities that relate to statutory requirements or that support 
basic and early stage research and development activities.
                            climate website
    Question. You have indicated that the EPA's climate change website 
has been taken down for updating.
  --When will the climate change website be back online?
    Answer. The climate change web content from previous 
administrations is still publicly accessible in EPA's web archive.
    Question. Will you commit to including the peer-reviewed scientific 
data and guides on safeguarding health and communities on the site when 
it goes back online?
    Answer. Science provides the foundation for EPA's policies, 
actions, and decisions made on behalf of the American people. EPA 
research incorporates science and engineering that meets the highest 
standards for integrity, peer review, transparency, and ethics. The 
process of incorporating high-quality science into agency 
decisionmaking is coordinated by science organizations within the 
Agency. It is guided by EPA's scientific integrity policies. In 
addition, the Agency's stringent scientific peer review processes are 
designed to ensure that all EPA decisions are founded on credible 
science and data.
    Question. Please provide justifications for any changes made to the 
website.
    Answer. EPA is evaluating content on its website to ensure 
accuracy, consistency, and reliability.
                       steam electric plants rule
    Question. In 2015, the Environmental Protection Agency updated a 
rule from 1982 on toxic discharges from steam electric plants. New 
technologies and implementation of air pollution controls necessitated 
reform to the rule to curb power plant discharges of toxic pollutants 
like arsenic, lead, selenium, mercury, chromium, and cadmium to surface 
waters. EPA estimated that the new rule would reduce toxic pollutant 
discharge by 1.4 billion pounds a year.
    EPA has now proposed postponing compliance dates for fly ash 
transport water, bottom ash transport water, flue gas desulfurization 
wastewater, flue gas mercury control wastewater, and gasification 
wastewater.
  --Do you believe that updates to the 1982 rule are necessary to 
        safeguard water?
  --What is the timeline for review of this rule?
  --What are key considerations for EPA in reviewing the rule and its 
        compliance dates?
    Answer. In response to petitions for reconsideration sent to EPA, 
on April 12, 2017, the Administrator sent a letter to the Small 
Business Administration Office of Advocacy and the Utility Water Act 
Group indicating that he would reconsider the 2015 final rule in order 
to determine whether or not to begin a rulemaking in order to modify or 
repeal part or all of the rule. On April 25, 2017 EPA published a 
Federal Register notice issuing an administrative stay of the 
compliance dates in the 2015 final rule pending the ongoing judicial 
review of that rule. Then, on June 6, 2017 EPA published a proposed 
rule in the Federal Register to postpone certain compliance dates in 
the 2015 final rule. This rule has not been finalized. On August 11, 
2017, the Administrator signed a letter to the Small Business 
Administration Office of Advocacy and the Utility Water Act Group 
indicating his determination that it is appropriate and in the public 
interest to conduct a rulemaking to potentially revise the new, more 
stringent effluent limitations and pretreatment standards for existing 
sources for bottom ash transport water and flue gas desulfurization 
(FGD) wastewater. On August 14, 2017, DOJ filed a motion to govern 
further proceedings in the litigation challenging the 2015 final rule 
in the U.S. Court of Appeals for the Fifth Circuit. The motion asked 
the court to sever and hold in abeyance all proceedings relating to the 
portions of the 2015 final rule concerning the new, more stringent 
effluent limitations and pretreatment standards applicable to bottom 
ash transport water, FGD wastewater, and gasification wastewater. 
(Through a separate administrative action, on August 7, 2017, EPA 
Region 5 proposed to grant a variance of certain limits applicable to 
the only facility that would be subject to the gasification part of the 
2015 rule). On August 22, 2017, the court granted DOJ's motion. Key 
considerations include the concerns from the Small Business 
Administration Office of Advocacy and the Utility Water Act Group 
expressed in petitions for reconsideration sent to EPA, as well as 
ensuring that these regulations accurately reflect current operations 
and the best available technologies that are economically achievable in 
the steam electric power industry.
    The draft final rule to delay compliance was signed by the 
Administrator on September 12, 2017.
                  energy star-impacts from elimination
    Question. The energy efficiency sector employs 2.2 million 
Americans, including 67,000 Marylanders, and provides employment 
opportunities for workers with both technical training and advanced 
degrees. The ENERGY STAR program helps consumers identify energy 
efficient products and save on their energy bills.
    The budget eliminates ENERGY STAR, which would deprive Americans of 
non-biased, up-to-date information as they make energy purchases for 
their homes and businesses.
  --Has EPA analyzed potential impacts from eliminating ENERGY STAR on 
        the energy efficiency sector and consumer purchasing?
  --What data was used in the decision to eliminate this ENERGY STAR?
    Answer. EPA will continue to find ways to partner with stakeholders 
in the private sector to innovate, improve our environment, and 
strengthen our economy.

                          SUBCOMMITTEE RECESS

    Senator Murkowski. Very good. Thank you. And with that, we 
stand adjourned.
    [Whereupon, at 11:30 a.m., Tuesday, June 27, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
